Pen
  nsion Benefit
        B       Guaran
                     nty Corrporatio
                                   on
    Office
         e of Ins
                specto
                     or Gen
                          neral
             Aud
               dit Repo
                      ort




  Audit
  A     of the Pen
                 nsion Be
                        enefit Guuaranty
 Co
  orporation's Fis
                 scal Yea
                        ar 2011 and
                                a 2010  0
  Special-P
  S       Purposee Financ
                        cial State
                                 ements




           Novem
               mber 14, 2011
                                 AUD-2012--4 / FA-11-82
                                                      2-4
                  Audit of the Pension Benefit Guaranty
                 Corporation’s Fiscal Year 2011 and 2010
                  Special-Purpose Financial Statements


                   Audit Report AUD-2012-4 / FA-11-82-4


                                  Contents


Section I:     Independent Auditor’s Report on
               Special-Purpose Financial Statements




                     U.S. Department of the Treasury
                     Financial Management Service
          Governmentwide Financial Report System (GFRS) Reports


Section II:    GF001G – Financial Statements Template with
                        Standard General Ledger (SGL) Accounts
Section III:   Audited Financial Statements (FS) Reports including
               Other Comprehensive Basis of Accounting (OCBOA) Reports
                  GF002A – Audited FS Report
                  GF002B – OCBOA Statement Report
                  GF002C – OCBOA Adjustments Report
Section IV:    GF003F – Closing Package Financial Statement Report
Section V:     GF003G – Closing Package Line Reclassification Summary Report
Section VI:    GF004F – Trading Partner Summary Note Report
Section VII:   GF006C – Financial Report (FR) Notes Report
Section VIII: GF006F – Notes Status Report
Section IX:    GF007F – Other FR Data Status Report
Section X:     GF007G – Other Data Report
Section XI:    GF008G – Completion and Approvals Report
Section XII: GF120     – Reclassification Audit Trail Report
                          at Statement Summary Level
   Audit of the Pension Benefit Guaranty
  Corporation’s Fiscal Year 2011 and 2010
   Special-Purpose Financial Statements


  Audit Report AUD-2012-4 / FA-11-82-4




                Section I

  Independent Auditor’s Report on
Special-Purpose Financial Statements
a1
               Independent Auditor’s Report on Special-Purpose Financial Statements


To the Board of Directors, Management,
and Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC


We have audited the accompanying reclassified balance sheets as of September 30, 2011 and
2010, and the related reclassified statements of net cost and changes in net position for the
years then ended (hereinafter referred to as the special-purpose financial statements) contained
in the special-purpose closing package of Pension Benefit Guaranty Corporation (PBGC).
These special-purpose financial statements are the responsibility of PBGC’s management. Our
responsibility is to express an opinion on these special-purpose financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the special-purpose financial statements are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the special-purpose financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall special-purpose financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements and accompanying notes contained in
the special-purpose closing package have been prepared for the purpose of complying with the
requirements of the U.S. Department of the Treasury’s Financial Manual (TFM) Volume I,
Part 2, Chapter 4700, solely for the purpose of providing financial information to the
U.S. Department of the Treasury and U.S. Government Accountability Office to use in preparing
and auditing the Financial Report of the U.S. Government, and are not intended to be a
complete presentation of PBGC’s financial statements.

In our opinion, the special-purpose financial statements and accompanying notes referred to
above present fairly, in all material respects, the financial position of PBGC as of
September 30, 2011 and 2010, and its net costs and changes in net position for the years then
ended in conformity with accounting principles generally accepted in the United States of
America and the presentation pursuant to the requirements of the TFM Chapter 4700.




11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com
                                                1
                                                                                 h
By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining. As
of September 30, 2011, PBGC reported in its general purpose financial statements, net deficit
positions (liabilities in excess of assets) in the Single-Employer and Multiemployer Program
Funds of $23.27 billion and $2.77 billion, respectively. As discussed in Note 9 to the general
purpose financial statements, loss exposure for the Single-Employer and Multiemployer
Programs that are reasonably possible as a result of unfunded vested benefits are estimated to
be $227 billion and $23 billion, respectively. Management based the Single-Employer Program
estimate on data for fiscal years ending in calendar year 2010 that was obtained from filings and
submissions to the government and from corporate annual reports. Subsequent adjustment for
economic conditions through September 30, 2011 has not been made and as a result the
exposure to loss for the Single-Employer Program as of September 30, 2011 could be
substantially different. In addition, PBGC’s net deficit and long-term viability could be further
impacted by losses from plans classified as reasonably possible (or from other plans not yet
identified as potential losses) as a result of deteriorating economic conditions, the insolvency of
a large plan sponsor or other factors. PBGC has been able to meet its short-term benefit
obligations. However, as discussed in Note 1 to the general purpose financial statements,
management believes that neither program at present has the resources to fully satisfy PBGC’s
long-term obligations to plan participants.

The information included in the Other Data Report is presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but is
supplementary information required by the TFM Chapter 4700. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding methodology and
presentation of this information. We also reviewed such information for consistency with the
related information presented in PBGC’s special-purpose financial statements. However, we did
not audit this information, and accordingly, we express no opinion on it.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as amended,
we have also issued a combined report dated November 14, 2011 (see PBGC's Office of
Inspector General's report number AUD-2012-1/FA-11-82-1), which presents our opinion on
PBGC's financial statements; our opinion on management’s assertion about the effectiveness of
PBGC’s internal control over financial reporting; and our consideration of PBGC's compliance
with laws, regulations, and its operations. That report is an integral part of an audit of general
purpose financial statement reporting performed in accordance with Government Auditing
Standards and OMB Bulletin No. 07-04, as amended, and should be read in conjunction with
this report in considering the results of our audits.

In planning and performing our audits of the special-purpose financial statements, we also
considered PBGC’s internal control over the financial reporting process for the special-purpose
financial statements and compliance with the TFM Chapter 4700. Management is responsible
for establishing and maintaining internal control over financial reporting, including the
Other Data Report, and for complying with laws and regulations, including compliance with the
TFM Chapter 4700 requirements.

Our consideration of internal control over the financial reporting process for the special-purpose
financial statements would not necessarily disclose all matters in the internal control over the
financial reporting process that might be significant deficiencies. Under standards issued by the
American Institute of Certified Public Accountants, a control deficiency exists when the design
or operation of a control does not allow management or employees, in the normal course of




                                                2
performing their assigned functions, to prevent or detect misstatements on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. A material weakness is a deficiency, or a combination of deficiencies, in
internal control such that there is a reasonable possibility that a material misstatement of the
entity’s special-purpose financial statements will not be prevented or detected and corrected on
a timely basis.

As part of our audit of the general purpose financial statements of PBGC, we identified
deficiencies in internal control over financial reporting (including safeguarding assets) and
compliance with laws and regulations, and its operation that we consider material weakness and
other deficiencies that we consider to be a significant deficiency. These matters are described in
further detail in PBGC’s Office of Inspector General’s report number AUD-2012-1/FA-11-82-1.
However, providing an opinion on internal control over the financial reporting process for the
special-purpose financial statements was not an objective of our audits of the special-purpose
financial statements and, accordingly, we do not express such opinion.

As part of our audit of the general purpose financial statements of PBGC, we identified an
instance of noncompliance with selected provisions of laws and regulations for fiscal year 2011.
This matter is described in further detail in PBGC’s Office of Inspector General’s report number
AUD-2012-1/FA-11-82-1. Our tests of compliance with the TFM Chapter 4700 requirements
disclosed no instances of noncompliance that are required to be reported under Government
Auditing Standards and OMB Bulletin No. 07-04, as amended. However, providing an opinion
on compliance with the TFM Chapter 4700 requirements was not an objective of our audits of
the special-purpose financial statements and, accordingly, we do not express such opinion.

This report is intended solely for the information and use of PBGC’s Office of Inspector General,
Board of Directors, management of PBGC, the U.S. Department of the Treasury, the Office of
Management and Budget, the U.S. Government Accountability Office, the U.S. Congress, and
the President in connection with the preparation and audit of the Financial Report of the
U.S. Government and is not intended to be and should not be used by anyone other than these
specified parties.


A1
Calverton, Maryland
November 14, 2011




                                                 3
           Audit of the Pension Benefit Guaranty
          Corporation’s Fiscal Year 2011 and 2010
           Special-Purpose Financial Statements


           Audit Report AUD-2012-4 / FA-11-82-4




                           Section II

GF001G – Financial Statements Template Report
 with Standard General Ledger (SGL) Accounts




                      Definition of Attributes


A     –   Non Custodial                 S    –   Custodial
ATB   –   Adjusted Trial Balance        T    –   Nonexchange
BSF   –   Budget Subfunction            TP   –   Trading Partner
F     –   Federal                       U    –   Undefined
N     –   Nonfederal                    X    –   Exchange
                                                                                                            11/15/2011 15:06:44
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                2011       Period:       SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

ASSETS
Cash and cash equivalents
SGL    Description                                                 Status F/N TP X/T        S/A       BSF   ATB Code
1010   Fund Balance With Treasury                                         U   U   U          U         U    ALL
1110   Undeposited Collections                                            N   U   U          A         U    ALL
1120   Imprest Funds                                                      N   U   U          U         U    ALL
1190   Other Cash                                                         N   U   U          U         U    ALL
1610   Investments in U.S. Treas. Securities Issued by BPD                 F ALL U           U         U    ALL
Securities lending collateral (Notes 3 and 5)
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1690 Other Investments                                                    N     U      U     U         U    ALL
Investments, at market (Notes 3 and 5):
Fixed maturity securities
SGL  Description                                                   Status F/N   TP X/T      S/A       BSF   ATB Code
1610 Investments in U.S. Treas. Securities Issued by BPD                   F    ALL U        U         U    ALL
1611 Discount on U.S. Treasury Securities Issued by BPD                    F    ALL U        U         U    ALL
1612 Premium on U.S. Treasury Securities Issued by BPD                     F    ALL U        U         U    ALL
1613 Amort. of Disc. & Pre. on U.S.Treasury Sec. Issued by BPD             F    ALL U        U         U    ALL
1618 Market Adjustment - Investments                                      N      U  U        U         U    ALL
1620 Investments in Securities Other Than BPD Securities                  N      U  U        U         U    ALL
1621 Discount on Securities Other Than BPD Securities                     N      U  U        U         U    ALL
1622 Premium on Securities Other Than BPD Securities                      N      U  U        U         U    ALL
1630 Invest in U.S. Treas Zero Coupon Bonds Issued by BPD                  F    ALL U        U         U    ALL
1631 Discount on U.S. Treasury Zero Coupon Bonds Issued by                 F    ALL U        U         U    ALL
     BPD
1633 Amort of Disc - U.S. Treas Zero Coupon Bonds Issued by               F     ALL   U      U        U     ALL
     BPD
1690 Other Investments                                                    N     U     U      U        U     ALL
Equity securities
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL
Private equity
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL
Real estate and real estate investment trusts
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL




                                                             -1-
                                                                                                          11/15/2011 15:06:44
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:               2011      Period:       SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Other
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                     N     U     U     U         U    ALL
1690 Other Investments                                                   N     U     U     U         U    ALL
Total investments
Calculation
Line Description
 5     Fixed maturity securities
 6     Equity securities
 7     Private equity
 8     Real estate and real estate investment trusts
 9     Other
Receivables, net:
Sponsors of terminated plans
SGL     Description                                               Status F/N   TP   X/T   S/A       BSF   ATB Code
1310    Accounts Receivable                                              N     U     U     A         U    ALL
1319    Allowance for Loss on Accounts Receivable                        N     U     U     A         U    ALL
1340    Interest Receivable - Not Otherwise Classified                   N     U     U     A         U    ALL
Premiums (Note 11)
SGL  Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
1319 Allowance for Loss on Accounts Receivable                           N     U     U     A         U    ALL
1340 Interest Receivable - Not Otherwise Classified                      N     U     U     A         U    ALL
1347 Allowance for Loss on Interest Receivable - Not Otrws               N     U     U     A         U    ALL
     Class.
1360 Penalties and Fines Receivable - Not Otherwise Classified           N     U    U      A        U     ALL
1367 Allowance for Loss on Penal. & Fines Rec. - Not Otrws               N     U    U      A        U     ALL
     Class.
Sale of securities
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
Derivative contracts (Note 4)
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
Investment income
SGL     Description                                               Status F/N TP X/T       S/A       BSF   ATB Code
1310    Accounts Receivable                                              N   U   U         A         U    ALL
1342    Interest Receivable - Investments                                N   U   U         A         U    ALL
1342    Interest Receivable - Investments                                 F ALL U          A         U    ALL




                                                            -2-
                                                                                                             11/15/2011 15:06:44
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                  2011      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Other
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1310    Accounts Receivable                                                 N     U     U     A         U    ALL
1319    Allowance for Loss on Accounts Receivable                           N     U     U     A         U    ALL
1340    Interest Receivable - Not Otherwise Classified                      N     U     U     A         U    ALL
1341    Interest Receivable - Loans                                         N     U     U     A         U    ALL
1345    Allowance for Loss on Interest Receivable - Loans                   N     U     U     A         U    ALL
1350    Loans Receivable                                                    N     U     U     U         U    ALL
1359    Allowance for Loss on Loans Receivable                              N     U     U     U         U    ALL
1360    Penalties and Fines Receivable - Not Otherwise Classified           N     U     U     A         U    ALL
1410    Advances and Prepayments                                            N     U     U     U         U    ALL
1990    Other Assets                                                        N     U     U     U         U    ALL
2400    Liab. for Nonfid. Dep. Funds, Clear. Acct. & Undep.                 N     U     U     U         U    ALL
        Collect.
Total receivables
Calculation
Line Description
 12    Sponsors of terminated plans
 13    Premiums (Note 11)
 14    Sale of securities
 15    Derivative contracts (Note 4)
 16    Investment income
 17    Other
Capitalized assets, net
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1750    Equipment                                                           N     U     U     U         U    ALL
1759    Accumulated Depreciation on Equipment                               N     U     U     U         U    ALL
1820    Leasehold Improvement                                               N     U     U     U         U    ALL
1829    Accumulated Amortization on Leasehold Improvements                  N     U     U     U         U    ALL
1830    Internal-Use Software                                               N     U     U     U         U    ALL
1832    internal-Use Software in Development                                N     U     U     U         U    ALL
1839    Accumulated Amortization on Internal-Use Software                   N     U     U     U         U    ALL
Total assets
Calculation
Line Description
 2     Cash and cash equivalents
 3     Securities lending collateral (Notes 3 and 5)
 10    Total investments
 18    Total receivables
 19    Capitalized assets, net


LIABILITIES
Present value of future benefits, net (Note 6):




                                                               -3-
                                                                                                                  11/15/2011 15:06:44
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                       2011      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Trusteed plans
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                                 N     U     U     U         U    ALL
Plans pending termination and trusteeship
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                                 N     U     U     U         U    ALL
Settlements and judgments
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                                 N     U     U     U         U    ALL
Claims for probable terminations
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                                 N     U     U     U         U    ALL
Total present value of future benefits, net
Calculation
Line Description
 24    Trusteed plans
 25    Plans pending termination and trusteeship
 26    Settlements and judgments
 27    Claims for probable terminations
Inactive - Present value of nonrecoverable future financial assistance (Note 7)
Present value of nonrecoverable future financial assistance (Note 7)
Insolvent plans
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2920 Contingent Liabilities                                                      N     U     U     U         U    ALL
Probable insolvent plans
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2920 Contingent Liabilities                                                      N     U     U     U         U    ALL
Total present value of nonrecoverable future financial assistance
Calculation
Line Description
 31    Insolvent plans
 32    Probable insolvent plans
Payables, net:
Derivative contracts (Note 4)
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                     N     U     U     U         U    ALL
Due for purchases of securities
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                     N     U     U     U         U    ALL

                                                                    -4-
                                                                                                                   11/15/2011 15:06:44
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                        2011      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Payable upon return of securities loaned
SGL Description                                                            Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                      N     U     U     U         U    ALL
Securities sold under repurchase agreements
SGL Description                                                            Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                      N     U     U     U         U    ALL
Unearned premiums
SGL Description                                                            Status F/N   TP   X/T   S/A       BSF   ATB Code
2320 Other Deferred Revenue                                                       N     U     U     U         U    ALL
2400 Liab. for Nonfid. Dep. Funds, Clear. Acct. & Undep.                          N     U     U     U         U    ALL
     Collect.
Inactive - Due for purchases of securities
Inactive - Derivative contracts (Note 4)
Accounts payable and accrued expenses (Note 8)
SGL     Description                                                        Status F/N   TP X/T     S/A       BSF   ATB Code
2110    Accounts Payable                                                           F    ALL U       A         U    ALL
2110    Accounts Payable                                                          N      U  U       A         U    ALL
2120    Disbursements in Transit                                                   F    ALL U       U         U    ALL
2120    Disbursements in Transit                                                  N      U  U       U         U    ALL
2130    Contract Holdbacks                                                        N      U  U       U         U    ALL
2210    Accrued Funded Payroll and Leave                                          N      U  U       U         U    ALL
2213    Employer Contributions and Payroll Taxes Payable                           F    ALL U       U         U    ALL
2215    Other Post-Employment Benefits Due and Payable                             F    ALL U       U         U    ALL
2215    Other Post-Employment Benefits Due and Payable                            N      U  U       U         U    ALL
2220    Unfunded Leave                                                            N      U  U       U         U    ALL
2400    Liab. for Nonfid. Dep. Funds, Clear. Acct. & Undep.                       N      U  U       U         U    ALL
        Collect.
Total payables
Calculation
Line Description
 35    Derivative contracts (Note 4)
 36    Due for purchases of securities
 37    Payable upon return of securities loaned
 38    Securities sold under repurchase agreements
 39    Unearned premiums
 42    Accounts payable and accrued expenses (Note 8)
Total liabilities
Calculation
Line Description
 28    Total present value of future benefits, net
 33    Total present value of nonrecoverable future financial assistance
 43    Total payables




                                                                -5-
                                                                                                       11/15/2011 15:06:44
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                 2011     Period:   SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Net position
SGL     Description                                                 Status F/N   TP X/T    S/A   BSF   ATB Code
3310    Cumulative Results of Operations                                   U      U  U      U     U    ALL
5310    Interest Revenue - Other                                           N      U  T      A    ALL   ALL
5310    Interest Revenue - Other                                           N      U  X      A    ALL   ALL
5311    Interest Revenue - Investments                                      F    ALL X      A    ALL   ALL
5311    Interest Revenue - Investments                                     N      U  X      A    ALL   ALL
5320    Penalties and Fines Revenue                                        N      U  T      A    ALL   ALL
5329    Contra Revenue for Administrative Fees                             N      U  T      A    ALL   ALL
5500    Insurance and Guarantee Premium Revenue                            N      U  X      U    ALL   ALL
5765    Nonexpenditure Financing Sources - Transfer-Out - Otr               F    ALL U      U     U    ALL
5780    Imputed Financing Sources                                           F    ALL U      U     U    ALL
5900    Other Revenue                                                       F    ALL X      A    ALL   ALL
5900    Other Revenue                                                      N      U  X      A    ALL   ALL
6100    Operating Expenses/Program Cost                                     F    ALL U      U    ALL   ALL
6100    Operating Expenses/Program Cost                                    N      U  U      U    ALL   ALL
6330    Other Interest Expenses                                            N      U  U      A    ALL   ALL
6400    Benefit Expense                                                     F    ALL U      U    ALL   ALL
6400    Benefit Expense                                                    N      U  U      U    ALL   ALL
6720    Bad Debt Expense                                                   N      U  U      U    ALL   ALL
6730    Imputed Costs                                                       F    ALL U      U    ALL   ALL
6790    Other Expenses Not Requiring Budgetary Resources                   N      U  U      U    ALL   ALL
6850    Empl'yr Contrib. to Emp. Benefit Prog. Not Req. Curr Yr             F    ALL U      U    ALL   ALL
        BA
7110    Gains on Disposition of Assets - Other                             N      U    X    U    ALL   ALL
7111    Gains on Disposition of Investments                                F     ALL   X    U     U    ALL
7111    Gains on Disposition of Investments                                N      U    X    U     U    ALL
7180    Unrealized Gains                                                   F     ALL   X    U     U    ALL
7180    Unrealized Gains                                                   N      U    X    U     U    ALL
7190    Other Gains                                                        N      U    X    U    ALL   ALL
7210    Losses on Disposition of Assets - Other                            N      U    X    U    ALL   ALL
7211    Losses on Disposition of Investments                               F     ALL   X    U     U    ALL
7211    Losses on Disposition of Investments                               N      U    X    U     U    ALL
7280    Unrealized Losses                                                  F     ALL   X    U     U    ALL
7280    Unrealized Losses                                                  N      U    X    U     U    ALL
7290    Other Losses                                                       N      U    X    U    ALL   ALL
7600    Changes in Actuarial Liability                                     N      U    U    U    ALL   ALL
Total liabilities and net position
Calculation
Line Description
 44    Total liabilities
 45    Net position




                                                              -6-
                                                                                                 11/15/2011 15:06:44
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: INCOME STATEMENT                          Fiscal Year:            2011    Period:   SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

UNDERWRITING:
Income:
Premium, net (Note 11)
Other
Total
Expenses:
Administrative
Other
Total
Other underwriting activity:
Losses from completed and probable terminations (Note 12)
Losses from financial assistance (Note 7)
Actuarial adjustments (credits) (Note 6)
Total
Underwriting gain (loss)
FINANCIAL:
Investment income (loss) (Note 13):
Fixed
Equity
Private equity
Other
Total
Expenses:
Investment
Actuarial charges (Note 6):
Due to passage of time
Due to change in interest rates
Total
Financial income (loss)
Net loss
Calculation
Line Description
 15    Underwriting gain (loss)
 29    Financial income (loss)
                                                            -7-
                                                                                                            11/15/2011 15:06:44
                                          U.S. Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System
                                   Financial Statement Template with SGL Accounts
Statement: INCOME STATEMENT                          Fiscal Year:                2011       Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Total Costs
SGL    Description                                                 Status F/N   TP X/T      S/A   BSF       ATB Code
5765   Nonexpenditure Financing Sources - Transfer-Out - Otr               F    ALL U        U     U        ALL
6100   Operating Expenses/Program Cost                                     F    ALL U        U    ALL       ALL
6100   Operating Expenses/Program Cost                                    N      U  U        U    ALL       ALL
6330   Other Interest Expenses                                            N      U  U        A    ALL       ALL
6400   Benefit Expense                                                     F    ALL U        U    ALL       ALL
6400   Benefit Expense                                                    N      U  U        U    ALL       ALL
6720   Bad Debt Expense                                                   N      U  U        U    ALL       ALL
6730   Imputed Costs                                                       F    ALL U        U    ALL       ALL
6790   Other Expenses Not Requiring Budgetary Resources                   N      U  U        U    ALL       ALL
6850   Empl'yr Contrib. to Emp. Benefit Prog. Not Req. Curr Yr             F    ALL U        U    ALL       ALL
       BA
7210   Losses on Disposition of Assets - Other                            N      U    X      U    ALL       ALL
7211   Losses on Disposition of Investments                               F     ALL   X      U     U        ALL
7211   Losses on Disposition of Investments                               N      U    X      U     U        ALL
7280   Unrealized Losses                                                  N      U    X      U     U        ALL
7290   Other Losses                                                       N      U    X      U    ALL       ALL
7600   Changes in Actuarial Liability                                     N      U    U      U    ALL       ALL
Total Revenue
SGL    Description                                                 Status F/N   TP X/T      S/A   BSF       ATB Code
5310   Interest Revenue - Other                                           N      U  T        A    ALL       ALL
5310   Interest Revenue - Other                                           N      U  X        A    ALL       ALL
5311   Interest Revenue - Investments                                      F    ALL X        A    ALL       ALL
5311   Interest Revenue - Investments                                     N      U  X        A    ALL       ALL
5320   Penalties and Fines Revenue                                        N      U  T        A    ALL       ALL
5329   Contra Revenue for Administrative Fees                             N      U  T        A    ALL       ALL
5500   Insurance and Guarantee Premium Revenue                            N      U  X        U    ALL       ALL
5780   Imputed Financing Sources                                           F    ALL U        U     U        ALL
5900   Other Revenue                                                       F    ALL X        A    ALL       ALL
5900   Other Revenue                                                      N      U  X        A    ALL       ALL
7110   Gains on Disposition of Assets - Other                             N      U  X        U    ALL       ALL
7111   Gains on Disposition of Investments                                 F    ALL X        U     U        ALL
7111   Gains on Disposition of Investments                                N      U  X        U     U        ALL
7180   Unrealized Gains                                                   N      U  X        U     U        ALL
7190   Other Gains                                                        N      U  X        U    ALL       ALL
Net position, beginning of year
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
3310 Cumulative Results of Operations                                     U     U      U     U         U    ALL
Net position, end of year
Calculation
Line Description
 31    Total Costs
 32    Total Revenue
 33    Net position, beginning of year




                                                             -8-
    Audit of the Pension Benefit Guaranty
   Corporation’s Fiscal Year 2011 and 2010
    Special-Purpose Financial Statements


    Audit Report AUD-2012-4 / FA-11-82-4




                Section III

Audited Financial Statement (FS) Reports
 including Other Comprehensive Basis
    of Accounting (OCBOA) Reports

    GF002A – Audited FS Report
    GF002B – OCBOA Statement Report
    GF002C – OCBOA Adjustments Report
                                                                                             11/15/2011 15:06:11
                                        U.S.Department of the Treasury
                                         Financial Management Service
                                    Governmentwide Financial Report System

                                            GF002A - Audited FS Report


Statement:    BALANCE SHEET                           Fiscal Year: 2011                Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY                 Reported in: MILLIONS            Decimal: ZERO
        CORPORATION

Agency Line Description                                      FY 2011-SEPTEMBER              FY 2010-SEPTEMBER

ASSETS
Cash and cash equivalents                                                      5,026                       4,448
Securities lending collateral (Notes 3 and 5)                                  4,587                       5,427
Investments, at market (Notes 3 and 5):
Fixed maturity securities                                                     47,977                      41,396
Equity securities                                                             17,997                      22,393
Private equity                                                                 1,459                       2,050
Real estate and real estate investment trusts                                    536                         459
Other                                                                             22                          17
Total investments                                                             67,991                      66,315
Receivables, net:
Sponsors of terminated plans                                                      31                          11
Premiums (Note 11)                                                               562                         756
Sale of securities                                                             1,807                       1,589
Derivative contracts (Note 4)                                                    178                          78
Investment income                                                                481                         430
Other                                                                              3                           5
Total receivables                                                              3,062                       2,869
Capitalized assets, net                                                           33                          32
Total assets                                                                  80,699                      79,091

LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans                                                                91,719                      88,022
Plans pending termination and trusteeship                                        346                         501
Settlements and judgments                                                         56                          55
Claims for probable terminations                                                 833                       1,445
Total present value of future benefits, net                                   92,954                      90,023
Present value of nonrecoverable future
financial assistance (Note 7)
Insolvent plans                                                                1,232                       1,179
Probable insolvent plans                                                       3,243                       1,851
Total present value of nonrecoverable future                                   4,475                       3,030
financial assistance
Payables, net:
Derivative contracts (Note 4)                                                    173                          67
Due for purchases of securities                                                4,079                       3,076
Payable upon return of securities loaned                                       4,587                       5,427
Securities sold under repurchase agreements                                        0                           0
Unearned premiums                                                                397                         395
Accounts payable and accrued expenses (Note 8)                                    70                         103


                                                        - 1 -
                                                                                          11/15/2011 15:06:11
                                         U.S.Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System

                                           GF002A - Audited FS Report


Statement:     BALANCE SHEET                         Fiscal Year: 2011              Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY                Reported in: MILLIONS          Decimal: ZERO
        CORPORATION

Agency Line Description                                     FY 2011-SEPTEMBER            FY 2010-SEPTEMBER

Total payables                                                             9,306                        9,068
Total liabilities                                                        106,735                      102,121
Net position                                                             (26,036)                     (23,030)
Total liabilities and net position                                        80,699                       79,091




                                                       - 2 -
                                                                                           11/15/2011 15:06:11
                                      U.S.Department of the Treasury
                                       Financial Management Service
                                  Governmentwide Financial Report System

                                         GF002A - Audited FS Report


Statement:   INCOME STATEMENT                      Fiscal Year: 2011                 Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY              Reported in: MILLIONS             Decimal: ZERO
        CORPORATION

Agency Line Description                                   FY 2011-SEPTEMBER               FY 2010-SEPTEMBER

UNDERWRITING:
Income:
Premium, net (Note 11)                                                     2,164                         2,324
Other                                                                         17                            30
Total                                                                      2,181                         2,354
Expenses:
Administrative                                                               367                           380
Other                                                                         21                            (7)
Total                                                                        388                           373
Other underwriting activity:
Losses from completed and probable terminations                              201                           509
(Note 12)
Losses from financial assistance (Note 7)                                   1,560                          831
Actuarial adjustments (credits) (Note 6)                                    1,672                       (1,190)
Total                                                                       3,433                          150
Underwriting gain (loss)                                                   (1,640)                       1,831
FINANCIAL:
Investment income (loss) (Note 13):
Fixed                                                                      3,650                         5,416
Equity                                                                      (276)                        2,116
Private equity                                                               144                           404
Other                                                                         76                          (159)
Total                                                                      3,594                         7,777
Expenses:
Investment                                                                    71                            81
Actuarial charges (Note 6):
Due to passage of time                                                   3,880                           4,215
Due to change in interest rates                                          1,009                           6,396
Total                                                                    4,960                          10,692
Financial income (loss)                                                 (1,366)                         (2,915)
Net loss                                                                (3,006)                         (1,084)
Total Costs                                                            (12,932)                        (12,013)
Total Revenue                                                            9,926                          10,929
Net position, beginning of year                                        (23,030)                        (21,946)
Net position, end of year                                              (26,036)                        (23,030)




                                                     - 3 -
                                                                                             11/15/2011 15:06:16
                                            U.S.Department of the Treasury
                                             Financial Management Service
                                        Governmentwide Financial Report System

                                            GF002B - OCBOA Statement Report


Statement:   BALANCE SHEET                                     Fiscal Year: 2011            Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS        Decimal: ZERO


Agency Line Description                                           FY 2011-SEPTEMBER           FY 2010-SEPTEMBER

ASSETS
Cash and cash equivalents                                                           5,026                    4,448
Securities lending collateral (Notes 3 and 5)                                       4,587                    5,427
Investments, at market (Notes 3 and 5):
Fixed maturity securities                                                          44,951                   39,631
Equity securities                                                                  17,997                   22,393
Private equity                                                                      1,459                    2,050
Real estate and real estate investment trusts                                         536                      459
Other                                                                                  22                       17
Total investments                                                                  64,965                   64,550
Receivables, net:
Sponsors of terminated plans                                                           31                       11
Premiums (Note 11)                                                                    562                      756
Sale of securities                                                                  1,807                    1,589
Derivative contracts (Note 4)                                                         178                       78
Investment income                                                                     481                      430
Other                                                                                   3                        5
Total receivables                                                                   3,062                    2,869
Capitalized assets, net                                                                33                       32
Total assets                                                                       77,673                   77,326

LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans                                                                     91,719                   88,022
Plans pending termination and trusteeship                                             346                      501
Settlements and judgments                                                              56                       55
Claims for probable terminations                                                      833                    1,445
Total present value of future benefits, net                                        92,954                   90,023
Present value of nonrecoverable future financial
assistance (Note 7)
Insolvent plans                                                                     1,232                    1,179
Probable insolvent plans                                                            3,243                    1,851
Total present value of nonrecoverable future financial                              4,475                    3,030
assistance
Payables, net:
Derivative contracts (Note 4)                                                         173                       67
Due for purchases of securities                                                     4,079                    3,076
Payable upon return of securities loaned                                            4,587                    5,427
Securities sold under repurchase agreements                                             0                        0
Unearned premiums                                                                     397                      395
Accounts payable and accrued expenses (Note 8)                                         70                      103
Total payables                                                                      9,306                    9,068


                                                          - 1 -
                                                                                        11/15/2011 15:06:16
                                         U.S.Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System

                                       GF002B - OCBOA Statement Report


Statement:    BALANCE SHEET                                 Fiscal Year: 2011          Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION        Reported in: MILLIONS       Decimal: ZERO


Agency Line Description                                        FY 2011-SEPTEMBER         FY 2010-SEPTEMBER

Total liabilities                                                           106,735                    102,121
Net position                                                                (29,062)                   (24,795)
Total liabilities and net position                                           77,673                     77,326




                                                       - 2 -
                                                                                                11/15/2011 15:06:16
                                         U.S.Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System

                                         GF002B - OCBOA Statement Report


Statement:   INCOME STATEMENT                                   Fiscal Year: 2011              Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION             Reported in: MILLIONS          Decimal: ZERO


Agency Line Description                                             FY 2011-SEPTEMBER            FY 2010-SEPTEMBER

UNDERWRITING:
Income:
Premium, net (Note 11)                                                                2,164                      2,324
Other                                                                                    17                         30
Total                                                                                 2,181                      2,354
Expenses:
Administrative                                                                         367                        380
Other                                                                                   21                         (7)
Total                                                                                  388                        373
Other underwriting activity:
Losses from completed and probable terminations (Note 12)                               201                        509
Losses from financial assistance (Note 7)                                             1,560                        831
Actuarial adjustments (credits) (Note 6)                                              1,672                     (1,190)
Total                                                                                 3,433                        150
Underwriting gain (loss)                                                             (1,640)                     1,831
FINANCIAL:
Investment income (loss) (Note 13):
Fixed                                                                                 2,388                      4,370
Equity                                                                                 (276)                     2,116
Private equity                                                                          144                        404
Other                                                                                    76                       (159)
Total                                                                                 2,332                      6,731
Expenses:
Investment                                                                               71                         81
Actuarial charges (Note 6):
Due to passage of time                                                                3,880                      4,215
Due to change in interest rates                                                       1,009                      6,396
Total                                                                                 4,960                     10,692
Financial income (loss)                                                              (2,628)                    (3,961)
Net loss                                                                             (4,268)                    (2,130)
Total Costs                                                                         (12,865)                   (11,908)
Total Revenue                                                                         8,597                      9,778
Net position, beginning of year                                                     (24,794)                   (22,664)
Net position, end of year                                                           (29,062)                   (24,794)




                                                            - 3 -
                                                                                                                    11/15/2011 15:06:17
                                                       U.S.Department of the Treasury
                                                        Financial Management Service
                                                   Governmentwide Financial Report System

                                                    GF002C - OCBOA Adjustments Report


Statement: BALANCE SHEET                                                           Fiscal Year:      2011             Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                            Reported in:      MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line            FY 2011-SEPTEMBER FY 2011-SEPTEMBER FY 2011-SEPTEMBER      FY 2010-SEPTEMBER FY 2010-SEPTEMBER FY 2010-SEPTEMBER
Description                   Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference

ASSETS
Cash and cash                      5,026              5,026                  0                      4,448         4,448                    0
equivalents
Securities lending                 4,587              4,587                  0                      5,427         5,427                    0
collateral (Notes 3
and 5)
Investments, at
market (Notes 3
and 5):
Fixed maturity                    47,977            44,951              (3,026)                   41,396        39,631                (1,765)
securities
Equity securities                 17,997            17,997                   0                    22,393        22,393                     0
Private equity                     1,459             1,459                   0                     2,050         2,050                     0
Real estate and real                 536               536                   0                       459           459                     0
estate investment
trusts
Other                                 22                22                   0                        17            17                     0
Total investments                 67,991            64,965              (3,026)                   66,315        64,550                (1,765)
Receivables, net:
Sponsors of                           31                 31                  0                         11            11                    0
terminated plans
Premiums (Note 11)                   562                562                  0                        756           756                    0
Sale of securities                 1,807              1,807                  0                      1,589         1,589                    0
Derivative contracts                 178                178                  0                         78            78                    0
(Note 4)
Investment income                    481                481                  0                        430           430                    0
Other                                  3                  3                  0                          5             5                    0
Total receivables                  3,062              3,062                  0                      2,869         2,869                    0
Capitalized assets,                   33                 33                  0                         32            32                    0
net
Total assets                      80,699            77,673              (3,026)                   79,091        77,326                (1,765)

LIABILITIES
Present value of
future benefits, net
(Note 6):
Trusteed plans                   (91,719)           (91,719)                 0                    (88,022)      (88,022)                   0
Plans pending                       (346)              (346)                 0                       (501)         (501)                   0
termination and
trusteeship



                                                                    - 1 -
                                                                                                                     11/15/2011 15:06:17
                                                        U.S.Department of the Treasury
                                                         Financial Management Service
                                                    Governmentwide Financial Report System

                                                     GF002C - OCBOA Adjustments Report


Statement: BALANCE SHEET                                                           Fiscal Year:      2011              Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                            Reported in:      MILLIONS        Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line             FY 2011-SEPTEMBER FY 2011-SEPTEMBER FY 2011-SEPTEMBER     FY 2010-SEPTEMBER FY 2010-SEPTEMBER FY 2010-SEPTEMBER
Description                    Audit Amt       OCBOA Amt          Difference             Audit Amt       OCBOA Amt          Difference

Settlements and                        (56)              (56)                0                        (55)           (55)                     0
judgments
Claims for probable                   (833)             (833)                0                     (1,445)        (1,445)                     0
terminations
Total present value                (92,954)          (92,954)                0                    (90,023)       (90,023)                     0
of future benefits,
net
Present value of
nonrecoverable
future financial
assistance (Note 7)
Insolvent plans                     (1,232)           (1,232)                0                     (1,179)        (1,179)                     0
Probable insolvent                  (3,243)           (3,243)                0                     (1,851)        (1,851)                     0
plans
Total present value                 (4,475)           (4,475)                0                     (3,030)        (3,030)                     0
of nonrecoverable
future financial
assistance
Payables, net:
Derivative contracts                  (173)             (173)                0                        (67)           (67)                     0
(Note 4)
Due for purchases of                (4,079)           (4,079)                0                     (3,076)        (3,076)                     0
securities
Payable upon return                 (4,587)           (4,587)                0                     (5,427)        (5,427)                     0
of securities loaned
Securities sold under                    0                 0                 0                          0              0                      0
repurchase
agreements
Unearned premiums                     (397)             (397)                0                       (395)          (395)                     0
Accounts payable                       (70)              (70)                0                       (103)          (103)                     0
and accrued
expenses (Note 8)
Total payables                      (9,306)           (9,306)                 0                 (9,068)           (9,068)                      0
Total liabilities                 (106,735)         (106,735)                 0               (102,121)         (102,121)                      0
Net position                        26,036            29,062              3,026                 23,030            24,795                   1,765
Total liabilities and              (80,699)          (77,673)             3,026                (79,091)          (77,326)                  1,765
net position




                                                                     - 2 -
                                                                                                                    11/15/2011 15:06:17
                                                        U.S.Department of the Treasury
                                                         Financial Management Service
                                                    Governmentwide Financial Report System

                                                     GF002C - OCBOA Adjustments Report


Statement: INCOME STATEMENT                                                         Fiscal Year:     2011            Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                             Reported in:     MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line             FY 2011-SEPTEMBER FY 2011-SEPTEMBER FY 2011-SEPTEMBER      FY 2010-SEPTEMBER FY 2010-SEPTEMBER FY 2010-SEPTEMBER
Description                    Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference

UNDERWRITING:
Income:
Premium, net (Note                  2,164             2,164                   0                    2,324         2,324                     0
11)
Other                                  17                17                   0                       30            30                     0
Total                               2,181             2,181                   0                    2,354         2,354                     0
Expenses:
Administrative                       367                367                   0                      380           380                     0
Other                                 21                 21                   0                       (7)           (7)                    0
Total                                388                388                   0                      373           373                     0
Other underwriting
activity:
Losses from                          201                201                   0                      509           509                     0
completed and
probable
terminations (Note
12)
Losses from                         1,560             1,560                   0                      831           831                     0
financial assistance
(Note 7)
Actuarial                           1,672             1,672                   0                    (1,190)       (1,190)                   0
adjustments (credits)
(Note 6)
Total                               3,433              3,433                  0                      150           150                     0
Underwriting gain                  (1,640)            (1,640)                 0                    1,831         1,831                     0
(loss)
FINANCIAL:
Investment income
(loss) (Note 13):
Fixed                               3,650             2,388              (1,262)                   5,416         4,370                (1,046)
Equity                               (276)             (276)                  0                    2,116         2,116                     0
Private equity                        144               144                   0                      404           404                     0
Other                                  76                76                   0                     (159)         (159)                    0
Total                               3,594             2,332              (1,262)                   7,777         6,731                (1,046)
Expenses:
Investment                             71                71                   0                       81            81                     0
Actuarial charges
(Note 6):
Due to passage of                   3,880             3,880                   0                    4,215         4,215                     0
time



                                                                     - 3 -
                                                                                                                   11/15/2011 15:06:17
                                                       U.S.Department of the Treasury
                                                        Financial Management Service
                                                   Governmentwide Financial Report System

                                                    GF002C - OCBOA Adjustments Report


Statement: INCOME STATEMENT                                                        Fiscal Year:      2011            Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                            Reported in:      MILLIONS      Decimal: ZERO

     All Amounts Shown as Debits and Credits().

Agency Line            FY 2011-SEPTEMBER FY 2011-SEPTEMBER FY 2011-SEPTEMBER      FY 2010-SEPTEMBER FY 2010-SEPTEMBER FY 2010-SEPTEMBER
Description                   Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference

Due to change in                    1,009            1,009                   0                      6,396        6,396                      0
interest rates
Total                               4,960             4,960                  0                    10,692        10,692                    0
Financial income                   (1,366)           (2,628)            (1,262)                   (2,915)       (3,961)              (1,046)
(loss)
Net loss                           (3,006)          (4,268)             (1,262)                    (1,084)      (2,130)              (1,046)
Total Costs                        12,932           12,865                 (67)                    12,013       11,908                 (105)
Total Revenue                      (9,926)          (8,597)              1,329                    (10,929)      (9,778)               1,151
Net position,                      23,030           24,794               1,764                     21,946       22,664                  718
beginning of year
Net position, end of               26,036           29,062               3,026                    23,030        24,794                   1,764
year




                                                                    - 4 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2011 and 2010
 Special-Purpose Financial Statements


Audit Report AUD-2012-4 / FA-11-82-4




             Section IV

   GF003F – Closing Package
   Financial Statement Report
                                                                       U.S Department of the Treasury                                        11-15-2011 15:16:50
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2011                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                       2010-SEPTEMBER                    Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                                 4,984                             4,399                               4,399
Accounts and Taxes Receivable                                                  2,495                             2,440                               2,440
Loans Receivable and mortgage                                                      0                                 0                                   0
backed securities
TARP Direct Loans and Equity                                                       0                                 0                                      0
Investments
Beneficial Interest in Trust                                                      0                                  0                                   0
Inventory and Related Property                                                    0                                  0                                   0
Property, Plant and Equipment                                                    33                                 32                                  32
Debt and Equity Securities                                                   47,359                             49,123                              49,487
Investment in Government sponsored                                                0                                  0                                   0
enterprises (GSEs)
Derivative Assets                                                               109                                (23)                                (23)
Other Assets                                                                      0                                  0                                   0
Total Non-Federal Assets                                                     54,980                             55,971                              56,335

Federal
Fund Balance with Treasury                                                        1                                  1                                   1
Federal Investments                                                          22,510                             21,178                              21,178
Accounts Receivable                                                               0                                  0                                   0
Accounts Receivable, capital transfers                                            0                                  0                                   0
Interest Receivable                                                             182                                176                                 176
Loans Receivable                                                                  0                                  0                                   0
Transfers Receivable                                                              0                                  0                                   0




                                                                                              -1-
                                                                       U.S Department of the Treasury                                          11-15-2011 15:16:50
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2011                                Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                  Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                       2010-SEPTEMBER                      Previously Reported
Benefit Program Contributions                                                      0                                   0                                      0
Receivable
Advances to Others and Prepayments                                                0                                    0                                   0
Other Assets (without reciprocals)                                                0                                    0                                   0
Total Federal Assets                                                         22,693                               21,355                              21,355
Total Assets                                                                 77,673                               77,326                              77,690

Liabilities
Non-Federal
Accounts Payable                                                                 (58)                                (88)                                (88)
Federal Debt Securities Held by the                                                0                                   0                                   0
Public
Federal Employee and Veteran                                                       0                                   0                                      0
Benefits Payable
Environmental and Disposal                                                         0                                   0                                      0
Liabilities
Benefits Due and Payable                                                           0                                   0                                      0
Loan Guarantee Liabilities                                                         0                                   0                                      0
Liabilities to Government Sponsored                                                0                                   0                                      0
Enterprises
Insurance and Guarantee Program                                             (92,954)                             (90,023)                            (90,023)
Liabilities
Derivative Liabilities                                                           (6)                                 (12)                                (12)
Other Liabilities                                                           (13,716)                             (11,997)                            (12,361)
Total Non-Federal Liabilities                                              (106,734)                            (102,120)                           (102,484)




                                                                                              -2-
                                                                       U.S Department of the Treasury                                          11-15-2011 15:16:50
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:        2011                               Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                 Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                        2010-SEPTEMBER                     Previously Reported
Federal
Accounts Payable                                                                    0                                  0                                   0
Accounts Payable, capital transfers                                                 0                                  0                                   0
Federal Debt                                                                        0                                  0                                   0
Interest Payable                                                                    0                                  0                                   0
Loans Payable                                                                       0                                  0                                   0
Transfers Payable                                                                   0                                  0                                   0
Benefit Program Contributions                                                      (1)                                (1)                                 (1)
Payable
Advances from Others and Deferred                                                   0                                  0                                      0
Credits
Liability to the General Fund for                                                   0                                  0                                      0
custodial and other non-entity assets
Other Liabilities (without reciprocals)                                           0                                    0                                   0
Total Federal Liabilities                                                        (1)                                  (1)                                 (1)
Total Liabilities                                                          (106,735)                            (102,121)                           (102,485)


Net Position
Net Position-Non-Earmarked Funds                                             29,062                               24,795                              24,795
Net Position-Earmarked Funds                                                      0                                    0                                   0
Total Net Position                                                           29,062                               24,795                              24,795
Total Liabilities and Net Position                                          (77,673)                             (77,326)                            (77,690)




                                                                                               -3-
                                                                       U.S Department of the Treasury                                        11-15-2011 15:16:50
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:        2011                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                        2010-SEPTEMBER                   Previously Reported
Gross Cost:
Non-Federal Gross Cost                                                       12,797                             11,822                              11,822
Interest on Debt Held by the Public                                               0                                  0                                   0
Gain/Loss from changes in actuarial                                               0                                  0                                   0
assumptions
Total Non-Federal Gross Cost                                                 12,797                             11,822                              11,822

Federal Gross Cost
Benefit Program Costs                                                              23                               21                                  21
Imputed Costs                                                                       5                                6                                   6
Buy/Sell Costs                                                                      5                                5                                   5
Federal Securities Interest Expense                                                35                               54                                  54
Borrowing and Other Interest                                                        0                                0                                   0
Expense
Borrowing Losses                                                                  0                                  0                                   0
Other Expenses (without reciprocals)                                              0                                  0                                   0
Total Federal Gross Cost                                                         68                                 86                                  86
Department Total Gross Cost                                                  12,865                             11,908                              11,908

Earned Revenue
Non-Federal Earned Revenue                                                    (7,414)                           (8,062)                             (8,062)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                                 0                                 0                                   0
Buy/Sell Revenue                                                                   0                                 0                                   0
Federal Securities Interest Revenue                                           (1,174)                           (1,699)                             (1,699)




                                                                                               -4-
                                                                       U.S Department of the Treasury                                        11-15-2011 15:16:50
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2011                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                       2010-SEPTEMBER                    Previously Reported
(exchange)
Borrowing and Other Interest                                                       0                                 0                                      0
Revenue (Exchange)
Borrowings Gains                                                                   0                                 0                                   0
Other Revenue (without reciprocals)                                                0                                 0                                   0
Total Federal Earned Revenue                                                  (1,174)                           (1,699)                             (1,699)

Department Total Earned Revenue                                               (8,588)                           (9,761)                             (9,761)

Net Cost                                                                       4,277                             2,147                               2,147




                                                                                              -5-
                                                                       U.S Department of the Treasury                                        11-15-2011 15:16:50
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2011                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                       2010-SEPTEMBER                    Previously Reported
Beginning Net Position                                                       24,794                             22,664                              22,665
Non-Federal Prior-Period
Adjustments
Changes in Accounting Principles -                                                 0                                 0                                      0
Non Federal
Corrections of Errors - Non Federal                                                0                                 0                                      0
Corrections of Errors - Years                                                      0                                 0                                      0
Preceding the Prior Year - Non
Federal
Federal Prior-Period Adjustments
Change in Accounting Principles -                                                  0                                 0                                      0
Federal
Corrections of Errors - Federal                                                    0                                 0                                      0
Corrections of Errors - Years                                                      0                                 0                                      0
Preceding the Prior Year - Federal
Adjusted Beginning Net Position                                              24,794                             22,664                              22,665
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                                      0                                 0                                      0
Witholdings
Corporation Income Taxes                                                           0                                 0                                      0
Unemployment Taxes                                                                 0                                 0                                      0
Excise Taxes                                                                       0                                 0                                      0
Estate and Gift Taxes                                                              0                                 0                                      0
Custom Duties                                                                      0                                 0                                      0




                                                                                              -6-
                                                                       U.S Department of the Treasury                                        11-15-2011 15:16:50
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2011                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                        2010-SEPTEMBER                   Previously Reported
Other Taxes and Receipts                                                           (4)                             (11)                                (11)
Miscellaneous Earned Revenue                                                        0                                0                                   0
Total Non-Federal Nonexchange                                                      (4)                             (11)                                (11)
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                                 0                                0                                      0
(nonexchange)
Borrowing and other interest revenue                                                0                                0                                      0
(nonexchange)
Benefit Program Revenue                                                             0                                0                                      0
(nonexchange)
Other taxes and receipts                                                            0                                0                                      0
Total Federal Nonexchange Revenue                                                   0                                0                                      0

Budgetary Financing Sources:
Appropriations received as adjusted                                                 0                                0                                      0
(rescissions and other adjustments)
Appropriation of unavailable special                                                0                                0                                      0
or trust fund receipts transfers-in
Appropriation of unavailable special                                                0                                0                                      0
or trust fund receipts Transfers-out
Nonexpenditure transfers-in of                                                      0                                0                                      0
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                                     0                                0                                      0




                                                                                               -7-
                                                                       U.S Department of the Treasury                                        11-15-2011 15:16:50
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2011                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                        2010-SEPTEMBER                   Previously Reported
unexpended appropriations and
financing sources
Expenditure transfers-in of financing                                               0                                0                                      0
sources
Expenditure Transfers-out of                                                        0                                0                                      0
financing sources
Nonexpenditure Transfers-In of                                                      0                                0                                      0
Financing Sources - Capital Transfers
Nonexpenditure Transfers-out of                                                     0                                0                                      0
Financing Sources - Capital Transfers
Collections for Others Transferred to                                               0                                0                                      0
the General Fund
Accrual for Amounts to be Collected                                                 0                                0                                      0
for Others and Transferred to the
General Fund
Other budgetary financing sources                                                   0                                0                                      0
Total Budgetary Financing Sources                                                   0                                0                                      0

Other Financing Sources:
Transfers-in Without Reimbursement                                                  0                                0                                      0
Transfers-out Without                                                               0                                0                                      0
Reimbursement
Imputed Financing Source                                                           (5)                              (6)                                 (6)
Non-Entity Collections Transferred                                                  0                                0                                   0
to the General Fund
Accrual for Non-entity Amounts to                                                   0                                0                                      0




                                                                                               -8-
                                                                       U.S Department of the Treasury                                        11-15-2011 15:16:50
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2011                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                        2010-SEPTEMBER                   Previously Reported
be Collected and Transferred to the
General Fund
Other non-budgetary financing                                                       0                                0                                      0
sources
Total Other Financing Sources                                                      (5)                              (6)                                 (6)


Net Cost                                                                       4,277                             2,147                               2,147

Ending Net Position Balance                                                  29,062                             24,794                              24,795




                                                                                               -9-
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2011 and 2010
 Special-Purpose Financial Statements


Audit Report AUD-2012-4 / FA-11-82-4




             Section V

   GF003G – Closing Package
     Line Reclassification
       Summary Report
                                                                 U.S. Department of the Treasury                                      11/15/2011 15:17:34
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 2   Cash and cash equivalents                                                          A      D       B                     5,026                   4,448
                                                                                     Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Cash and Other Monetary Assets                           N                 4,984                  4,399                      4,399                      0
Fund Balance with Treasury                               F                     1                      1                          1                      0
Federal Investments                                      F                    41                     48                         48                      0
Total:                                                                     5,026                  4,448                      4,448                      0
Line Agency Line Description                                                  Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 3   Securities lending collateral (Notes 3 and 5)                                      A      D       N                     4,587                   5,427
                                                                                     Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Debt and Equity Securities                               N                 4,587                  5,427                      5,791                   (364)
Total:                                                                     4,587                  5,427                      5,791                   (364)

Line Agency Line Description                                                  Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 5   Fixed maturity securities                                                          A      D       B                    44,951                  39,631
                                                                                     Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Federal Investments                                      F                22,469                 21,130                     21,130                      0
Debt and Equity Securities                               N                22,464                 18,526                     18,526                      0
Derivative Assets                                        N                    18                    (25)                       (25)                     0


                                                                               -1-
                                                             U.S. Department of the Treasury                                     11/15/2011 15:17:34
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                     Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 5 Fixed maturity securities                                                        A    D        B                    44,951                  39,631
Total:                                                                 44,951                  39,631                  39,631                       0




Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 6   Equity securities                                                              A      D       N                    17,997                 22,393
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                           N                17,996                 22,393                     22,393                     0
Derivative Assets                                    N                     1                      0                          0                     0
Total:                                                                17,997                 22,393                     22,393                     0
Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 7   Private equity                                                                 A      D       N                     1,459                  2,050
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                           N                 1,459                  2,050                      2,050                     0
Total:                                                                 1,459                  2,050                      2,050                     0




                                                                           -2-
                                                                 U.S. Department of the Treasury                                     11/15/2011 15:17:34
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                      Type
 8   Real estate and real estate investment trusts                                      A      D       N                      536                     459
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                               N                  536                    459                        459                      0
Total:                                                                      536                    459                        459                      0

Line Agency Line Description                                                  Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                      Type
 9   Other                                                                              A      D       N                       22                      17
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                               N                   22                     17                         17                      0
Total:                                                                       22                     17                         17                      0

Line Agency Line Description                                                  Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                      Type
 12 Sponsors of terminated plans                                                        A      D       N                       31                      11
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                            N                   31                     11                         11                      0
Total:                                                                       31                     11                         11                      0




                                                                               -3-
                                                             U.S. Department of the Treasury                                     11/15/2011 15:17:34
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 13 Premiums (Note 11)                                                              A      D       N                      562                     756
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                  562                    756                        756                      0
Total:                                                                  562                    756                        756                      0

Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 14 Sale of securities                                                              A      D       N                     1,807                  1,589
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                 1,807                  1,589                      1,589                     0
Total:                                                                 1,807                  1,589                      1,589                     0

Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 15 Derivative contracts (Note 4)                                                   A      D       N                      178                      78
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                   88                     76                         76                      0
Derivative Assets                                    N                   90                      2                           2                     0
Total:                                                                  178                     78                         78                      0




                                                                           -4-
                                                             U.S. Department of the Treasury                                     11/15/2011 15:17:34
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 16 Investment income                                                               A      D       B                      481                     430
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Interest Receivable                                  F                  182                    176                        176                      0
Accounts and Taxes Receivable                        N                    4                      3                           3                     0
Debt and Equity Securities                           N                  295                    251                        251                      0
Total:                                                                  481                    430                        430                      0
Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 17 Other                                                                           A      D       N                        3                          5
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                   3                      5                            5                     0
Total:                                                                   3                      5                            5                     0

Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 19 Capitalized assets, net                                                         A      D       N                       33                      32
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Property, Plant and Equipment                        N                   33                     32                         32                      0
Total:                                                                   33                     32                         32                      0



                                                                           -5-
                                                                U.S. Department of the Treasury                                      11/15/2011 15:17:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                       Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 24 Trusteed plans                                                                      L      C      N                    91,719                  88,022
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                 91,719                 88,022                    88,022                      0
Total:                                                                   (91,719)               (88,022)                  (88,022)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 25 Plans pending termination and trusteeship                                           L      C      N                       346                     501
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                  346                    501                        501                       0
Total:                                                                    (346)                  (501)                      (501)                      0

Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 26 Settlements and judgments                                                           L      C      N                        56                      55
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                   56                     55                         55                       0
Total:                                                                     (56)                   (55)                       (55)                      0




                                                                               -6-
                                                                U.S. Department of the Treasury                                     11/15/2011 15:17:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2011                                  Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N    2011-SEPTEMBER           2010-SEPTEMBER
                                                                                       Type
 27 Claims for probable terminations                                                     L      C     N                      833                   1,445
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2011-SEPTEMBER        2010-SEPTEMBER        Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities            N                     833                  1,445                    1,445                      0
Total:                                                                      (833)                (1,445)                  (1,445)                     0

Line Agency Line Description                                                   Status Account NB      F/N    2011-SEPTEMBER           2010-SEPTEMBER
                                                                                       Type
 29 Present value of nonrecoverable future financial assistance (Note 7)          I      L      C     N
                                                                                      Variance:                                0                          0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2011-SEPTEMBER        2010-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                      N                      0                     0                      3,030                  (3,030)
Total:                                                                        0                     0                     (3,030)                 (3,030)

Line Agency Line Description                                                   Status Account NB      F/N    2011-SEPTEMBER           2010-SEPTEMBER
                                                                                       Type
 31 Insolvent plans                                                                      L      C     N                    1,232                   1,179
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2011-SEPTEMBER        2010-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                      N                    1,232                 1,179                        0                   1,179
Total:                                                                     (1,232)               (1,179)                       0                   1,179




                                                                                -7-
                                                             U.S. Department of the Treasury                                      11/15/2011 15:17:34
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                  Type
 32 Probable insolvent plans                                                        L      C       N                     3,243                   1,851
                                                                                 Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                 3,243                  1,851                          0                   1,851
Total:                                                                (3,243)                (1,851)                         0                   1,851

Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                  Type
 35 Derivative contracts (Note 4)                                                   L      C       N                       173                      67
                                                                                 Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                  167                     55                         55                       0
Derivative Liabilities                               N                    6                     12                         12                       0
Total:                                                                 (173)                   (67)                       (67)                      0
Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                  Type
 36 Due for purchases of securities                                                 L      C       N                     4,079                   3,076
                                                                                 Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                 4,079                  3,076                      3,076                      0
Total:                                                                (4,079)                (3,076)                    (3,076)                     0




                                                                           -8-
                                                               U.S. Department of the Treasury                                      11/15/2011 15:17:34
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                    Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                      Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                    Type
 37 Payable upon return of securities loaned                                          L      C       N                     4,587                   5,427
                                                                                   Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                 4,587                  5,427                      5,791                   (364)
Total:                                                                  (4,587)                (5,427)                    (5,791)                  (364)

Line Agency Line Description                                                Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                    Type
 38 Securities sold under repurchase agreements                                       L      C       N                         0                          0
                                                                                   Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Total:                                                                     0                      0                            0                      0


Line Agency Line Description                                                Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                    Type
 39 Unearned premiums                                                                 L      C       N                       397                     395
                                                                                   Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                  397                    395                        395                       0
Total:                                                                   (397)                  (395)                      (395)                      0




                                                                             -9-
                                                             U.S. Department of the Treasury                                     11/15/2011 15:17:34
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 40 Due for purchases of securities                                          I      L      C       N
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Total:                                                                   0                       0                           0                     0


Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 41 Derivative contracts (Note 4)                                            I      L      C       N
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Total:                                                                   0                       0                           0                     0


Line Agency Line Description                                              Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                  Type
 42 Accounts payable and accrued expenses (Note 8)                                  L      C       B                       70                     103
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Payable                                     N                   58                      88                        88                      0
Other Liabilities                                    N                   11                      14                        14                      0
Benefit Program Contributions Payable                F                    1                       1                          1                     0
Total:                                                                  (70)                   (103)                     (103)                     0



                                                                           - 10 -
                                                             U.S. Department of the Treasury                                      11/15/2011 15:17:34
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                   Type
 45 Net position                                                                     E      C      B                   (29,062)                (24,795)
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                     B                (29,062)                (24,795)                 (24,795)                     0
Total:                                                                 29,062                  24,795                   24,795                      0




                                                                           - 11 -
                                                               U.S. Department of the Treasury                                     11/15/2011 15:17:34
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: INCOME STATEMENT                                                 Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                      Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB       F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                    Type
 31 Total Costs                                                                      TC      D       B                   12,865                  11,908
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N       2011-SEPTEMBER          2010-SEPTEMBER        Previously Reported       Line Item Changes
Imputed Costs                                        F                       5                       6                        6                      0
Buy/Sell Costs                                       F                       5                       5                        5                      0
Benefit Program Costs                                F                      23                      21                       21                      0
Federal Securities Interest Expense                  F                      35                      54                       54                      0
Non-Federal Gross Cost                               N                  12,797                  11,822                   11,822                      0
Total:                                                                  12,865                  11,908                   11,908                      0
Line Agency Line Description                                                Status Account NB       F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                    Type
 32 Total Revenue                                                                    TR      C       B                    8,597                   9,778
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2011-SEPTEMBER          2010-SEPTEMBER        Previously Reported       Line Item Changes
Imputed Financing Source                               F                     5                       6                        6                      0
Federal Securities Interest Revenue (exchange)         F                 1,174                   1,699                    1,699                      0
Non-Federal Earned Revenue                             N                 7,414                   8,062                    8,062                      0
Other Taxes and Receipts                               N                     4                      11                       11                      0
Total:                                                                  (8,597)                 (9,778)                  (9,778)                     0




                                                                             - 12 -
                                                             U.S. Department of the Treasury                                      11/15/2011 15:17:34
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: INCOME STATEMENT                                               Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                   Type
 33 Net position, beginning of year                                                 BN      C      B                   (24,794)                (22,664)
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Beginning Net Position                               B                (24,794)                (22,664)                 (22,665)                     1
Total:                                                                 24,794                  22,664                   22,665                      1




                                                                           - 13 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2011 and 2010
 Special-Purpose Financial Statements


Audit Report AUD-2012-4 / FA-11-82-4




             Section VI

    GF004F – Trading Partner
     Summary Note Report
                                                             U.S.Department of the Treasury                                 11-15-2011 15:20:33
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2011                                Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB              2011-SEPTEMBER        2010-SEPTEMBER
 BS              Federal Investments                              A                   D                         22,510                21,178
                                                                                 Variance:                             0                     0

Trading       Name                              Status 2011-SEPTEMBER      2010-SEPTEMBER             Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                22,510                       21,178                21,178                    0
                                  Total                         22,510                       21,178                21,178                    0


Agency FS Status CP Line Description                              Account Type        NB              2011-SEPTEMBER        2010-SEPTEMBER
 BS              Interest Receivable                              A                   D                           182                   176
                                                                                 Variance:                             0                     0

Trading       Name                              Status 2011-SEPTEMBER      2010-SEPTEMBER             Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                   182                         176                   176                     0
                                  Total                            182                         176                   176                     0




                                                                          -1-
                                                             U.S.Department of the Treasury                              11-15-2011 15:20:33
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2011                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2011-SEPTEMBER        2010-SEPTEMBER
 BS              Benefit Program Contributions Payable            L                   C                         1                     1
                                                                                 Variance:                          0                     0

Trading         Name                            Status 2011-SEPTEMBER      2010-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 1                        1                     1                     0
                                  Total                             (1)                      (1)                   (1)                    0




                                                                          -2-
                                                               U.S.Department of the Treasury                                   11-15-2011 15:20:33
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                    Fiscal Year: 2011                                 Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION              Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type        NB               2011-SEPTEMBER         2010-SEPTEMBER
 IS              Federal Securities Interest Revenue (exchange)     ER                  C                           1,174                  1,699
                                                                                   Variance:                               0                     0

Trading       Name                              Status 2011-SEPTEMBER        2010-SEPTEMBER              Previously Reported     Line item Changes
Partner
 2000 Department of the Treasury                                  1,174                        1,699                   1,699                     0
                                  Total                           (1,174)                      (1,699)                (1,699)                    0


Agency FS Status CP Line Description                                Account Type        NB               2011-SEPTEMBER         2010-SEPTEMBER
 IS              Benefit Program Costs                              GC                  D                             23                     21
                                                                                   Variance:                               0                     0

Trading         Name                            Status 2011-SEPTEMBER        2010-SEPTEMBER              Previously Reported     Line item Changes
Partner
 2400 Office of Personnel Management                                  17                           15                     15                     0
 9900 Treasury General Fund                                            6                            6                      6                     0
                                  Total                               23                           21                     21                     0




                                                                            -3-
                                                              U.S.Department of the Treasury                             11-15-2011 15:20:33
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2011                            Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION             Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type        NB          2011-SEPTEMBER        2010-SEPTEMBER
 IS              Buy/Sell Costs                                    GC                  D                        5                     5
                                                                                  Variance:                         0                     0

Trading        Name                             Status 2011-SEPTEMBER       2010-SEPTEMBER         Previously Reported    Line item Changes
Partner
 0400 GOVERNMENT PRINTING OFFICE                                      1                        0                    0                     0
 1400 Department of the Interior                                      1                        1                    1                     0
 1601 Department of Labor                                             1                        1                    1                     0
 1800 United States Postal Service                                    1                        2                    2                     0
 4700 General Services Administration                                 1                        1                    1                     0
                                  Total                               5                        5                    5                     0

Agency FS Status CP Line Description                               Account Type        NB          2011-SEPTEMBER        2010-SEPTEMBER
 IS              Federal Securities Interest Expense               GC                  D                        35                    54
                                                                                  Variance:                         0                     0

Trading       Name                              Status 2011-SEPTEMBER       2010-SEPTEMBER         Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                     35                       54                   54                     0
                                  Total                              35                       54                   54                     0




                                                                           -4-
                                                             U.S.Department of the Treasury                              11-15-2011 15:20:33
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2011                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2011-SEPTEMBER        2010-SEPTEMBER
 IS              Imputed Costs                                    GC                  D                         5                     6
                                                                                 Variance:                          0                     0

Trading         Name                            Status 2011-SEPTEMBER      2010-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 5                        6                     6                     0
                                  Total                              5                        6                     6                     0



Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2011                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2011-SEPTEMBER        2010-SEPTEMBER
 IS              Imputed Financing Source                         F                   C                         5                     6
                                                                                 Variance:                          0                     0

Trading         Name                            Status 2011-SEPTEMBER      2010-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 5                        6                     6                     0
                                  Total                             (5)                      (6)                   (6)                    0




                                                                          -5-
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2011 and 2010
 Special-Purpose Financial Statements


Audit Report AUD-2012-4 / FA-11-82-4




             Section VII

   GF006C – Financial Report
      (FR) Notes Report
                                                                                                                                                                                       11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01            Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                 Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    AR - Note 17

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: B             Section Name: Related Parties, External to the Reporting Entity for       No Data Flag: YES         Line Attributes: Dollars
                                            the Financial Report                                                                Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB        2011 - SEPTEMBER             2010 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1              Related party        Debit
                receivables
 2              Related party        Credit
                payables
 3              Related party        Credit
                operating revenue
 4              Related party net    Debit
                cost of operations
 5              Related party        Debit
                economic
                dependency
                transactions
 6              Investments in       Debit
                related parties




                                                                                                           -1-
                                                                                                                                                                                                 11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01         Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                    Fiscal Year: 2011                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:      AR - Note 17

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe any significant events that occured after the date of the balance sheet but prior to    1). Management evaluated subsequent events through November 14, 2011, the date
                   the agencies audited financial statements being issued.                                          the financial statements were available to be issued. Events or transactions for either
                                                                                                                    the single-employer or multiemployer program, occurring after September 30, 2011
                                                                                                                    and before the financial statements were available to be issued, that provided additional
                                                                                                                    evidence about conditions that existed at September 30, 2011 have been recognized in
                                                                                                                    the financial statements.

                                                                                                                    For the single-employer program, there were two nonrecognized subsequent events.
                                                                                                                    Subsequent to September 30, 2011, business and financial conditions significantly
                                                                                                                    declined for two single-employer plans (unfunded guaranteed liabilities of $188 million).
                                                                                                                     Had these events occurred on or prior to September 30, 2011, PBGC¿s financial
                                                                                                                    statements would have reflected an additional loss of $188 million resulting in a FY
                                                                                                                    2011 single-employer Net loss of $1,860 million and a FY 2011 single-employer Net
                                                                                                                    position of $(23,454) million.

                                                                                                                    For the multiemployer program, there were no nonrecognized subsequent events or
                                                                                                                    transactions that provided evidence about conditions that did not exist at September 30,
                                                                                                                    2011, and which arose before the financial statements were available to be issued.
2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).               2). There were no departures from GAAP for the end of fiscal year, September 30,
                                                                                                                    2011.
3                  When applying the general rule of the Statements of Federal Financial Accounting Standards       3). There were no such accruals that need to be noted for the end of the fiscal year,
                   (SFFAS) No. 7, par.                                                                              September 30, 2011.
                   48, describe the specific potential accruals that are not made and the practical and inherent
                   limitations affecting the
                   accrual of taxes and duties.
4                  Describe any change in accounting if a collecting entity adopts accounting standards that        4). There were no changes in accounting for the end of fiscal year, September 30,
                   embody a fuller                                                                                  2011.
                   application of accrual accounting concepts that differ from that prescribed by SFFAS No. 7,
                   par. 48.
5                  List all of the agency's components for which balances and activities are not combined into      5). There were no omissions of balances nor activity from PBGC's financial statements.
                   the agency's financial statements, and, therefore, are represented in the GFRS data.             All activity is represented in GFRS.
6                  List all of the agency's components for which balances and activities are combined into the      6). PBGC has two programs - The single-employer and the multiemployer program, in
                   agency's financial                                                                               which both are combined on the agency's financial statements and, therefore,
                   statements, and, therefore, are represented in the GFRS data.                                    represented in the GFRS data.
7                  Describe any additional significant accounting policies specific to the agency not included in   7). There is no additional information to report for the end of fiscal year, September 30,
                   GFRS Module                                                                                      2011.
                   GF006 - FR Notes.
8                  Provide any other relevant information pertaining to the Federal Reserve Earnings.               8). N/A
9                  Describe the nature of the related party relationship and transactions pertaining to the         9). N/A
                   amount in the ,Other
                   Notes Info, tab, Related party receivables' line.
10                 Describe the nature of the related party relationship and transactions pertaining to the         10). N/A
                   amount in the "Other



                                                                                                            -2-
                                                                                                                                                                               11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 01       Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                               Fiscal Year: 2011               Period: SEPTEMBER
  Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AR - Note 17

 Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Text Data
Line             Question                                                                                        Answer
                 Notes Info " tab," Related party payables" line.
11               Describe the "Other Notes Info" tab, "Related party operating revenue" transactions along       11). N/A
                 with the related party
                 relationship and include transactions with zero or nominal balances, guarantees, and other
                 terms. Also, describe
                 changes in related party terms.
12               Describe the ''Other Notes Info" tab, "Related party net cost of operations" transactions       12). N/A
                 along with the related party relationship and include transactions with zero or nominal
                 balances, guarantees, and other terms. Also, describe changes in related party terms.
13               Describe related party economic dependency (that is, major customers, suppliers,                13). N/A
                 franchisors, franchisees, distributors, general agents, borrowers, and lenders) relationships
                 and transactions included in the "Other Notes Info" tab, "Related party economic
                 dependency transactions" section.
14               Provide details on the investments in related parties.                                          14). N/A
15               Provide details on related party leases.                                                        15). N/A
16               Describe control relationships with entities under common ownership, management control,        16). N/A
                 and conservatorship if the operating results or financial position could be significantly
                 impacted as a result of the relationship. Include control relationships with and without
                 transactions.
17               Provide any other useful information on related parties.                                        17). N/A




                                                                                                         -3-
                                                                                                                                                                                              11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 02           Cash and Other Monetary Assets                                                                                Fiscal Year: 2011                 Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        AR - MD&A Investmnt Activity & Note 3

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                  Type
Cash and Other Monetary Assets                                             D        A                     4,984                   4,399
                                                                               Variance:                      0                       0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description             2011 - SEPTEMBER            2010 - SEPTEMBER               Previously Rptd           Line Item Changes
 1           Operating Cash- not
             restricted
 2           Operating Cash-
             restricted
 3           Other cash - not                                    1                          1                            1                             0
             restricted
 4           Other cash - restricted                        4,983                       4,398                       4,398                              0
 5           International monetary
             assets
 6           Gold
 7           Foreign currency
             Total                                           4,984                       4,399                        4,399                            0
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - Other cash - restricted (2011 -              Please provide explanations for any amounts that have              This change is directly attributable to PBGC's investment activity and cash
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between         received from newly trusteed plans.
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                       -4-
                                                                                                                                                                                       11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 02             Cash and Other Monetary Assets                                                                           Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:     AR - MD&A Investmnt Activity & Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.        I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined                   Decimal: User-Defined
Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              IMF Letter of Credit Debit
                - available balance
 2              Reserve Position in Debit
                the IMF
 3              SDR Holdings-        Debit
                Exchange
                Stabilization Fund
 4        I     SDR Certificates     Debit
                outstanding with
                the FRB
 5              SDR Certificates     Credit
                outstanding with
                the FRB
 6              Interest bearing     Credit
                liability to the IMF
                for SDR Allocations
 7              Gold certificates    Credit
       Section: B              Section Name: Gold                                                     No Data Flag: YES         Line Attributes: Units


Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Number of fine troy    N/A
                ounces of gold
 2              Statutory price of 1   N/A
                fine troy ounce of
                gold
 3              Market value of 1      N/A
                fine troy ounce of
                gold




                                                                                                         -5-
                                                                                                                                                                                                         11/15/2011 15:08:51

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

      Note: 02          Cash and Other Monetary Assets                                                                                         Fiscal Year: 2011                  Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                                   Agency Notes:       AR - MD&A Investmnt Activity & Note 3

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                     I = Inactive Line


       Section: C            Section Name: Analysis of Cash Held Outside Treasury                            No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                         Rounding Method: Millions                            Decimal: Zero
Line Status Line Description         NB        2011 - SEPTEMBER                 2010 - SEPTEMBER
 1          Total Cash Held         Credit
            Outside Treasury
            (reported to
            Treasury
 2          Agency-entered          Credit
            reconciling item
 3          Agency-entered          Credit
            reconciling item
 4          Agency-entered          Credit
            reconciling item
 5          Agency-entered          Credit
            reconciling item
 6          Agency-entered          Credit
            reconciling item
 7          Total cash reported      N/A
            in Note 2.
Tab: Text Data
 Line               Question                                                                                                 Answer
 1                  Describe the nature of the amount in the line item "other cash - not restricted."                        1). Relates to entity cash as defined in FASAB. This cash is derived from a cash
                                                                                                                             lockbox, whereas premiums are paid by sponsors of defined benefit plans.
 2                  Describe the restrictions on the cash reported in the line item "Other cash - restricted" and            2). Relates to non-entity cash as defined in FASAB. This cash belongs to the trust
                    any statutory authority (law, regulation, or agreement).                                                 fund, as the assets of trusteed plans are transferred to PBGC, as authorized by ERISA.
 3                  If the cash is restricted because it is non-entity, state the entity for which the cash is being         3). Restricted cash held by PBGC's trust fund is both for the single-employer and
                    held.                                                                                                    multiemployer programs.
 4                  Is the reported restricted cash being held in a financial institution? If yes, is it a Treasury          4). Yes, PBGC's restricted cash is held in a U.S. financial institution and is not in a
                    designated bank?                                                                                         Treasury designated bank.
 5                  If the agency has restricted cash, is the restricted cash invested? If yes, is it invested in the        5). PBGC's restricted cash is invested in both federal and non-federal securities, within
                    Bureau of the Public Debt (BPD)security, agency security, and/or non-Federal security?                   PBGC's trust fund.
 6                  Describe the nature of the amount in the line item "Foreign currency."                                   6). N/A
 7                  Disclose any restrictions on the use (for example, by law, regulation, or agreement) of the              7). N/A
                    amount in the line item "Foreign Currency."
 8                  Disclose the method of exchange rate used on the financial statement date (Treasury                      8). N/A
                    exchange rate or prevailing market rate).
 9                  Provide additional details describibg the nature and cause of reconciling items reported in              9). Cash includes cash on hand and demand deposits. Cash equivalents are
                    Section C, lines 2 through 6.                                                                            investments with original maturities of one business day and highly liquid investments
                                                                                                                             that are readily convertible into cash within one business day.
 10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly           10). N/A
                    the significant accounting policies pertaining to this note.



                                                                                                                 -6-
                                                                                                                                                                                              11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                 Fiscal Year: 2011                Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        A/R & MD&A Undr Writng Actvty

  Status: Complete                         The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                  Type
Accounts and Taxes Receivable                                              D        A                     2,495                   2,440
                                                                               Variance:                      0                       0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description            2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd           Line Item Changes
 1           Accounts receivable,                            3,683                      3,487                      3,487                               0
             gross
 2           Related interest                                 202                          175                          175                            0
             receivable - accounts
             receivable
 3           Penalties, fines, and                              10                          15                           15                            0
             administrative fees
             receivable
 4           Less: allowance for                            -1,195                     -1,060                     -1,060                               0
             loss on accounts
             receivable
 5           Less: allowance for                             -199                       -171                          -171                             0
             loss on interest
             receivable
 6           Less: allowance for                                -6                          -6                           -6                            0
             loss on penalties,
             fines, and admin. fees
             rec.
             Total                                           2,495                      2,440                         2,440                            0
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - Related interest receivable - accounts       Please provide explanations for any amounts that have              This change is mainly attributable to an increase in accrued interest income
 receivable (2011 - SEPTEMBER)                                  changed by 10% or more and or greater than 500,000 between         receivable for multiemployer financial assistance notes receivable.
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                       -7-
                                                                                                                                                                                               11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 03          Accounts and Taxes Receivable                                                                                   Fiscal Year: 2011                 Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       A/R & MD&A Undr Writng Actvty

 Status: Complete                        The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe the method(s) used to calculate the allowances on accounts receivable.                  1). The Allowance for Premium Accounts Receivable is calculated in two ways 1) A
                                                                                                                    Specific Reserve is at 100% of A/R (accounts receivable) aged greater than six years
                                                                                                                    for Premium Statement of Accounts (SOA) and on A/R balances over $500,000 on a
                                                                                                                    case by case basis. 2) A General Reserve is applied for the remaining A/R using a five
                                                                                                                    year rolling average of collection rates for SOA. The allowance for sponsors of
                                                                                                                    terminated plans is determined on a plan by plan basis through a collectability analysis
                                                                                                                    performed on plan sponsors.

                                                                                                                    PBGC provides financial assistance to multiemployer defined benefit pension plans in
                                                                                                                    the form of loans. Since these loans are not generally repaid, an allowance is set up to
                                                                                                                    the extent that repayment of these loans is not expected.
3                  Explain any material difference between the balance of accounts receivable and the               3). For the period ended, September 30, 2011, there were no material differences
                   amounts reported on the Treasury Report on Receivables.                                          between accounts receivable and the Treasury Report on receivables.
4                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   4). Under the accrual basis of accounting, receivables represent amounts due from
                   the significant accounting policies pertainnig to this note.                                     others. They are accounted for as assets from the time that the events giving rise to
                                                                                                                    such claims occur until the time they are collected.
                                                                                                                    Receivables are reduced by an allowance for estimated uncollectible amounts that are
                                                                                                                    not expected to be collected in one year are adjusted by discounting estimated future
                                                                                                                    collections by an imputed rate of interest at the transaction date.




                                                                                                           -8-
                                                                                                                                                                                              11/15/2011 15:08:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

      Note: 04A         Direct Loans Receivable and Mortgage Backed Securities                                                      Fiscal Year: 2011                 Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:      AR - MD&A Part IV.B and Note 7

  Status: Complete                         The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                 Type
Loans Receivable and mortgage backed securities                           D        A                         0                      0
                                                                              Variance:                      0                      0         Rounding Method: Millions                 Decimal: Zero
Line Status Line Description             CY Face Value of loans       CY Long-term cost of      CY Net loans receivable     PY Face Value of loans        PY Long-term cost of          PY Net loans receivable
                                              outstanding                        loans                                           outstanding                         loans
 14          Multiemployer                                  599                        599                              0                       484                        484                                     0
             Financial Assistance -
             Revolving
 15
 16
 17
 18
 19          All other loans
             receivable
             Total                                            599                         599                           0                        484                            484                                0
Threshold

 Line Description                                              Question                                                           Answer
 Line Item Notes - Multiemployer Financial Assistance -        Please provide explanations for any amounts that have             This change is attributable to an increase in requests for financial assistance
 Revolving (CY Long-term cost of loans)                        changed by 10% or more and or greater than 500,000 between        from the multiemployer plan sponsors.
                                                               the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Multiemployer Financial Assistance -        Please provide explanations for any amounts that have             This change is attributable to an increase in requests for financial assistance
 Revolving (CY Face Value of loans outstanding)                changed by 10% or more and or greater than 500,000 between        from the multiemployer plan sponsors.
                                                               the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                      -9-
                                                                                                                                                                                                 11/15/2011 15:08:51

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 04A           Direct Loans Receivable and Mortgage Backed Securities                                                         Fiscal Year: 2011                  Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:         AR - MD&A Part IV.B and Note 7

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Subsidy Expense/(Income)                                                             Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB       2011 - SEPTEMBER             2010 - SEPTEMBER                  Previously Rptd    Line Item Changes
14             Multiemployer           Debit                         115                          97                                                     97
               Financial
               Assistance -
               Revolving
15                                     Debit
16                                     Debit
17                                     Debit
18                                     Debit
19             All other loans         Debit
               receivable
20             Total                 N/A                             115                          97                                                     97
Threshold
 Line Description                                                  Question                                                          Answer
 Other Notes Info - Multiemployer Financial Assistance -           Please provide explanations for any amounts that have             This is attributable to an increase in payments to insolvent multiemployer
 Revolving (2011 - SEPTEMBER)                                      changed by 10% or more and or greater than 500,000                plans which covered guaranteed benefits and reasonable administrative
                                                                   between the current fiscal year and prior fiscal year.            expenses during the fiscal year.
                                                                   (Unaudited)
       Section: B                Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.           No Data Flag: YES          Line Attributes: Dollars
                                               91)                                                                                Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB       2011 - SEPTEMBER             2010 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1             Balances for            Debit
               property held Pre-
               1992
 2             Balances for            Debit
               property held Post-
               1991




                                                                                                            - 10 -
                                                                                                                                                                                     11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Part IV.B and Note 7

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C             Section Name: Components of Loans Receivable, Net - Current            No Data Flag: YES         Line Attributes: Dollars
                                            Year                                                                             Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans     Rural Housing Service         Federal Family      Water and Environmental              Farm Loans
                                                             Loans                                                               Education Loan                        Loans
 1             Loans receivable,     Debit
               net - beginning of
               the year
 2             Loans disbursed       Debit
               (loans made)
 3             Loan collections      Debit
               (principal and
               interest
               repayments,
               penalties and fines
               related to loans)
 4                                   Debit
 5                                   Debit
 6                                   Debit
 7                                   Debit
 8             Interest accrued on   Debit
               loans
 9             Foreclosed            Debit
               property acquired
10             Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11             Allowance for         Debit
               subsidy
12                                   Debit
13                                   Debit
14                                   Debit
15                                   Debit
16             Loans receivable,     N/A
               net - end of the
               year




                                                                                                       - 11 -
                                                                                                                                                                                     11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Part IV.B and Note 7

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C             Section Name: Components of Loans Receivable, Net - Current            No Data Flag: YES          Line Attributes: Dollars
                                            Year                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description         NB         Export-Import Bank                U.S. Agency for         Housing and Urban    Telecommunications        GSE Mortgage Backed All other loans receivable
                                                           Loans                     International           Development                    Loans          Securities Purchase
                                                                                  Development                                                                        Program
 1             Loans receivable,     Debit
               net - beginning of
               the year
 2             Loans disbursed       Debit
               (loans made)
 3             Loan collections      Debit
               (principal and
               interest
               repayments,
               penalties and fines
               related to loans)
 4                                   Debit
 5                                   Debit
 6                                   Debit
 7                                   Debit
 8             Interest accrued on   Debit
               loans
 9             Foreclosed            Debit
               property acquired
10             Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11             Allowance for         Debit
               subsidy
12                                   Debit
13                                   Debit
14                                   Debit
15                                   Debit
16             Loans receivable,      N/A
               net - end of the
               year




                                                                                                       - 12 -
                                                                                                                                                                                     11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Part IV.B and Note 7

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D            Section Name: Components of Loans Receivable, Net - Prior Year          No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans     Rural Housing Service         Federal Family      Water and Environmental              Farm Loans
                                                             Loans                                                               Education Loan                        Loans
 1             Loans receivable,     Debit
               net - beginning of
               the year
 2             Loans disbursed       Debit
               (loans made)
 3             Loan collections      Debit
               (principal and
               interest
               repayments,
               penaltiesand fines
               related to loans)
 4                                   Debit
 5                                   Debit
 6                                   Debit
 7                                   Debit
 8             Interest accrued on   Debit
               loans
 9             Foreclosed            Debit
               property acquired
10             Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11             Allowance for         Debit
               subsidy
12                                   Debit
13                                   Debit
14                                   Debit
15                                   Debit
16             Loans receivable,     N/A
               net - end of the
               year




                                                                                                       - 13 -
                                                                                                                                                                                     11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Part IV.B and Note 7

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D            Section Name: Components of Loans Receivable, Net - Prior Year          No Data Flag: YES          Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description         NB         Export-Import Bank                U.S. Agency for         Housing and Urban    Telecommunications        GSE Mortgage Backed All other loans receivable
                                                           Loans                     International           Development                    Loans          Securities Purchase
                                                                                  Development                                                                        Program
 1             Loans receivable,     Debit
               net - beginning of
               the year
 2             Loans disbursed       Debit
               (loans made)
 3             Loan collections      Debit
               (principal and
               interest
               repayments,
               penaltiesand fines
               related to loans)
 4                                   Debit
 5                                   Debit
 6                                   Debit
 7                                   Debit
 8             Interest accrued on   Debit
               loans
 9             Foreclosed            Debit
               property acquired
10             Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11             Allowance for         Debit
               subsidy
12                                   Debit
13                                   Debit
14                                   Debit
15                                   Debit
16             Loans receivable,      N/A
               net - end of the
               year




                                                                                                       - 14 -
                                                                                                                                                                                              11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 04A         Direct Loans Receivable and Mortgage Backed Securities                                                          Fiscal Year: 2011                 Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:      AR - MD&A Part IV.B and Note 7

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide a broad description of foreclosed property.                                              1). N/A
2                  Provide details regarding programs reported in Sections C and D that comprise amounts            2). N/A
                   reported in the "All Other loans receivable" colulmn.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   3). PBGC provides financial assistance in the form of loans to insolvent multiemployer
                   the significant accounting policies pertaining to this note.                                     plans to enable the plan to pay guaranteed benefits. An allowance of 100% is set up
                                                                                                                    given that repayment of these loans is not expected.




                                                                                                          - 15 -
                                                                                                                                                                                 11/15/2011 15:08:51

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 04B         Loan Guarantees                                                                                          Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:      N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                Type
Loan Guarantee Liabilities                                               C        L                          0                  0
                                                                             Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2011 - SEPTEMBER             2010 - SEPTEMBER                Previously Rptd        Line Item Changes
 13
 14
 15
 16
 17
 18          All other loan
             guarantee liabilities
             Total




                                                                                                    - 16 -
                                                                                                                                                                                      11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 04B         Loan Guarantees                                                                                                  Fiscal Year: 2011          Period: SEPTEMBER
  Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Other Notes Info.

      Section: A            Section Name: Other Related Information                                     No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                  Decimal: Zero
Line Status Line Description        NB          CY Face Value of           CY Amount Guaranteed         CY Subsidy Expense D     PY Face Value of Loans PY Amount Guaranteed by   PY Subsidy Expense D
                                            Loans Outstanding D             by the Government D                                         Outstanding D        the Government D
13                                  N/A
14                                  N/A
15                                  N/A
16                                  N/A
17                                  N/A
18          All other loans         N/A
            guarantee liabilities
19          Total:                  N/A
Tab: Text Data                        No Data Flag: YES
 Line              Question                                                                                             Answer
 1                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.




                                                                                                           - 17 -
                                                                                                                                                                                11/15/2011 15:08:51

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 05          Inventories and Related Property                                                                         Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                               Type
Inventory and Related Property                                          D        A                          0                  0
                                                                            Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2011 - SEPTEMBER           2010 - SEPTEMBER                Previously Rptd        Line Item Changes
 1          Gross Inventory -
            balance beginning of
            year
 2          Prior-period
            adjustment (not
            restated)
 3          Capitalized
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Inventory sold or used
 6          Total allowance for
            inventories and related
            property
            Total




                                                                                                   - 18 -
                                                                                                                                                                               11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                             Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Inventory Yearend Balances by Category Type                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Inventory               Debit
                purchased for sale
 2              Inventory held in       Debit
                reserve for future
                sale to the public
 3              Inventory and           Debit
                operating material
                and supplies held
                for repair
 4              Inventory - excess,     Debit
                obsolete, and
                unserviceable
 5              Operating materials     Debit
                and supplies held
                for use
 6              Operating materials     Debit
                and supplies held
                in reserve for future
                use
 7              Operating materials     Debit
                and supplies
                excess, obsolete,
                and unserviceable
 8              Stockpile materials     Debit
 9              Stockpile materials     Debit
                held for sale
10              Forfeited property      Debit
11              Other related           Debit
                property
12              Total allowance for     Credit
                inventories and
                related property
13              Total inventories        N/A
                and related
                property, net




                                                                                                           - 19 -
                                                                                                                                                                               11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                          Fiscal Year: 2011         Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B              Section Name: Capitalized Acquitions From Government Agencies         No Data Flag: YES         Line Attributes: Dollars
                                             by Trading Patrner                                                              Rounding Method: Millions                Decimal: Zero
Line Status Line Description          NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              General Services     Debit
                Administration
 2              Department of        Debit
                Defense
 3              Department of        Debit
                Justice
 4              National             Debit
                Aeronautics and
                Space
                Administration
 5              All other            Debit
                departments
 6              Total Capitalized     N/A
                Assets from
                Federal Agencies
       Section: C              Section Name: Other Information - Dollar Value                        No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Seized property      Debit
 2              Forfeited property   Debit
 3              Goods held under     Debit
                price support and
                stabilization
                programs




                                                                                                       - 20 -
                                                                                                                                                                               11/15/2011 15:08:51

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                               Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: D              Section Name: Other Information - Number of Items/Volume                  No Data Flag: YES          Line Attributes: Units


Line Status Line Description          NB      2011 - SEPTEMBER                2010 - SEPTEMBER                   Previously Rptd    Line Item Changes
 1              Seized property      N/A
 2              Forfeited property   N/A
 3              Goods held under     N/A
                price support and
                stabilization
                programs



Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   Method used to calculate allowance for each category of inventory.
 2                   Significant accounting principles and methods of applying those principles.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 21 -
                                                                                                                                                                                          11/15/2011 15:08:51

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 06          Property, Plant, and Equipment                                                                            Fiscal Year: 2011                  Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:         AR - Note 2 Depreciation and Amortization

  Status: Complete                       The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2011 - SEPTEMBER        2010 - SEPTEMBER
                                                                               Type
Property, Plant and Equipment                                           D        A                          33                 32
                                                                            Variance:                        0                  0             Rounding Method: Millions              Decimal: Zero
Line Status Line Description                     CY PP&E            CY Accum. Depr.                CY Net PP& E                     PY PP&E              PY Accum. Depr.                   PY Net PP&E
 1          PP&E - balance                                  97                          65                             32                       83                            54                          29
            beginning of year
 2          Prior-period
            adjustments (not
            restated)
 3          Capitalized                                     13                                                         13                       14                                                        14
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Deletions from the
            Balance Sheet
 6          Revaluations
 7          Stewardship
            reclassifications
 8          Depreciation/amortizati                                                     12                            -12                                                     11                         -11
            on
            Total                                           110                          77                            33                         97                          65                          32




                                                                                                   - 22 -
                                                                                                                                                                                                   11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                                Fiscal Year: 2011                  Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        AR - Note 2 Depreciation and Amortization

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Gross cost for PP&E for each category                                                 Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                             Decimal: Zero
Line Status Line Description             NB       2011 - SEPTEMBER             2010 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1              Buildings,              Debit
                structures, and
                facilities (including
                improvement to
                land)
 2              Furniture, fixtures,    Debit                          20                          17                         17                          0
                and equipmen
                (including
                aircraf,ships,
                vessels, small
                boats, and
                vehicles)
 3              Construction in         Debit
                progress
 4              Land and Land           Debit
                Rights
 5              Internal use            Debit                          90                          80                         80                          0
                software
 6              Assets under            Debit
                capital lease
 7              Leasehold               Debit
                improvements
 8              Other property,         Debit
                plant and
                equipment
 9              Total property,         N/A                           110                          97                         97                          0
                plant and
                equipment
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Furniture, fixtures, and equipmen               Please provide explanations for any amounts that have             This is attributable to an increase in the purchase of capitalizable
 (including aircraf,ships, vessels, small boats, and vehicles)      changed by 10% or more and or greater than 500,000                equipment.
 (2011 - SEPTEMBER)                                                 between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)
 Other Notes Info - Internal use software (2011 -                   Please provide explanations for any amounts that have             This is attributable to an increase in the development of internal use
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000                software placed into production during the fiscal year.
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)



                                                                                                             - 23 -
                                                                                                                                                                                                  11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06             Property, Plant, and Equipment                                                                                  Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:        AR - Note 2 Depreciation and Amortization

  Status: Complete                               The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: B               Section Name: Accumulated Depreciation/Amortization                                                   Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Buildings,              Credit
                structures, and
                facilities (including
                improvements to
                land)
 2              Furniture, fixtures,    Credit                          16                         16                          16                          0
                and equipment
                (including aircraft,
                ships, vessels,
                small boats, and
                vehicles)
 3              Internal use            Credit                          61                         49                          49                          0
                software
 4              Assets under            Credit
                capital lease
 5              Leasehold               Credit
                improvements
 6              Other property,         Credit
                plant, and
                equipment
 7              Total accumulated        N/A                           -77                        -65                         -65                          0
                depreciation/amorti
                zation
       Section: C               Section Name: Intragovernmental Capitalized acquisition amounts          No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              General Services        Debit
                Administration
 2              Department of           Debit
                Defense
 3              Department of the       Debit
                Interior
 4              Department of           Debit
                Justice
 5              National                Debit
                Aeronautics and
                Space
                Administration



                                                                                                           - 24 -
                                                                                                                                                                                                    11/15/2011 15:08:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 06            Property, Plant, and Equipment                                                                                    Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:       AR - Note 2 Depreciation and Amortization

  Status: Complete                             The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: C              Section Name: Intragovernmental Capitalized acquisition amounts          No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB        2011 - SEPTEMBER             2010 - SEPTEMBER                 Previously Rptd         Line Item Changes
 6              All other             Debit
                departments
 7              Total capitalized      N/A
                assets from
                Federal agencies




       Section: D              Section Name: Gain/Loss on Sale/Disposition                              No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description           NB        2011 - SEPTEMBER             2010 - SEPTEMBER                 Previously Rptd         Line Item Changes
 1              Gain/loss on          Credit
                sale/disposition of
                property, plant and
                equipment




Tab: Text Data
 Line                Question                                                                                            Answer
 1                   Provide the physical quantity information by category for multiuse heritage assets that are         1). N/A
                     included in the "Line Item Notes" tab of this note (SFFAS No. 29, par 25).
 2                   Provide any other relevant information pertaining to this note and any material changes from        2). PBGC calculates depreciation on the straight-line basis over estimated useful lives
                     the prior years' depreciation methods and capitalization thresholds. In addition, describe          of 5 years for equipment and 10 years for furniture and fixtures. PBGC calculates
                     briefly the significant accounting policies pertaining to this note.                                amortization for capitalized software, which includes certain costs incurred for
                                                                                                                         purchasing and developing software for internal use, on the straight-line basis over
                                                                                                                         estimated useful lives not to exceed 5 years, commencing on the date that the
                                                                                                                         Corporation determines that the internal-use software is implemented.




                                                                                                           - 25 -
                                                                                                                                                                                              11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                   Fiscal Year: 2011                 Period: SEPTEMBER
   Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - MD&A Section VIII & Note 3

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                  Type
Debt and Equity Securities                                                 D        A                    47,359                   49,123
                                                                               Variance:                      0                        0           Rounding Method: Millions             Decimal: Zero
Line Status Line Description              2011 - SEPTEMBER           2010 - SEPTEMBER               Previously Rptd            Line Item Changes
 1              Fixed/Debt Securities                        5,142                      4,952                       4,952                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Non-U.S.
                Government Securities
 2              Fixed/Debt Securities                            5                         199                           199                            0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Commercial
                Securities
 3              Fixed/Debt Securities                        5,151                      2,733                       2,733                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Mortgage/asset
                backed Securities
 4              Fixed/Debt Securities                      11,690                      10,072                      10,072                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9):Corporate and other
                bonds
 5              All other Fixed                               476                          570                           570                            0
                Income/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9) All:Other fixed/debt
                securities
 6              Equity Securities                            1,654                      1,760                       1,760                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Common Stocks
 7              Equity Securities                          15,301                      19,486                      19,486                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Unit Trusts
 8              Equity Securities                            2,500                      3,197                       3,197                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): All Other Equity



                                                                                                      - 26 -
                                                                                                                                                                                             11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2011                 Period: SEPTEMBER
   Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:       AR - MD&A Section VIII & Note 3

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


Line Status Line Description             2011 - SEPTEMBER            2010 - SEPTEMBER               Previously Rptd          Line Item Changes
             Securities
 9           Other                                           5,440                      6,154                       6,518                        -364
             Total                                          47,359                     49,123                      49,487                         -364
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - Fixed/Debt Securities (FASB ASC 320-10-      Please provide explanations for any amounts that have             PBGC's Board of Directors adopted a new investment policy in May 2011.
 50-1 and 320-10-50-9): Commercial Securities (2011 -           changed by 10% or more and or greater than 500,000 between        The investment policy objective is to maximize total return within a prudent
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)        risk framework that incorporates PBGC's fixed obligations and asset
                                                                                                                                  composition of potential trusteed plans. The investment policy establishes a
                                                                                                                                  30 percent target asset allocation for equities and other non-fixed income
                                                                                                                                  assets, and a 70 percent asset allocation for fixed income. This differs from
                                                                                                                                  the interim/temporary investment policy established in 2009 which provided
                                                                                                                                  a 26.5% asset allocation for equity securities. Other changes are due to
                                                                                                                                  market fluctuations during the fiscal year.
 Line Item Notes - Fixed/Debt Securities (FASB ASC 320-10-      Please provide explanations for any amounts that have             PBGC's Board of Directors adopted a new investment policy in May 2011.
 50-1 and 320-10-50-9): Mortgage/asset backed Securities        changed by 10% or more and or greater than 500,000 between        The investment policy objective is to maximize total return within a prudent
 (2011 - SEPTEMBER)                                             the current fiscal year and prior fiscal year. (Unaudited)        risk framework that incorporates PBGC's fixed obligations and asset
                                                                                                                                  composition of potential trusteed plans. The investment policy establishes a
                                                                                                                                  30 percent target asset allocation for equities and other non-fixed income
                                                                                                                                  assets, and a 70 percent asset allocation for fixed income. This differs from
                                                                                                                                  the interim/temporary investment policy established in 2009 which provided
                                                                                                                                  a 26.5% asset allocation for equity securities. Other changes are due to
                                                                                                                                  market fluctuations during the fiscal year.
 Line Item Notes - Fixed/Debt Securities (FASB ASC 320-10-      Please provide explanations for any amounts that have             PBGC's Board of Directors adopted a new investment policy in May 2011.
 50-1 and 320-10-50-9):Corporate and other bonds (2011 -        changed by 10% or more and or greater than 500,000 between        The investment policy objective is to maximize total return within a prudent
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)        risk framework that incorporates PBGC's fixed obligations and asset
                                                                                                                                  composition of potential trusteed plans. The investment policy establishes a
                                                                                                                                  30 percent target asset allocation for equities and other non-fixed income
                                                                                                                                  assets, and a 70 percent asset allocation for fixed income. This differs from
                                                                                                                                  the interim/temporary investment policy established in 2009 which provided
                                                                                                                                  a 26.5% asset allocation for equity securities. Other changes are due to
                                                                                                                                  market fluctuations during the fiscal year.
 Line Item Notes - All other Fixed Income/Debt Securities       Please provide explanations for any amounts that have             PBGC's Board of Directors adopted a new investment policy in May 2011.
 (FASB ASC 320-10-50-1 and 320-10-50-9) All:Other               changed by 10% or more and or greater than 500,000 between        The investment policy objective is to maximize total return within a prudent
 fixed/debt securities (2011 - SEPTEMBER)                       the current fiscal year and prior fiscal year. (Unaudited)        risk framework that incorporates PBGC's fixed obligations and asset
                                                                                                                                  composition of potential trusteed plans. The investment policy establishes a
                                                                                                                                  30 percent target asset allocation for equities and other non-fixed income
                                                                                                                                  assets, and a 70 percent asset allocation for fixed income. This differs from
                                                                                                                                  the interim/temporary investment policy established in 2009 which provided
                                                                                                                                  a 26.5% asset allocation for equity securities. Other changes are due to
                                                                                                                                  market fluctuations during the fiscal year.



                                                                                                      - 27 -
                                                                                                                                                                                    11/15/2011 15:08:51

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

   Note: 07           Debt and Equity Securities                                                                            Fiscal Year: 2011                 Period: SEPTEMBER
  Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:      AR - MD&A Section VIII & Note 3

 Status: Complete                       The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                            Question                                                      Answer
Line Item Notes - Equity Securities (FASB ASC 320-10-50-    Please provide explanations for any amounts that have        PBGC's Board of Directors adopted a new investment policy in May 2011.
1 and 320-10-50-9): Unit Trusts (2011 - SEPTEMBER)          changed by 10% or more and or greater than 500,000 between   The investment policy objective is to maximize total return within a prudent
                                                            the current fiscal year and prior fiscal year. (Unaudited)   risk framework that incorporates PBGC's fixed obligations and asset
                                                                                                                         composition of potential trusteed plans. The investment policy establishes a
                                                                                                                         30 percent target asset allocation for equities and other non-fixed income
                                                                                                                         assets, and a 70 percent asset allocation for fixed income. This differs from
                                                                                                                         the interim/temporary investment policy established in 2009 which provided
                                                                                                                         a 26.5% asset allocation for equity securities. Other changes are due to
                                                                                                                         market fluctuations during the fiscal year.
Line Item Notes - Equity Securities (FASB ASC 320-10-50-    Please provide explanations for any amounts that have        PBGC's Board of Directors adopted a new investment policy in May 2011.
1 and 320-10-50-9): All Other Equity Securities (2011 -     changed by 10% or more and or greater than 500,000 between   The investment policy objective is to maximize total return within a prudent
SEPTEMBER)                                                  the current fiscal year and prior fiscal year. (Unaudited)   risk framework that incorporates PBGC's fixed obligations and asset
                                                                                                                         composition of potential trusteed plans. The investment policy establishes a
                                                                                                                         30 percent target asset allocation for equities and other non-fixed income
                                                                                                                         assets, and a 70 percent asset allocation for fixed income. This differs from
                                                                                                                         the interim/temporary investment policy established in 2009 which provided
                                                                                                                         a 26.5% asset allocation for equity securities. Other changes are due to
                                                                                                                         market fluctuations during the fiscal year.




                                                                                                  - 28 -
                                                                                                                                                                                        11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AR - MD&A Section VIII & Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Investment Category - Held-to-Maturity Securities       No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D              CY Unamortized           CY Net Investment     PY Basis (Costs) D             PY Unamortized          PY Net Investment
                                                                             Premium/Discount D                                                            Premium/Discount D
 1              Fixed/Debt              N/A
                Securities: Non-
                U.S. Government
                securities
 2              Fixed/Debt              N/A
                Securities: Non-
                U.S. Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                securiteis
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All Other equity
                securities
 9              Other                   N/A
10              Total Held-to-          N/A
                Maturity Securities




                                                                                                        - 29 -
                                                                                                                                                                                       11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AR - MD&A Section VIII & Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B               Section Name: Investment Category - Available-for-Sale Securities     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value     PY Basis (Costs) D      PY Unrealized Gain/Loss        PY Market Value
                                                                                               D                                                                             D
 1              Fixed/Debt              N/A
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                secruties
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Available-        N/A
                for-Sale Securities




                                                                                                        - 30 -
                                                                                                                                                                                                  11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                     Fiscal Year: 2011                   Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:          AR - MD&A Section VIII & Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: C               Section Name: Investment Category - Trading Securities                                               Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                            Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value          PY Basis (Costs) D           PY Unrealized Gain/Loss         PY Market Value
                                                                                               D                                                                                       D
 1              Fixed/Debt              N/A                       5,089                         53                         5,142                     4,492                            460                      4,952
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A                           5                                                       5                           199                                                    199
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A                       5,088                         63                         5,151                     2,681                             52                      2,733
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A                      10,936                        754                     11,690                        9,166                            906                     10,072
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A                         459                         17                          476                           560                          10                        570
                Securities: All other
                fixed income/debt
                securities
 6              Equity Securities:      N/A                       1,651                          3                         1,654                     1,696                             64                      1,760
                Common stocks
 7              Equity Securities:      N/A                      11,753                      3,548                     15,301                       13,037                          6,449                     19,486
                Unit trusts
 8              Equity Securities:      N/A                       2,546                        -46                         2,500                     3,172                             25                      3,197
                All other equity
                securities
 9              Other                   N/A                       5,352                         88                         5,440                     6,141                             13                      6,154
10              Total Trading           N/A                      42,879                      4,480                     47,359                       41,144                          7,979                     49,123
                Securities




                                                                                                        - 31 -
                                                                                                                                                                                        11/15/2011 15:08:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Section VIII & Note 3

  Status: Complete                             The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D              Section Name: Other Information                                                                   Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd      Line Item Change
 1              Proceeds from         Debit
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 2              Gross realized        Debit
                gains (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 3              Gross realized        Credit
                losses (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 4              Gross gains           Debit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 5              Gross losses          Credit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 6              Net unrealized        Debit
                holding gain on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income



                                                                                                         - 32 -
                                                                                                                                                                                               11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                        Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    AR - MD&A Section VIII & Note 3

  Status: Complete                               The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: D               Section Name: Other Information                                                                         Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                      Decimal: Zero
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd           Line Item Change
 7              Net unrealized          Credit
                holding loss on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income
 8              Amount of               Debit
                gains/losses
                reclassified out of
                accumulated other
                comprehensive
                income into
                earnings for the
                period
 9              Portion of trading      Debit                        3,467                      2,540                         2,540
                gains/losses that
                relates to trading
                securities still held
                at the reporting
                date
10              Net carrying            Debit
                amount of
                sold/transferred
                held-to-maturity
                securities (FASB
                ASC 320-10-50-
                10)
11              Net gain/loss in        Debit
                accum. other
                comp. income for
                any derivative that
                hedged the
                forecasted
                acquisition of HTM
                security




                                                                                                           - 33 -
                                                                                                                                                                                                  11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 07          Debt and Equity Securities                                                                                        Fiscal Year: 2011                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:       AR - MD&A Section VIII & Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide a description of the amounts reported on the "Line Item Notes" tab for lines 5, 8 and     1). The majority of the amount in line 5 consists of $393 million in pooled funds - fixed
                   9.                                                                                                income.
                                                                                                                     The majority of the amount in line 8 consists of $1,459 million in private equity and
                                                                                                                     $1,014 million in foreign investments - equity.
                                                                                                                     The majority of the amount in line 9 consists of $4,587 million of security lending
                                                                                                                     collateral and $536 million in pooled funds - real estate.
2                  Provide a description of the amounts reported on the "Other Notes Infor" tab for lines 5, 8       2). The majority of the amount in line 5 consists of $374 million (cost) in pooled funds -
                   and 9 in Sections A through C.                                                                    fixed income.
                                                                                                                     The majority of the amount in line 8 consists of $1,452 million (cost) in private equity
                                                                                                                     and $1,067 million in foreign investments - equity.
                                                                                                                     The majority of the amount in line 9 consists of $4,587 million (cost) of security lending
                                                                                                                     collateral and $447 million (cost) in pooled funds - real estate.
3                  Provide the basis on which the cost of a security sold or the amount reclassified out of          3). N/A
                   accumulated other comprehensive income into earnings was determined (FASB ASC 320-
                   10-50-9).
4                  Provide the circumstances leading to the decision to sell or transfer the security for held-to-   4). N/A
                   maturity securities (FASB ASC 320-10-50-10).
5                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    5). In accordance with FASB Accounting Standards Codifications Sections 815, 820,
                   the significant accounting policies pertaining to this note.                                      and 960, assets, whether equity or debt securities, real estate, or other investments, are
                                                                                                                     presented at their fair value at the financial statement date. The fair value of an
                                                                                                                     investment is the amount that PBGC could reasonably expect to receive for it in a
                                                                                                                     current sale between a willing buyer and a willing seller that is other than in a forced or
                                                                                                                     liquidated sale.




                                                                                                           - 34 -
                                                                                                                                                                                              11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 08            Other Assets                                                                                                         Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                                 Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                     I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2011 - SEPTEMBER          2010 - SEPTEMBER
                                                                                       Type
Other Assets                                                                   D         A                              0                    0
                                                                                    Variance:                           0                    0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2011 - SEPTEMBER               2010 - SEPTEMBER                   Previously Rptd            Line Item Changes
 1             Advances and
               prepayments
 4             Regulatory Assets
 5             Other assets
               Total

Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                Answer
 1                   Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.
 2                   Provide a description and related amounts for balances that exceed $1 billion in the line titled
                     "Other Assets" on the "Line Item Notes" tab.
 3                   Provide any relevant information pertaining to this note. At a minimum, describe briefly the
                     significant accounting policies pertaining to this note.




                                                                                                              - 35 -
                                                                                                                                                                                          11/15/2011 15:08:51

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 09          Accounts Payable                                                                                             Fiscal Year: 2011                  Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - Note 8

  Status: Complete                        The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2011 - SEPTEMBER        2010 - SEPTEMBER
                                                                                Type
Accounts Payable                                                         C        L                          58                   88
                                                                             Variance:                        0                    0            Rounding Method: Millions             Decimal: Zero
Line Status Line Description         2011 - SEPTEMBER             2010 - SEPTEMBER                Previously Rptd           Line Item Changes
 1          Accounts Payable                                 58                          88                            88                            0
            Total                                            58                          88                            88                            0
Threshold

 Line Description                                             Question                                                           Answer
 Line Item Notes - Accounts Payable (2011 - SEPTEMBER)        Please provide explanations for any amounts that have              The change is primarily attributable to a $9 million decrease in accounts
                                                              changed by 10% or more and or greater than 500,000 between         payable and an $18 million decrease in accrued expenses, as well as a $3
                                                              the current fiscal year and prior fiscal year. (Unaudited)         million decrease in accrued funded payroll and leave.




                                                                                                    - 36 -
                                                                                                                                                                                                        11/15/2011 15:08:51

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 09            Accounts Payable                                                                                                    Fiscal Year: 2011                   Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:       AR - Note 8

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Interest                                                      No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                              Decimal: Zero
Line Status Line Description          NB        2011 - SEPTEMBER             2010 - SEPTEMBER C                 Previously Rptd C      Line Item Changes D
                                                               C
 1              Interest accrued      N/A
                and owed to others




Tab: Text Data
 Line                Question                                                                                             Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly       1). The liability to be recorded shall reflect the amount of the invoice received but not
                     the significant accounting policies pertaining to this note.                                         paid. An accrued expense shall be recorded when goods or services have been
                                                                                                                          received and an account payable has not been established.




                                                                                                             - 37 -
                                                                                                                                                                                               11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                     Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:       AR - Note 3

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                   I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Investments in Federal Debt securities                                                      Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                        Decimal: Zero
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium               CY Net Investment              PY Par Value of the PY Unamortized discount
                                                   investment D                       Discount C                       D                                                  investment D                         C
17             Pension Benefit      N/A                        21,703                           900                          1,707                    22,510                     20,356                     1,273
               Guaranty
               Corporation Fund
23                                  N/A
24                                  N/A
25                                  N/A
26             All other programs   N/A
               and funds
27             Total                N/A                        21,703                          -900                          1,707                    22,510                     20,356                    -1,273

Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium D
17             Pension Benefit       N/A                         2,095                       21,178
               Guaranty
               Corporation Fund
23                                   N/A
24                                   N/A
25                                   N/A
26             All other programs    N/A
               and funds
27             Total                 N/A                         2,095                       21,178
       Section: B            Section Name: Fiduciary Funds - Tresury Securities Held by Deposit          No Data Flag: YES             Line Attributes: Dollars
                                           Funds (or Held by Non-Federal Custodians) with                                            Rounding Method: Millions                        Decimal: Zero
                                           Fiduciary Activity
Line Status Line Description         NB        CY Par value of the       CY Unamortized discount CY Unamortized premium                CY Net Investment             PY Par value of the PY Unamortized discount
                                                   investment D                               C                       D                                                  investment D                         C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A



                                                                                                           - 38 -
                                                                                                                                                                                  11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - Note 3

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B           Section Name: Fiduciary Funds - Tresury Securities Held by Deposit          No Data Flag: YES     Line Attributes: Dollars
                                          Funds (or Held by Non-Federal Custodians) with                                    Rounding Method: Millions                     Decimal: Zero
                                          Fiduciary Activity
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A

Line Status Line Description        NB            PY Unamortized             PY Net Investment
                                                     premium D
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A




                                                                                                          - 39 -
                                                                                                                                                                                  11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - Note 3

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C           Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                          Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                     Decimal: Zero
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 1                                 N/A
 2                                 N/A
 3                                 N/A
 4                                 N/A
 5                                 N/A
 6                                 N/A
 7                                 N/A
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A




                                                                                                          - 40 -
                                                                                                                                                                                 11/15/2011 15:08:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 10B       Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2011              Period: SEPTEMBER
  Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - Note 3

  Status: Complete                      The accompanying notes are an integral part of these financial statements.           I = Inactive Line


      Section: C          Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                        Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                     Decimal: Zero
Line Status Line Description      NB            PY Unamortized             PY Net Investment
                                                   premium C
 1                                N/A
 2                                N/A
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A
13                                N/A
14                                N/A
15                                N/A
16           Total                N/A
      Section: D          Section Name: Tresury Secrities Held be Governmnet Trust Funds,             No Data Flag: YES     Line Attributes: Dollars
                                        Revolving Funds, and Special Funds (to be                                         Rounding Method: User-Defined                 Decimal: User-Defined
                                        completed only by Treasury)
Line Status Line Description      NB        CY Par value of the                 CY Unamortized CY Unamortized premium     CY Net Investment D           PY Par Value of the PY Unamortized Discount
                                                investment D                       Discount C                       D                                       investment D                         C
26      I    Total               N/A

Line Status Line Description      NB            PY Unamortized            PY Net Investment D
                                                   premium D
26      I    Total                N/A




                                                                                                        - 41 -
                                                                                                                                                                                               11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                                   Fiscal Year: 2011                  Period: SEPTEMBER
  Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       AR - Note 3

 Status: Complete                       The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line             Question                                                                                         Answer
1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly   1). Debt Securities shall be recorded at face value. A premium or discount shall be
                 the significant accounting policies pertaining to this note.                                     recorded equal to the difference between face value and the cost basis.

                                                                                                                  Discounts and premiums on debt securities held in the revolving fund shall be accreted
                                                                                                                  or amortized by the effective interest method to arrive at a constant rate of interest for
                                                                                                                  the security. The straight-line method shall be acceptable only if it results in a
                                                                                                                  significant difference from use of the interest method. The premium/discount shall be
                                                                                                                  amortized/accreted over the term of the security which will typically be through to
                                                                                                                  maturity date, or call date, whichever is more appropriate.

                                                                                                                  Discounts and premiums on the trust fund fixed debt securities are not accreted or
                                                                                                                  amortized. These securities and all other securities are marked to market.




                                                                                                         - 42 -
                                                                                                                                                                               11/15/2011 15:08:51

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                           Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:      N/A

  Status: Complete                      The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account    2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                               Type
Federal Employee and Veteran Benefits Payable                          C         L                         0                  0
                                                                            Variance:                      0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2011 - SEPTEMBER            2010 - SEPTEMBER               Previously Rptd        Line Item Changes
 1          Pension and accrued
            benefits
 2          Post-retirement health
            and accrued benefits
 3          Veteran's
            compensation and
            burial benefits
 4          Life Insurance and
            accrued benefits
 5          FECA Benefits
 6          Liability for other
            retirement and
            postemployment
            benefits
            Total




                                                                                                  - 43 -
                                                                                                                                                                               11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Pension and Accrued Benefits Liability-To be                No Data Flag: YES         Line Attributes: Dollars
                                             completed for the amount entered for pension and                                    Rounding Method: Millions             Decimal: Zero
                                             accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Pension and             Credit
                accrued benefits
                liability- beginning
                of period
 2              Prior-period            Credit
                adjustments(not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4        I     Assumption              Credit
                Change Liability
 5              Normal Costs            Credit
                (SFFAS No. 5, par.
                72)
 6              Interest on pension     Credit
                liability during the
                period
 7              Prior (and past)        Credit
                service cost (from
                the initiation of a
                new plan)
 8              Actuarial               Credit
                (gains)/losses (from
                experience)
 9              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
10              Other                   Credit
11              Total pension            N/A
                expense (SFFAS
                No. 5, par.72)
12              Less Benefits Paid      Debit



                                                                                                           - 44 -
                                                                                                                                                                               11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: A               Section Name: Pension and Accrued Benefits Liability-To be               No Data Flag: YES         Line Attributes: Dollars
                                              completed for the amount entered for pension and                                   Rounding Method: Millions             Decimal: Zero
                                              accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
13              Pension and              N/A
                Accrued Benefits
                Liability-end of
                period




       Section: B               Section Name: Pension Liability Long-Term Significant Assumptions        No Data Flag: YES         Line Attributes: Percent
                                              Used in 2011 and 2010 Valuation
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
                (except OPM)
 2              Rate of inflation        N/A
                (except OPM)
 3              Projected salary         N/A
                increases (except
                OPM)



       Section: C               Section Name: Postretirement Health and Accrued Benefits                 No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Postretirement          Credit
                health and accrued
                benefits liability-
                beginning of period
                (SFFAS No. 5,
                par.88)
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of



                                                                                                           - 45 -
                                                                                                                                                                               11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                               Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C                Section Name: Postretirement Health and Accrued Benefits                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
                a new plan) during
                the period
 4              Normal costs            Credit
 5              Interest on liability   Credit
 6              Change in medical       Credit
                cost trend rate
                assumption
                (gains)/losses
 7              Actuarial               Credit
                (gains)/losses (from
                experience)
 8              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
 9              Other                   Credit
10              Total                    N/A
                postretirement
                health benefits
                expense
11              Less claims paid        Debit
12              Postretirement           N/A
                health and accrued
                benefits liability-
                end of period
       Section: D                Section Name: Postretirement Health Liability Significant               No Data Flag: YES         Line Attributes: Percent
                                               Assumptions Used in Determining the 2011 and 2010
                                               Valuation
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
 2              Ultimate rate of         N/A
                health care cost
                trend
 3              Single equivalent        N/A
                rate of health care
                cost trend




                                                                                                           - 46 -
                                                                                                                                                                                11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                             Fiscal Year: 2011          Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:     N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: G             Section Name: Other                                                     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Non-marketable        Debit
                Treasury securities
                held by Thrift
                Savings Plan (TSP)
                Fund
 2              Total assets of       Debit
                pension (SFFAS
                No.5, par. 68)
 3              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 2
 4              Total assets of       Debit
                other retirement
                benefit plans
                (SFFAS No. 5, par.
                85)
 5              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 4 (SFFAS
                no. 5, par.85)
       Section: L             Section Name: Workers' Compensation Benefits (to be completed by        No Data Flag: YES         Line Attributes: Percent
                                            DOL)
Line Status Line Description           NB                     COLA                          CPIM
 6              2015                  N/A
 7              2016+                 N/A




                                                                                                        - 47 -
                                                                                                                                                                                11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                 Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: O              Section Name: Veteran's Compensation and Burial Benefits (to be           No Data Flag: YES          Line Attributes: Dollars
                                             completed by the Department of Veterans Affairs)                                     Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB          CY Compensation                      CY Burial                    CY Total     PY Compensation             PY Burial               PY Total
 1              Veterans                Credit
                compensation and
                burial benefits
                liability - beginning
                of period
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Actuarial               Credit
                (gains)/losses (from
                experience)
 4              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
 5              Other                   Credit
 6              Veterans                 N/A
                compensation and
                burial benefits
                liability - end of
                period




                                                                                                           - 48 -
                                                                                                                                                                         11/15/2011 15:08:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                              Fiscal Year: 2011      Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    N/A

 Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                           Answer
1                  Provide the following information as it relates to the future policy benefits for noncancelable
                   and renewable life insurance (other than whole life) (SFFAS No. 5, par. 110, table 9): a
                   description of each component of the liability for future policy benefits, an explanation of its
                   projected use, and any other potential uses.
2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal
                   Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                   how and why the assumptions differ from one of those plans (SFFAS No. 5, par. 67).
3                  Provide the long-term projection of the significant economic assumptions used in
                   determining pension liability and
                   the related expense (example of assumptions: actuarial, economic, interest rate, and trend).
4                  Provide a description of the changes in the significant assumptions used in determining
                   pension liability and the
                   related expense (SFFAS No. 33, par.19).
5                  Provide the long-term projection of the significant economic assumptions used in
                   determining the postretirement
                   health benefits liability and the related expense (example of assumptions: actuarial,
                   economic, interest rate, and
                   trend).
6                  Provide a description of the changes in the significant assumptions used in determining the
                   postretirement health
                   benefits liability and the related expense (SFFAS No. 33, par. 19).
10                 Provide the source(s) of the information entered for Line Item Notes tab lines 4, 5, and 6.
11                 Provide the source(s) for the components of pension expense entered in Section A.
12                 Provide the source(s) for the interest rate entered in Section B.
13                 Provide the source(s) for the components of postretirement expense entered in Section C.
14                 Provide the source(s) for the interest rate entered in Section D.
17                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant
                   accounting policies pertaining to this note.




                                                                                                             - 49 -
                                                                                                                                                                                  11/15/2011 15:08:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

      Note: 12          Environmental and Disposal Liabilities                                                                    Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                 Type
Environmental and Disposal Liabilities                                    C        L                          0                  0
                                                                              Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2011 - SEPTEMBER          2010 - SEPTEMBER                Previously Rptd        Line Item Changes
  9
 10
 11
 12
 13
 14          Other Environmental
             and Disposal Liabilities
             Total




                                                                                                     - 50 -
                                                                                                                                                                                      11/15/2011 15:08:51

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 12            Environmental and Disposal Liabilities                                                                          Fiscal Year: 2011          Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                   No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2011 - SEPTEMBER               2010 - SEPTEMBER                   Previously Rptd     Line Item Changes
 1              Unrecognized         Debit
                portion of
                estimated total
                cleanup costs
                associated with
                general property,
                plant, and
                equipment


Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   List the applicable laws and regulations covering cleanup requirements
 2                   Provide a description of the type of environmental and disposal liabilties identified.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 51 -
                                                                                                                                                                                          11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 13          Benefits Due and Payable                                                                                           Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2011 - SEPTEMBER          2010 - SEPTEMBER
                                                                                   Type
Benefits Due and Payable                                                   C         L                             0                     0
                                                                                Variance:                          0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2011 - SEPTEMBER              2010 - SEPTEMBER                   Previously Rptd            Line Item Changes
 9          Other Entitlement
            BenefitsDue and
            Payable
            Total

Tab: Text Data                       No Data Flag: YES
 Line             Question                                                                                               Answer
 1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                  the significant accounting policies pertaining to this note.




                                                                                                         - 52 -
                                                                                                                                                                                    11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 14            Insurance and Guarantee Program Liabilities                                                               Fiscal Year: 2011                Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:        A/R - MD&A and Note 2

  Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account    2011 - SEPTEMBER     2010 - SEPTEMBER
                                                                                    Type
Insurance and Guarantee Program Liabilities                                 C         L                 92,954                90,023
                                                                                 Variance:                   0                     0           Rounding Method: Millions        Decimal: Zero
Line Status Line Description            2011 - SEPTEMBER               2010 - SEPTEMBER            Previously Rptd         Line Item Changes
 1              Single employer                            92,953                       90,022                    90,022                            0
 2              Multiemployer                                   1                            1                         1                            0
 6              Other Insurance
                Programs
 7
 8
            Total                                           92,954                      90,023                    90,023                            0




                                                                                                     - 53 -
                                                                                                                                                                                                 11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 14          Insurance and Guarantee Program Liabilities                                                                      Fiscal Year: 2011                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       A/R - MD&A and Note 2

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide a description for the type of insurance or guarantee programs identified in the "Line    1). PBGC operates two separate insurance programs for defined benefit plans.
                   Item Notes" tab.                                                                                 PBGC's single-employer program guarantees payment of basic pension benefits when
                                                                                                                    underfunded plans terminate. The insured event in the single-employer program is
                                                                                                                    plan termination. By contrast, in the multiemployer program, the insured event is plan
                                                                                                                    insolvency. PBGC's multiemployer program financially assists insolvent covered plans
                                                                                                                    to pay benefits at the statutorily guaranteed level. By law, the two programs are funded
                                                                                                                    and administered separately and their financial conditions, results of operations, and
                                                                                                                    cash flows are reported separately.

                                                                                                                    PBGC's multiemployer program provides financial assistance through loans to insolvent
                                                                                                                    plans to enable them to pay guaranteed benefits. A multiemployer plan is a pension
                                                                                                                    plan sponsored by two or more unrelated employers who have signed a collective
                                                                                                                    bargaining agreement with one or more unions.

                                                                                                                    The single-employer Present Value of Future Benefits (PVFB) is the estimated liability
                                                                                                                    for future pension benefits that PBGC is or will be obligated to pay participants of
                                                                                                                    trusteed plans and the net liability for plans pending termination and trusteeship.

                                                                                                                    Net claims for probable terminations represents PBGC's best estimate of the losses net
                                                                                                                    of plan assets, and the present value of expected recoveries (from sponsors and
                                                                                                                    members of their controlled group) for plans that are likely to terminate in a future year.
                                                                                                                    These estimated losses are based on conditions that existed as of PBGC's fiscal year-
                                                                                                                    end.
2                  Provide the name, description, and the related amounts of the insurance or guarantee             2). N/A
                   programs entered on the line titled, "Other insurance programs" in the "Line Item Notes" tab.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   3). The values of the Present Value of Future Benefits (PVFB) are particularly sensitive
                   the significant                                                                                  to changes in underlying estimates and assumptions.
                   accounting policies pertaining to this note.                                                     (1) Trusteed Plans represents the present value of future benefit payments less the
                                                                                                                    present value of expected recoveries.
                                                                                                                    (2) Pending termination and Trusteeship represents the present value of future benefit
                                                                                                                    payments less the plans' net assets.
                                                                                                                    (3) Settlements and Judgments represents estimated liabilities related to settled
                                                                                                                    litigation.
                                                                                                                    (4) Net Claims for Probable Terminations, in accordance with FASB Accounting
                                                                                                                    Standards Codification Section 450, PBGC recognizes net claims for probable
                                                                                                                    terminations with $50 million or more of underfunding.
                                                                                                                    (5) PBGC identifies certain plans as high risk if the plan sponsor is in Chapter 11, or the
                                                                                                                    sponsor's senior unsecured debt is rated CCC+/Caa1 or lower by S&P or Moody's
                                                                                                                    respectively.
                                                                                                                    (6) In order for a plan sponsor to be specifically classified as reasonably possible, it
                                                                                                                    must first have $5 million or more of underfunding, as well as meet additional criteria.
                                                                                                                    Criteria used for classifying a company as reasonably possible include, but are not
                                                                                                                    limited to, one or more of the following conditions: the plan sponsor is in Chapter 11
                                                                                                                    reorganization; funding waiver pending or outstanding with the Internal Revenue
                                                                                                                    Service; sponsor missed minimum funding contribution; sponsor's bond rating is below-


                                                                                                           - 54 -
                                                                                                                                                                                        11/15/2011 15:08:51

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                 GF006 - FR Notes Report

   Note: 14         Insurance and Guarantee Program Liabilities                                                                  Fiscal Year: 2011                Period: SEPTEMBER
  Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:      A/R - MD&A and Note 2

 Status: Complete                     The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                      Answer
                                                                                                               investment-grade for Standard & Poor's (BB+) or Moody's (Ba1); or sponsor has no
                                                                                                               bond rating but the Dun & Bradstreet Financial Stress Score is below the threshold
                                                                                                               considered to be investment grade.




                                                                                                - 55 -
                                                                                                                                                                                               11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

      Note: 15             Other Liabilities                                                                                                Fiscal Year: 2011                  Period: SEPTEMBER
   Entity: 1602            PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:        AR - Notes 3, 4 & 7

  Status: Complete                               The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                       Type
Other Liabilities                                                               C        L                    13,716                   11,997
                                                                                    Variance:                      0                        0           Rounding Method: Millions          Decimal: Zero
Line Status Line Description                   2011 - SEPTEMBER           2010 - SEPTEMBER               Previously Rptd            Line Item Changes
 1               Deferred revenue                                  397                          395                           395                            0
 2               Accrued wages and                                   3                            7                             7                            0
                 benefits
 4               Other debt
 6               Legal and other
                 contingencies
 7               Grant payments due to
                 State and local
                 governments and
                 others
 8               Other employee and
                 actuarial liabilities
 10              D.C. pension liability
 11              Custodial liabilities
 12              Accrued annual leave                                 8                           7                             7                            0
 14              Advances and
                 prepayments
 15              Farm and other
                 subsidies
 16              Deposit funds
 17              Bonneville Power
                 Administration Non-
                 Federal power projects
                 and capital lease
                 liabilities and disposal
                 liabilities
 18
 19
 20
 21           Other Liabilities                                 13,308                      11,588                      11,952                          -364
              Total                                             13,716                      11,997                      12,361                           -364




                                                                                                           - 56 -
                                                                                                                                                                                               11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 15           Other Liabilities                                                                                               Fiscal Year: 2011                 Period: SEPTEMBER
  Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:      AR - Notes 3, 4 & 7

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line



Threshold

Line Description                                              Question                                                             Answer
Line Item Notes - Accrued wages and benefits (2011 -          Please provide explanations for any amounts that have                This change is due to a decrease in accrued wages and benefits.
SEPTEMBER)                                                    changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Accrued annual leave (2011 -                Please provide explanations for any amounts that have                The increase in this account is attributable to an increase in recorded
SEPTEMBER)                                                    changed by 10% or more and or greater than $500,000                  accrued annual leave benefits of employees.
                                                              between the current fiscal year and prior fiscal year. (unaudited)
Line Item Notes - Other Liabilities (2011 - SEPTEMBER)        Please enter a description for any amounts over $50 million.         The total year over year increase in Other Liabilities of $1,720 million is
                                                                                                                                   primarily attributable to the following: $1,445 million increase in Present
                                                                                                                                   value of nonrecoverable future financial assistance, $1,003 million increase
                                                                                                                                   in Due from purchases of securities, partially offset by a $840 million
                                                                                                                                   decrease in the Payable upon return of securities loaned account.




                                                                                                         - 57 -
                                                                                                                                                                                                   11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 15          Other Liabilities                                                                                                Fiscal Year: 2011                   Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       AR - Notes 3, 4 & 7

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide more details on the liabilities reported on the "Line Item Notes" tab for each line 1    1). Line 1 - Deferred revenue is attribuatble to unearned premium revenue for both the
                   through 21 by including a description of the significant related amounts and providing the       single-employer and multiemployer programs - which can be located on the balance
                   page number of the agency's financial report where the amount is identified.                     sheet under Unearned premiums.
2                  Provide a description and related amounts for balances that exceed $50 million on the Line       2). Line 21 - Other liabilities consists of Present value of nonrecoverable future
                   Item Notes tab, line 21, "Other liabilities," and provide the page number of the agency's        financial assistance, Derivative contracts, Due for purchase of securities, and Payable
                   financial report where the amount is identified.                                                 upon return of securities loaned - all of which can be located on the balance sheet.
                                                                                                                    Items that consist of $50 million or more reported in Other liabilities are: Securities sold
                                                                                                                    upon return of securities loaned ($4,587 million); Present value of nonrecoverable
                                                                                                                    future financial assisitance ($4,475 million); Due for purchase of securities ($4,079
                                                                                                                    million); and Derivative contracts ($167 million).
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   3). Payable upon return of securities loaned represents the liability created under
                   the significant                                                                                  securities lending where PBGC maintains effective control over the securities and will
                   accounting policies pertaining to this note.                                                     remain as a liability until the transaction is completed and the securities are returned.

                                                                                                                    Due for purchases of securities represents the liability position for open trades (not
                                                                                                                    settled), and are presented at fair value in accordance with the general investments
                                                                                                                    policies.

                                                                                                                    Present value of nonrecoverable future financial assistance represents an estimated
                                                                                                                    liability for nonrecoverable payments to be provided to multiemployer plans in the
                                                                                                                    future. The liability represents the present value of all future payments which can be
                                                                                                                    estimated and likely to be nonrecoverable.

                                                                                                                    PBGC's derivative financial instruments are recorded at fair in accordance with the
                                                                                                                    FASB Accounting Standards Codification Section 815, and are located on the
                                                                                                                    Statements of Financial Condition and related footnotes as investments and derivative
                                                                                                                    contracts. Derivative contracts include future contracts in a receivable position, futures
                                                                                                                    contracts in a payable position, interest rate swaps, credit default swaps, options
                                                                                                                    purchased (long), options written (sold short), and foreign exchange forward contracts.




                                                                                                           - 58 -
                                                                                                                                                                                  11/15/2011 15:08:51

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Statements of Financial Condition

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Non-Federal Prior-Period Adjustments - Restated        No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: B            Section Name: Federal Prior-Period Adjustments - Restated            No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 59 -
                                                                                                                                                                                  11/15/2011 15:08:51

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Statements of Financial Condition

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: C            Section Name: Non-Federal Correction of Errors- Years Preceding      No Data Flag: YES      Line Attributes: Dollars
                                           2010                                                                        Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: D            Section Name: Federal Correction of Errors - Years Preceding 2010    No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 60 -
                                                                                                                                                                                  11/15/2011 15:08:51

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Statements of Financial Condition

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: E            Section Name: Non-Federal Immaterial Errors                          No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: F            Section Name: Federal Immaterial Errors                              No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 61 -
                                                                                                                                                                                     11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 17             Prior-Period Adjustments                                                                              Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    Statements of Financial Condition

  Status: Complete                           The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: G               Section Name: Closing Package Adjustments                                                   Line Attributes: Dollars
                                                                                                                          Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB                Amount C
 1              BS - Securities        N/A                       -364
                lending collateral
 2              BS - Payable upon      N/A                         364
                return of securities
                loaned
 3                                     N/A
 4                                     N/A
 5                                     N/A
 6                                     N/A
 7                                     N/A
 8                                     N/A
 9                                     N/A
10                                     N/A
11              Total                  N/A                           0




                                                                                                       - 62 -
                                                                                                                                                                                               11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 17          Prior-Period Adjustments                                                                                         Fiscal Year: 2011                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       Statements of Financial Condition

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe the restatements to the prior year that resulted from correcting errors that occurred   1). N/A
                   in the prior year (data reported in Sections A and B).
2                  Describe any errors that occurred in years preceding the prior year that adjusted the prior-     2). N/A
                   year beginning net position (data reported in Sections C and D).
3                  Describe any immaterial errors that occurred in the prior period(s) that were corrected          3). N/A
                   against the current-year operations (data reported in Sections E and F).
4                  Describe any adjustments of the previous year (2010) reclassification in this year¿s (2011)      4). Line 1 of Section G - Securities lending collateral. PBGC does not have the right by
                   Closing Package prior-year (2010) reporting (data reported in Section G), excluding              contract or custom to sell or repledge non-cash collateral and is no longer reported on
                   amounts reported as restatements in Section A and B.                                             the Statements of Financial Condition. Non-cash collateral previously included with
                                                                                                                    securities lending cash collateral was reclassified in the amount of $364 million within
                                                                                                                    the FY 2010 Statements of Financial Condition to be consistent with the FY 2011
                                                                                                                    reporting. Likewise corresponding cash flow changes have been incorporated in the FY
                                                                                                                    2010 Statements of Cash Flows. All such changes have no impact on FY 2010 or FY
                                                                                                                    2011 net positions.

                                                                                                                    Line 2 of Section G - Payable upon return of securities loaned. PBGC does not have
                                                                                                                    the right by contract or custom to sell or repledge non-cash collateral and is no longer
                                                                                                                    reported on the Statements of Financial Condition. Non-cash collateral previously
                                                                                                                    included with Payable upon return of securities loaned was reclassified in the amount of
                                                                                                                    $364 million within the FY 2010 Statements of Financial Condition to be consistent with
                                                                                                                    the FY 2011 reporting. Likewise corresponding cash flow changes have been
                                                                                                                    incorporated in the FY 2010 Statements of Cash Flows. All such changes have no
                                                                                                                    impact on FY 2010 or FY 2011 net positions.


5                  Describe the adjustments to the current-year or prior-year beginning net position that           5). There is no other relevant information pertaining to this note.
                   resulted from changes in accounting principles as reported on the Reclassified Statement of
                   Changes in Net Position, line 2.1 and/or line 3.1.
6                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   6). N/A
                   the significant accounting policies pertaining to this note.




                                                                                                           - 63 -
                                                                                                                                                                                           11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 18            Contingencies (SFFAS Nos. 5 and 12)                                                                          Fiscal Year: 2011                  Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - Notes 2, 9 & 16

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Insurance Contingencies (Reasonably Possible Only)                                    Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              PBGC Defined         Credit                     227,117                    169,744                    169,744                          0
                Pension Plan
                (Single-employer)
 2              PBGC Defined         Credit                      23,097                     20,232                     20,232                          0
                Pension Plan
                (Multi-employer)
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8                                   Credit
 9              Other insurance      Credit
                contingencies
10              Total                 N/A                     -250,214                   -189,976                   -189,976                           0
       Section: B             Section Name: Insurance in force (Sum of Policy Face Value and          No Data Flag: YES           Line Attributes: Dollars
                                            Dividends Paid)                                                                     Rounding Method: User-Defined                     Decimal: User-Defined
Line Status Line Description          NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd      Line Item Changes
 3                                   Credit
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8              Other insurance in   Credit
                force
 9              Total                 N/A




                                                                                                        - 64 -
                                                                                                                                                                                        11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                        Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:     AR - Notes 2, 9 & 16

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C              Section Name: Civil Litigation, Claims and Assessments                                             Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB        CYAccrued/Estimated      CY Estimated Range(Low           CY Estimated Range CY Claim amount(Unable           PYAccrued/Estimated PY Estimated Range(Low
                                                          amount                          end)                   (High end)      to determine loss)          amount rued/Estimated                 end)
                                                                                                                                                                         amount
 1              Probable             Credit
 2              Reasonably           Credit                                                     68                                                                                                      68
                Possible
Line Status Line Description           NB        PY Estimated Range        PY Claim amunt (unable
                                                         (High end)                to determine)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
       Section: D              Section Name: Environmental Litigation, Claims, and Assessments        No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description          NB        CYAccrued/Estimated           CY Estimated Range          CY Estimated Range   CY Claim amunt(unable         PY Accrued/Estimated     PY Estimated Range
                                                          amount                      (Low end)                  (High end)            to determine)                    amount                (Low end)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB        PY Estimated Range      PY Claim amount (unable
                                                      (High Range)                 to determine)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
       Section: E              Section Name: Other Contingencies                                      No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description          NB               CY Probable        CY Reasonably Possible                 PY Probable   PY Reasonably Possible

 3                                   Credit
 4                                   Credit
 5                                   Credit




                                                                                                        - 65 -
                                                                                                                                                                                                     11/15/2011 15:08:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                               Fiscal Year: 2011                   Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:        AR - Notes 2, 9 & 16

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Describe the risk insurance programs that are in force.                                           1). Title IV of ERISA requires PBGC to provide mandatory insurance for defined benefit
                                                                                                                     pension plans. PBGC operates two programs; one for the single-employer (SE) and
                                                                                                                     the other for multiemployer (ME) defined benefit pension plans. When an SE plan
                                                                                                                     terminates and does not have enough assets to pay Title IV benefits to the participants,
                                                                                                                     PBGC trustees the plan and pays benefits (up to the guaranteed limit) to the
                                                                                                                     participants. PBGC does not trustee ME plans but provides financial assistance to the
                                                                                                                     plan when it becomes insolvent (there are not enough assets to pay guaranteed level of
                                                                                                                     benefits to participants). Insurance contingencies are the estimated aggregate
                                                                                                                     underfunded vested benefits exposure to PBGC whose SE plans are classified as
                                                                                                                     reasonably possible of termination. This amount as of September 30, 2011 was
                                                                                                                     $227,117 million.

                                                                                                                     Additionally, PBGC estimates that, as of September 30, 2011, it is reasonably possible
                                                                                                                     that multiemployer plans may require future financial assistance in the amount of $23
                                                                                                                     billion. The comparable estimates of the multiemployer program's reasonable possible
                                                                                                                     exposure for FY 2010 and FY 2009 were $20 billion and $326 million, respectively. The
                                                                                                                     significant increase from prior years is primarily due to the addition of two large plans to
                                                                                                                     the reasonably possible inventory. The sponsor of one plan, now with net liability of
                                                                                                                     $16.4 billion, is in the transportation, communication, and utilities industry category; the
                                                                                                                     other, now with net liability of $5.4 billion, is in the agriculture, mining, and construction
                                                                                                                     industry category.
2                  Provide the nature of the isurance contingencies.                                                 2). N/A
3                  Provide the nature of the litigation contingencies, including the range of loss for probable      3). N/A
                   liabilities.
4                  Provide the nature of the litigation contingencies including the range of loss for reasonably     4). A union representing participants of a plan has filed in federal court against PBGC.
                   possible contingencies.                                                                           They are challenging a PBGC Appeals Board decision denying participant shutdown
                                                                                                                     benefits. An estimate of potential loss is $68 million.

                                                                                                                     In addition, there are two reasonably possible civil litigation cases, whereas no estimate
                                                                                                                     of the amount or range of potential loss can be made with any degree of certainty.
5                  Provide the total claim amount for cases assessed as "unable to determine" if significant.        5). N/A
                   Also, provide a statement on whether this materiality affects the financial statements.
6                  Describe the other claims that may derive from treaties or international agreements.              6). N/A
7                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    7). In order for a plan sponsor to be specifically classified as reasonably possible, it
                   the significant accounting policies pertaining to this note.                                      must first have $5 million or more of underfunding, as well as meet additional criteria.
                                                                                                                     Criteria used for classifying a company as reasonably possible include, but are not
                                                                                                                     limited to, one or more of the following conditions: the plan sponsor is in Chapter 11
                                                                                                                     reorganization; funding waiver pending or outstanding with the Internal Revenue
                                                                                                                     Service; sponsor missed minimum funding contribution; sponsor's bond rating is below-
                                                                                                                     investment-grade for Standard & Poor's (BB+) or Moody's (Ba1); or sponsor has no
                                                                                                                     bond rating but the Dun & Bradstreet Financial Stress Score is below the threshold
                                                                                                                     considered to be investment grade.

                                                                                                                     The Corporation calculated the future financial assistance liability for each


                                                                                                            - 66 -
                                                                                                                                                                                          11/15/2011 15:08:51

                                                                            U.S. Department of the Treasury
                                                                             Financial Management Service
                                                                        Governmentwide Financial Report System
                                                                                GF006 - FR Notes Report

   Note: 18         Contingencies (SFFAS Nos. 5 and 12)                                                                         Fiscal Year: 2011                  Period: SEPTEMBER
  Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:       AR - Notes 2, 9 & 16

 Status: Complete                    The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                     Answer
                                                                                                              multiemployer plan identified as probable (see Note 7), or reasonably possible as the
                                                                                                              present value of guaranteed future benefit and expense payments net of any future
                                                                                                              contributions or withdrawal liability payments as of the later of September 30, 2011, or
                                                                                                              the projected (or actual, if known) date of plan insolvency, discounted back to
                                                                                                              September 30, 2011. The Corporation's identification of plans that are likely to require
                                                                                                              such assistance and estimation of related amounts required consideration of many
                                                                                                              complex factors, such as an estimate of future cash flows, future mortality rates, and
                                                                                                              age of participants not in pay status. These factors are affected by future events,
                                                                                                              including actions by plans and their sponsors, most of which are beyond the
                                                                                                              Corporation's control.




                                                                                               - 67 -
                                                                                                                                                                                                   11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                   Fiscal Year: 2011                     Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:          AR - Note 10

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Capital leases-Asset                                        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal       PY Non-Federal
 1              Building               Debit
 2              Land                   Debit
 3              Equipment              Debit
 4              Software license       Debit
 5              Other                  Debit
 6              Accumulated            Credit
                depreciation/amorti
                zation
 7              Net assets under        N/A
                capital leases
       Section: B               Section Name: Capital leases - Liability                                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description            NB                 CY Federal              CY Non-Federal                     PY Federal       PY Non-Federal
 1              Future minimum         Credit
                lease programs
 2              Imputed interest       Debit
 3              Executory costs        Debit
                including any profit
 4              Total capital lease     N/A
                liability


       Section: C               Section Name: Commitments: Operating leases and undelivered                                          Line Attributes: Dollars
                                              orders                                                                               Rounding Method: Millions                             Decimal: Zero
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal      PY Non-Federal
 1              Operating leases       Credit                                                     128                                                     154
 2            Undelivered orders Credit                                 22                        160                         27                          133
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Operating leases (CY Non-Federal)               Please provide explanations for any amounts that have             The decrease in the operating lease from FY 2010 to FY 2011 is due to
                                                                    changed by 10% or more and or greater than $500,000               another year fulfilled on the current lease obligation and a modification in
                                                                    between the current fiscal year and prior fiscal year.            estimate to projected lease obligations.
                                                                    (unaudited)



                                                                                                             - 68 -
                                                                                                                                                                                                         11/15/2011 15:08:51

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                          Fiscal Year: 2011                  Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                                 Agency Notes:       AR - Note 10

  Status: Complete                              The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


       Section: C                Section Name: Commitments: Operating leases and undelivered                                                Line Attributes: Dollars
                                               orders                                                                                     Rounding Method: Millions                            Decimal: Zero
Threshold
 Line Description                                                    Question                                                                Answer
 Other Notes Info - Undelivered orders (CY Federal)                  Please provide explanations for any amounts that have                   PBGC has experienced an increase in contractual services from FY 2010 to
                                                                     changed by 10% or more and or greater than $500,000                     FY 2011.
                                                                     between the current fiscal year and prior fiscal year.
                                                                     (unaudited)
 Other Notes Info - Undelivered orders (CY Non-Federal)              Please provide explanations for any amounts that have                   The decrease in undelivered orders is because the amount of contracts paid
                                                                     changed by 10% or more and or greater than $500,000                     in FY 2011 was higher than the amount of new contracts obligated. There
                                                                     between the current fiscal year and prior fiscal year.                  were more payments in FY 2011 than in FY 2010.
                                                                     (unaudited)

       Section: D                Section Name: Other Commitments                                             No Data Flag: YES              Line Attributes: Dollars
                                                                                                                                          Rounding Method: User-Defined                        Decimal: User-Defined
Line Status Line Description            NB                CY Federal                 CY Non-Federal                      PY Federal           PY Non-Federal
 9                                     Credit
10                                     Credit
11                                     Credit
12                                     Credit
13                                     Credit
14              Total                   N/A


Tab: Text Data
 Line                   Question                                                                                              Answer
 1                      Describe the lessee's leasing arrangements including the basis on which contingent rental             1). PBGC leases its office facility under a commitment that began on January 1, 2005,
                        payments are determined, the existence and terms of renewal or purchase options,                      and expires December 10, 2019. This lease provides for periodic rate increases based
                        escalation clauses and restrictions imposed by lease agreements.                                      on increases in operating costs and real estate taxes over a base amount. In addition,
                                                                                                                              PBGC is leasing space for field benefit administrators. These leases began in 1996
                                                                                                                              and expire in 2014.
 2                      Explain any amounts listed in Section D in detail and reference the note, and/or location, in         2). N/A
                        the agency¿s Performance and Accountability Report (PAR).
 3                      Provide any other relevant information pertaining to this note. At a minimum, describe briefly        3). Commitments represent an obligation to make future payments in exchange for the
                        the significant accounting policies pertaining to this note.                                          receipt of an asset or benefit. Operating leases having initial remaining non-
                                                                                                                              cancellable lease terms in excess of year shall be disclosed in the financial statements
                                                                                                                              or the related footnotes.




                                                                                                                - 69 -
                                                                                                                                                                                       11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                              Fiscal Year: 2011            Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Other Notes Info.

      Section: A              Section Name: Assets - Current Year                                   No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description          NB           Cash and other             Fund balance with           Inv in U. S. Treas.   Interest Receivable D Other Federal assets (with      Other Federal assets
                                                monetary assets D                  Treasury D       Sec.(net of prem. & disc)                              earmarked funds) D        (with non-earmarked
                                                                                                                           D                                                                    funds) D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                       - 70 -
                                                                                                                                                                                        11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2011            Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: B              Section Name: Assets - Prior Year                                     No Data Flag: YES              Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description          NB           Cash and other             Fund balance with       Inv. in U.S. Treas. Sec.   Interest Receivable D Other Federal assets (with      Other Federal assets
                                                monetary assets D                  Treasury D       (net of prem. & disc.) D                                earmarked funds) D        (with non-earmarked
                                                                                                                                                                                                 funds) D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                      - 71 -
                                                                                                                                                                                                11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                Fiscal Year: 2011             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:       N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: C              Section Name: Liabilities and Net Position - Current Year              No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description          NB           Benefits due and       Other Federal liabilities Other Fed. liabilities (with      Other non-Federal            Total liabilities        Ending net position C
                                                        payable C         (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                  C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB     Total liabilities and net
                                                            position
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                         - 72 -
                                                                                                                                                                                                 11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                 Fiscal Year: 2011             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line


      Section: D              Section Name: Liabilities and Net Position - Prior Year                 No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description          NB           Benefits due and        Other Federal liabilities Other Fed. liabilities (with      Other non-Federal            Total liabilities        Ending net position C
                                                        payable C          (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                   C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB     Total liabilities and net
                                                            position
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                          - 73 -
                                                                                                                                                                                      11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                             Fiscal Year: 2011             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


      Section: E              Section Name: Revenue, Financing, Expenses, and Other - Current       No Data Flag: YES            Line Attributes: Dollars
                                            Year                                                                               Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description          NB              Net position,     Prior-period adjustment    Investment revenue from    Individual income taxes Unemployment and excise    Other taxes and receipts
                                             beginning of period C                            C      Treasury Securities C    and payroll tax withhold               taxes C                           C
                                                                                                                                                    C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB        Royalties and other           All other financing Program net cost - public        Program net cost -     Non-program expenses       Net position, end of
                                                special revenue C                    sources C                            D     Intragovernmental D                          D                   period
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                      - 74 -
                                                                                                                                                                                      11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                             Fiscal Year: 2011             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


      Section: F              Section Name: Revenue, Financing, Expenses, and Other - Prior         No Data Flag: YES            Line Attributes: Dollars
                                            Year                                                                               Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description          NB              Net position,     Prior-period adjustment    Investment revenue from    Individual income taxes Unemployment and excise    Other taxes and receipts
                                             beginning of period C                            C      Treasury Securities C    and payroll tax withhold               taxes C                           C
                                                                                                                                                    C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB        Royalties and other           All other financing Program net cost - public        Program net cost -     Non-program expenses       Net position, end of
                                                special revenue C                    sources C                            D     Intragovernmental D                          D                   period
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                      - 75 -
                                                                                                                                                                                 11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                  Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: G             Section Name: Number of Agency Earmarked Funds                               No Data Flag: YES          Line Attributes: Units


Line Status Line Description          NB       2011 - SEPTEMBER                2010 - SEPTEMBER                    Previously Rptd    Line Item Changes
 1              Total number of       N/A
                earmarked funds




Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                Answer
 1                   Provide a general description of the individual earmarked funds reported in the Other Notes
                     Info tab (SFFAS No. 27, par. 33). Also describe how the entity accounts for and reports the
                     fund (SFFAS No. 27, par. 23.1).
 2                   State the legal authority for the administrative entity of each fund to use the revenues and
                     other financing sources based on SFFAS No. 27, par. 23.1
 3                   Explain any change in legislation during or subsequent to the reporting period and before the
                     issuance of the financial statements that significantly change the purpose of the fund or that
                     redirects a material portion of the accumulated balance (SFFAS No. 27, par. 23.3).
 4                   Provide the sources of revenue and other financing for amounts reported in columns 3
                     through 8 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2).
 5                   Provide any other relevant information pertaining to this note, including explanation for prior-
                     period adjustments, if any. At a minimum, describe briefly the significant accounting policies
                     pertaining to this note.




                                                                                                              - 76 -
                                                                                                                                                                                 11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 25            Stewardship Land                                                                                         Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:     N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: A             Section Name: Stewardship Land (SFFAS No. 29, par. 40d)               No Data Flag: YES          Line Attributes: Units


Line Status Line Description         NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd     Line Item Changes
 1              Public Land          N/A
 2              National Forest      N/A
                System
 3              National Wildlife    N/A
                Refuge System
 4              National Park        N/A
                System
 5              Withdrawn public     N/A
                land
 6              Mission Land         N/A
 7              Water, power,and     N/A
                recreation
 8              Geographic           N/A
                management areas
 9              National fish        N/A
                hatcheries
10              Conservation areas   N/A
11              National marine      N/A
                monuments
12              All other            N/A
       Section: B             Section Name: Stewardship Land (SFFAS No. 29, par. 40d)-              No Data Flag: YES          Line Attributes: Units
                                            Unaudited
Line Status Line Description         NB      CY Beginning Balance                 CY Acquired                  CY Withdrawn   CY Ending Balance         PY Beginning Balance         PY Acquired

 1        I     Public Land          N/A
 2        I     National Forest      N/A
                System
 3        I     National Wildlife    N/A
                Refuge System
 4        I     National Park        N/A
                System
 5        I     Withdrawn Public     N/A
                Land
 6        I     Mission Land         N/A
 7        I     Water, Power, and    N/A
                Recreation



                                                                                                      - 77 -
                                                                                                                                                                                11/15/2011 15:08:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 25           Stewardship Land                                                                                         Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:     N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B           Section Name: Stewardship Land (SFFAS No. 29, par. 40d)-               No Data Flag: YES          Line Attributes: Units
                                          Unaudited
Line Status Line Description        NB      CY Beginning Balance                 CY Acquired                  CY Withdrawn   CY Ending Balance         PY Beginning Balance         PY Acquired

 8        I     Geographic          N/A
                Management Areas
 9        I     National Fish       N/A
                Hatcheries
10        I     Conservation        N/A
                Areas
11        I     National Marine     N/A
                Monuments
12        I     All other           N/A

Line Status Line Description        NB             PY Withdrawn            PY Ending Balance
 1        I     Public Land         N/A
 2        I     National Forest     N/A
                System
 3        I     National Wildlife   N/A
                Refuge System
 4        I     National Park       N/A
                System
 5        I     Withdrawn Public    N/A
                Land
 6        I     Mission Land        N/A
 7        I     Water, Power, and   N/A
                Recreation
 8        I     Geographic          N/A
                Management Areas
 9        I     National Fish       N/A
                Hatcheries
10        I     Conservation        N/A
                Areas
11        I     National Marine     N/A
                Monuments
12        I     All other           N/A




                                                                                                     - 78 -
                                                                                                                                                                     11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 25          Stewardship Land                                                                                        Fiscal Year: 2011      Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    N/A

 Status: Complete                        The accompanying notes are an integral part of these financial statements.        I = Inactive Line

Tab: Text Data                       No Data Flag: YES
Line               Question                                                                                       Answer
1                  Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
2                  Provide the condition of the stewardship land (SFFAS 29, par. 41).
3                  Provide a brief statement explainng how the stewardship land relates to the mission of the
                   agency (SFFAS No. 29, par. 40a).
4                  Provide a brief description of the agency's stewardship policies for stewardsip land (SFFAS
                   No. 29, par. 40b).
5                  Provide any other information relevant information pertaining to this note. At a minimum,
                   describe briefly the significant accounting policies pertaining to this note.




                                                                                                         - 79 -
                                                                                                                                                                              11/15/2011 15:08:51

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                  GF006 - FR Notes Report

     Note: 26        Heritage Assets                                                                                        Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 1602    PENSION BENEFIT GUARANTY CORPORATION                                                                   Agency Notes:     N/A

  Status: Complete                     The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: A        Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.     No Data Flag: YES         Line Attributes: Units
                                       25d)
Line Status Line Description     NB        Physical units at the   Physical units at the end
                                          end of the fiscal year    of the fiscal year 2010
                                                         2011
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A


       Section: B        Section Name: Non-Collection Type Heritage Assets (SFFAS No.          No Data Flag: YES         Line Attributes: Units
                                       29, par. 25d)
Line Status Line Description     NB        Physical units at the   Physical units at the end
                                          end of the fiscal year    of the fiscal year 2010
                                                         2011
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A


       Section: C        Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.     No Data Flag: YES         Line Attributes: Units
                                       25d) - Unaudited
Line Status Line Description     NB     CY Physical units as of    CY Physical units added           CY Physical units   CY Physical units-           PY Physical units   PY Physical units added
                                          the beginning of the                                           withdrawn        ending balance            beginning balance
                                                        year
 1        I                      N/A
 2        I                      N/A
 3        I                      N/A
 4        I                      N/A
 5        I                      N/A




                                                                                                 - 80 -
                                                                                                                                                                                         11/15/2011 15:08:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 26          Heritage Assets                                                                                                 Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:     N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: C            Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.           No Data Flag: YES          Line Attributes: Units
                                           25d) - Unaudited
Line Status Line Description         NB           PY Physical units      PY Physical units-ending
                                                      withdrawn                         balance
 1        I                          N/A
 2        I                          N/A
 3        I                          N/A
 4        I                          N/A
 5        I                          N/A



       Section: D            Section Name: Non-Collection Type Heritage Assets (SFFAS No.                No Data Flag: YES          Line Attributes: Units
                                           29, par. 25d) - Unaudited
Line Status Line Description         NB          CY Physical units         CY Physical units added              CY Physical units   CY Physical units-           PY Physical units   PY Physical units added
                                               beginning balance                                                    withdrawn        ending balance            beginning balance
 1        I                          N/A
 2        I                          N/A
 3        I                          N/A
 4        I                          N/A
 5        I                          N/A

Line Status Line Description         NB           PY Physical units      PY Physical units-ending
                                                      withdrawn                         balance
 1        I                          N/A
 2        I                          N/A
 3        I                          N/A
 4     I                             N/A
 5     I                             N/A
Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                              Answer
 1                  Provide a brief statement explaining how heritage assets relate to the mission of the agency
                    (SFFAS No. 29, par. 25a).
 2                  Provide a brief description of the agency's stewardship policies for each major category of
                    the heritage assets (SFFAS No. 29, par. 25b).
 3                  Provide a brief description of the condition of each category of the heritage assets (SFFAS
                    29, par. 26).
 4                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.


                                                                                                            - 81 -
                                                                                                                                                                                            11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                                Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 1602    PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A         Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -          No Data Flag: YES               Line Attributes: Dollars
                                        Current Year                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A
       Section: B         Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -          No Data Flag: YES               Line Attributes: Dollars
                                        Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A



                                                                                                       - 82 -
                                                                                                                                                                                            11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                                Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 1602    PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line


       Section: C         Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                        Funds- Current Year                                                                       Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
       Section: D         Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                        Funds - Prior Year                                                                        Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A




                                                                                                       - 83 -
                                                                                                                                                                                11/15/2011 15:08:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

      Note: 27          Fiduciary Activities                                                                                            Fiscal Year: 2011       Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:     N/A

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: E            Section Name: Number of Agency Fiduciary Activities                            No Data Flag: YES        Line Attributes: Units


Line Status Line Description          NB           CY Total number of             PY Total number of
                                                   fiduciary funds- all    fiduciary funds- all funds
                                                               funds
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A



Tab: Text Data                          No Data Flag: YES
 Line               Question                                                                                                Answer
 1                  Describe the fiduciary relationship, for example, the applicable legal authority, the objectives
                    of the fiduciary activity, and a general description of the beneficial owners or class of owners
                    of each fiduciary fund (SFFAS No. 31, par. 18(a)).
 2                  Provide information on any significant changes in fiduciary net assets from the prior period
                    (SFFAS No. 31, par. 18(c)).
 3                  Provide the TAS for all funds with fiduciary activities.
 4                  For any cash included in the Schedules of Fiduciary Net Assets, indicate if the cash is
                    represented by balances on deposit with either the U.S. Treasury or with a commercial
                    banking institution (SSFAS No. 31, par. 12).
 5                  Provide a description of any cash equivalents included in the Schedules of Fiduciary Net
                    Assets.
 6                  If separate audited financial statements are issued for an individual fiduciary activity with a
                    fiscal yearend other than September 30, indicate the fiduciary activity's fiscal year (SFFAS
                    No. 31, par. 18(e)).
 7                  If separate audited financial statements are issued for an individual fiduciary activity, disclose
                    the basis of accounting used and the auditor's opinion on the current or most recent financial
                    statements. If the auditor's opinion was not unqualified, disclose the reason(s) stated by the
                    auditors and refer the reader to the audit opinion for further information (SFFAS No. 31, par.
                    22(a)).
 8                  If separate audited financial statements are issued for an individual fiduciary activity, provide
                    information on how the reader can obtain a copy of the financial statements and the audit
                    opinion thereon (SFFAS No. 31, par. 22(b)).
 9                  If more than one agency is responsible for administering a fiduciary activity, and the separate
                    portions of the activity can be clearly identified with another responsible agency, identify the
                    other agency(ies) involved in managing the activity (SFFAS No.31.par.19).
 10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                               - 84 -
                                                                                                                                                                                    11/15/2011 15:08:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)           Fiscal Year: 2011             Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account    2011 - SEPTEMBER         2010 - SEPTEMBER
                                                                                 Type
Investment in Government sponsored enterprises (GSEs)                    D         A                           0                   0
                                                                              Variance:                        0                   0         Rounding Method: Millions         Decimal: Zero
Line Status Line Description        CY Gross investment as of      CY Cumulative valuation         CY September 30 fair PY Gross investment as of   PY Cumulative valuation PY September 30 fair value
                                           September 30                   (gain/loss)                       value              September 30                (gain/loss)
 1          Fannie Mae senior
            preferred stock
 2          Freddie Mac senior
            preferred stock
 3          Fannie Mae warrants
            common stock
 4          Freddie Mac warrants
            common stock
 5
 6
 7
 8          Total GSE investment
            Total




                                                                                                      - 85 -
                                                                                                                                                                            11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28A          Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)           Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                                 No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions             Decimal: Zero
Line Status Line Description          NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1             Revenue               Credit
               recognized from
               acquisition of
               preferred stocks
               and warrants and
               valuation
               (gain)/loss on GSE
               preferred stocks
 2             Revenue               Credit
               recognized from
               dividends and
               periodic
               commitment fees
 3             The dollar amount     Debit
               of liquidation
               preference value
               per share of senior
               preferred stock
 4             Amount of agency      Debit
               MBS purchase for
               Fannie Mae and
               Freddie Mac
 5             Amount of agency      Debit
               debt purchased for
               Fannie Mae and
               Freddie Mac
       Section: B             Section Name: Other Related Information (in Percentages)                No Data Flag: YES         Line Attributes: Percent


Line Status Line Description          NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1             Nominal cost           N/A
               percentage of
               common stock on a
               fully diluted basis
 2             Rate of dividends      N/A




                                                                                                        - 86 -
                                                                                                                                                                               11/15/2011 15:08:51

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 28A           Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)              Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: C             Section Name: Other Related Information in Units                            No Data Flag: YES         Line Attributes: Units


Line Status Line Description          NB      2011 - SEPTEMBER                 2010 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1             Number of non-         N/A
               voting senior
               preferred stock -
               shares




Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant
                     accounting policies pertaining to this note.




                                                                                                             - 87 -
                                                                                                                                                                                       11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28B           Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)            Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account      2011 - SEPTEMBER        2010 - SEPTEMBER
                                                                                    Type
Liabilities to Government Sponsored Enterprises                              C        L                            0                  0
                                                                                 Variance:                         0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description            2011 - SEPTEMBER              2010 - SEPTEMBER                  Previously Rptd        Line Item Changes
 1           GSE accrued liability
 2           GSE contingent
             liability
 3           Private entities entered
             liability
 4
 5
 6
 7           All other liabilities
             Total




                                                                                                          - 88 -
                                                                                                                                                                                 11/15/2011 15:08:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 28B         Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)                Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Other Related Information                                     No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions             Decimal: Zero
Line Status Line Description         NB       2011 - SEPTEMBER                2010 - SEPTEMBER                  Previously Rptd     Line Item Changes
 1             Actual payment       Debit
               made to the GSE




Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                              Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                            - 89 -
                                                                                                                                                                                              11/15/2011 15:08:51

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 29A          Derivative Assets                                                                                              Fiscal Year: 2011                Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:        Note 3

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2011 - SEPTEMBER         2010 - SEPTEMBER
                                                                                  Type
Derivative Assets                                                          D        A                          109                  -23
                                                                               Variance:                         0                     0           Rounding Method: Millions             Decimal: Zero
Line Status Line Description           2011 - SEPTEMBER              2010 - SEPTEMBER               Previously Rptd            Line Item Changes
 1           Interest rate contracts                          -15                           -7                            -7                            0
 2           Foreign exchange                                  27                          -32                           -32                            0
             contracts
 3           Equity contracts
 4           Commodity contracts
 5           Credit contracts                                    6                          10                            10                            0
 6           All other contracts                                91                           6                             6                            0
             Total                                             109                         -23                           -23                            0
Threshold

 Line Description                                               Question                                                             Answer
 Line Item Notes - Foreign exchange contracts (2011 -           Please provide explanations for any amounts that have               The change is attributable to PBGC's investment activity and market
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between          fluctuations.
                                                                the current fiscal yearand prior fiscal year (Unaudited)
 Line Item Notes - Credit contracts (2011 - SEPTEMBER)          Please provide explanations for any amounts that have               The change is attributable to PBGC's investment activity and market
                                                                changed by 10% or more and or greater than 500,000 between          fluctuations.
                                                                the current fiscal yearand prior fiscal year (Unaudited)

 Line Item Notes - All other contracts (2011 - SEPTEMBER)       Please provide explanations for any amounts that have               The change is attributable to PBGC's investment activity and market
                                                                changed by 10% or more and or greater than 500,000 between          fluctuations.
                                                                the current fiscal yearand prior fiscal year (Unaudited)




                                                                                                      - 90 -
                                                                                                                                                                                             11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                            Fiscal Year: 2011                Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        Note 3

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Assets                                   No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                          Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D       CY Fair Value Adjustment       CY Fair Market Value        PY Cost Basis D        PY Fair Value Adjustment       PY Fair Market Value
                                                                                               D                                                                                 D
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total hedge            N/A
               derivative contracts
       Section: B             Section Name: Non-Hedge Derivative Assets                                                           Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                          Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D       CY Fair Value Adjustment       CY Fair Market Value        PY Cost Basis D        PY Fair Value Adjustment       PY Fair Market Value
                                                                                               D                                                                                 D
 1             Interest rate          N/A                            0                         -15                        -15                          0                         -7                          -7
               contracts
 2             Foreign exchange       N/A                            0                          27                         27                          0                        -32                         -32
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A                            0                           6                          6                          0                         10                          10
 6             All other contracts    N/A                            0                          91                         91                          0                           6                             6
 7             Total non-hedge        N/A                            0                         109                        109                          0                        -23                         -23
               derivative contracts
Threshold
 Line Description                                                Question                                                          Answer
 Other Notes Info - Foreign exchange contracts (CY Fair          Please provide explanations for any amounts that have             This change is attributable to PBGC's investment activity and market
 Value Adjustment)                                               changed by 10% or more and or greater than 500,000                fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)




                                                                                                         - 91 -
                                                                                                                                                                                            11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                           Fiscal Year: 2011                Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:     Note 3

  Status: Complete                           The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B             Section Name: Non-Hedge Derivative Assets                                                          Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                          Decimal: Zero
Threshold
 Line Description                                                Question                                                         Answer
 Other Notes Info - Foreign exchange contracts (CY Fair          Please provide explanations for any amounts that have            This change is attributable to PBGC's investment activity and market
 Market Value)                                                   changed by 10% or more and or greater than 500,000               fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)

 Other Notes Info - Credit contracts (CY Fair Value              Please provide explanations for any amounts that have            This change is attributable to PBGC's investment activity and market
 Adjustment)                                                     changed by 10% or more and or greater than 500,000               fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)

 Other Notes Info - Credit contracts (CY Fair Market Value)      Please provide explanations for any amounts that have            This change is attributable to PBGC's investment activity and market
                                                                 changed by 10% or more and or greater than 500,000               fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)

 Other Notes Info - All other contracts (CY Fair Value           Please provide explanations for any amounts that have            This change is attributable to PBGC's investment activity and market
 Adjustment)                                                     changed by 10% or more and or greater than 500,000               fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)

 Other Notes Info - All other contracts (CY Fair Market Value)   Please provide explanations for any amounts that have            This change is attributable to PBGC's investment activity and market
                                                                 changed by 10% or more and or greater than 500,000               fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)

       Section: C             Section Name: Gain/Loss on Derivative Assets Designated as              No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                Rounding Method: Millions                          Decimal: Zero
Line Status Line Description          NB       2011 - SEPTEMBER             2010 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1             Interest rate         Debit
               contracts
 2             Foreign exchange      Debit
               contracts
 3             Equity contracts      Debit
 4             Commodity             Debit
               contracts
 5             Credit contracts      Debit
 6             All other contracts   Debit



                                                                                                         - 92 -
                                                                                                                                                                                        11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                              Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:         Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: C             Section Name: Gain/Loss on Derivative Assets Designated as              No Data Flag: YES             Line Attributes: Dollars
                                            Hedging Instruments                                                                   Rounding Method: Millions                     Decimal: Zero
Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd        Line Item Changes
 7             Total reclassified     N/A
               derivative gain/loss




       Section: D             Section Name: Gain/Loss on Derivative Assets Not Designated as                                        Line Attributes: Dollars
                                            Hedging Instruments                                                                   Rounding Method: Millions                     Decimal: Zero
Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd        Line Item Changes
 1             Interest rate          Debit                           0                        -58                          -58                           0
               contracts
 2             Foreign exchange       Debit                          41                         37                           23                          14
               contracts
 3             Equity contracts       Debit
 4             Commodity              Debit
               contracts
 5             Credit contracts       Debit                         -12                        -19                          -19                           0
 6             All other contracts    Debit                          35                        -90                          -90                           0
 7             Total recognized       N/A                            64                      -130                          -144                          14
               derivative gain/loss




                                                                                                        - 93 -
                                                                                                                                                                                                     11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 29A         Derivative Assets                                                                                                  Fiscal Year: 2011                   Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:        Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed      1). The use of derivatives by PBGC investment managers is restricted in-so-far as
                   to                                                                                                 portfolios cannot utilize derivatives to create leverage in the portfolios for which they are
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC        responsible. That is, the portfolios shall not utilize derivatives to leverage the portfolio
                   815-                                                                                               beyond the maximum risk level associated with a fully invested portfolio of physical
                   10-50-1A).                                                                                         securities.
                                                                                                                      Derivative instruments are used (1) to mitigate risk (e.g., adjust duration or currency
                                                                                                                      exposures), (2) to enhance investment returns, and/or (3) as liquid and cost-efficient
                                                                                                                      substitutes for positions in physical securities.
2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).                 2). The volume of derivative activity is a function of PBGC's Investment Managers
                                                                                                                      investment strategies. Notional amounts for Derivative Assets are as follows: Futures
                                                                                                                      $3,586 million, Interest rate swaps $1,330 million, Credit default swaps $2,150 million,
                                                                                                                      Option contracts $121 million, Forwards - foreign exchange -Fixed $3,021 million, and
                                                                                                                      Forwards - foreign exchange-Equity $45 million (See Note 3).
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both            3). Futures in a Derivative Asset position is disclosed in Derivative contracts
                   assets and                                                                                         (receivable) on PBGC's Balance Sheet. Both futures and option contracts in a
                   liabilities, respectively) on the Balance Sheet (FASB ASC 815-10-50-4A).                           Derivative Liability position are disclosed in Derivative contracts (payable) on PBGC's
                                                                                                                      Balance Sheet. Interest rate swaps, option contracts, and forwards - foreign exchange
                                                                                                                      are disclosed on PBGC's Income Statement under Investments-Fixed.
4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC          4). The gains and losses for futures, interest rate swaps, credit default swaps, options
                   815-                                                                                               purchased (long), options written (short), and forwards - foreign exchange are all
                   10-50-4A)                                                                                          reported in Investment income - Fixed.
5                  Provide of the effective portion of gains and losses, by contract type, on derivative              5). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   instruments classified as either cashflow or net investment hedges that are being reclassified     are "non-designated"), so we have no hedge accounting requirements and would
                   into earnings during the current period (FASB ASC 815-                                             recognize gain or loss in earnings in the period of change.
                   10-50-4C).
6                  Provide the effective portion of gains and losses, by contract type, on derivative instruments     6). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   classified as either cashflow or net investment hedges that are recognized in other                are "non-designated"), so we have no hedge accounting requirements and would
                   comprehensive                                                                                      recognize gain or loss in earnings in the period of change.
                   income during the current period (FASB ASC 815-10-50-4C).
7                  Provide the portion of gains and losses, by contract type, on derivative instruments classified    7). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   as                                                                                                 are "non-designated"), so we have no hedge accounting requirements and would
                   either cashflow or net investment hedges that represent the amount of the hedges                   recognize gain or loss in earnings in the period of change.
                   ineffectiveness
                   or the amount, if any, excluded from the assessment of the hedge effectiveness (FASB ASC
                   815-
                   10-50-4C).
8                  Provide a description of the nature of trading activities for no-hedge designated derivative       8). PBGC derivative instruments are not designated as accounting hedges consistent
                   instruments and related risks, including how the entity manages those risks. Explain the use       with FASB Accounting Standards Codification Section 815, Derivatives and Hedging,
                   of                                                                                                 which requires an active designation as a prerequisite for any hedge accounting.
                   any alternative disclosures for trading activities, if applicable (FASB ASC 815-10-50-4F).         PBGC utilizes a no hedging designation which results in the gain or loss on a derivative
                                                                                                                      instrument to be recognized currently in earnings. Derivatives are accounted for at fair
                                                                                                                      market value in accordance with the FASB Accounting Standards Codification Section
                                                                                                                      815, Derivatives and Hedging. Derivatives are marked to market with changes in value
                                                                                                                      reported as a component of financial income on the Statements of Operations and


                                                                                                             - 94 -
                                                                                                                                                                                                   11/15/2011 15:08:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 29A        Derivative Assets                                                                                                  Fiscal Year: 2011                  Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:       Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
                                                                                                                      Changes in Net Position. PBGC presents all derivatives at fair value on the Statements
                                                                                                                      of Financial Condition.
9                  Provide a description on the existence and nature of credit-risk related contingent features       9). PBGC does not have any credit-risk related features. The counterparties to
                   and                                                                                                PBGC's non-exchange-traded derivative contracts are major financial institutions
                   the circumstances in which the features could be triggered in derivative instruments that are      subject to ISDA (International Swaps and Derivatives Association, Inc.) master
                   in a                                                                                               agreements. PBGC monitors its counterparty risk and exchanges collateral under most
                   net liability position at the end of the reporting period. Include disclosures related to posted   contracts to further support performance by its counterparties.
                   collateral, as well as additional collateral required and fair value of assets needed to settle
                   the
                   instrument immediately if the credit-risk contingent features were triggered (FASB ASC
                   815-10-
                   50-4H).
10                 Provide disclosures of the entity's accounting policy to offset or not offset derivative asset     10). The counterparties to PBGC's non-exchange traded derivative contracts are major
                   and                                                                                                financial institutions subject to International Swaps and Derivatives Association, Inc.
                   liability positions on the Balance Sheet under a master netting agreement. Describe the            (ISDA) master agreements. PBGC elects to net derivative receivables and derivative
                   accounting                                                                                         payables and the related cash collateral received and paid under these ISDA master
                   policy to offset cash collateral positions arising from derivative instrument(s) under a master    agreements.
                   netting agreement against net derivative positions (FASB ASC 815-10-50-7).
11                 Disclose amounts recognized for the right to reclaim cash collateral or the obligation to return   11). PBGC receives cash and non-cash collateral for loaned securities under the
                   cash collateral under master netting arrangements (FASB ASC 815-10-50-8).                          securities lending program. The cash collateral amounts are recorded as assets and
                                                                                                                      are offset with a corresponding liability. Transferors of financial assets in exchange for
                                                                                                                      cash collateral cannot be distinguished from borrowing cash. Therefore, all cash
                                                                                                                      collateral is recorded as an asset by the party receiving it (PBGC as the secured party),
                                                                                                                      with a corresponding liability for the obligation to return it to the payer (obligor -
                                                                                                                      custodian bank).

                                                                                                                      The non-cash collateral is not recorded as an asset or a liability since PBGC does not
                                                                                                                      have the right by contract or custom to sell or repledge the collateral.

                                                                                                                      The counterparties to PBGC's non-exchange traded derivative contracts are major
                                                                                                                      financial institutions subject to International Swaps and Derivatives Association, Inc.
                                                                                                                      (ISDA) master agreements. PBGC elects to net derivative receivables and derivative
                                                                                                                      payables and the related cash collateral received and paid under these ISDA master
                                                                                                                      agreements.

12                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly     12). PBGC's derivative financial instruments are recorded at fair value and are included
                   the significant accounting policies pertaining to this note.                                       on the Statements of Financial Condition as investments and derivative contracts.
                                                                                                                      Derivative contracts include future contracts in a receivable position, future contracts in
                                                                                                                      a payable position, interest rate swaps, options purchased (long), options written
                                                                                                                      (short), and foreign exchange forward contracts.

                                                                                                                      In the Other Notes Info tab, Line 2 - Foreign exchange contracts, the previously
                                                                                                                      reported amount of $23 million in FY 2010 was revised to $37 million, which had no
                                                                                                                      impact on neither the FY 2010 nor the FY 2011 Financial Statements.



                                                                                                            - 95 -
                                                                                                                                                                                               11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                         Fiscal Year: 2011                Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:        Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                    Type
Derivative Liabilities                                                       C        L                          6                    12
                                                                                 Variance:                       0                     0            Rounding Method: Millions             Decimal: Zero
Line Status Line Description              2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd           Line Item Changes
 1            Interest rate contracts
 2            Foreign exchange
              contracts
 3            Equity contracts
 4            Commodity contracts
 5            Credit contracts
 6            All other contracts                                  6                         12                            12                            0
              Total                                                6                         12                            12                            0
Threshold

 Line Description                                                 Question                                                            Answer
 Line Item Notes - All other contracts (2011 - SEPTEMBER)         Please provide explanations for any amounts that have              The change is attributable to PBGC's investment activity and market
                                                                  changed by 10% or more and or greater than 500,000 between         fluctuations.
                                                                  the current fiscal yearand prior fiscal year (Unaudited)




                                                                                                        - 96 -
                                                                                                                                                                                        11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                      Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:        Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Liabilities                              No Data Flag: YES          Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB           CY Cost Basis C       CY Fair Value Adjustment     CY Fair Market Value        PY Cost Basis C        PY Fair Value Adjustment          PY Fair Value
                                                                                                C                                                                               C
 1             Interest rate           N/A
               contracts
 2             Foreign exchange        N/A
               contracts
 3             Equity contracts        N/A
 4             Commodity               N/A
               contracts
 5             Credit contracts        N/A
 6             All other contracts     N/A
 7             Total hedge             N/A
               derivative amounts
       Section: B             Section Name: Non-Hedge Derivative Liabilities                                                     Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB           CY Cost Basis C       CY Fair Value Adjustment     CY Fair Market Value        PY Cost Basis C        PY Fair Value Adjustment   PY Fair Market Value
                                                                                                C                                                                               C
 1             Interest rate           N/A
               contracts
 2             Foreign exchange        N/A
               contracts
 3             Equity contracts        N/A
 4             Commodity               N/A
               contracts
 5             Credit contracts        N/A
 6             All other contracts     N/A                            0                         -6                         6                          0                      -12                        12
 7             Total non-hedge         N/A                            0                          6                         6                          0                        12                       12
               derivative amounts




                                                                                                        - 97 -
                                                                                                                                                                                               11/15/2011 15:08:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                         Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:        Note 3

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: C             Section Name: Gain/Loss on Derivative Liabilities Designated as           No Data Flag: YES           Line Attributes: Dollars
                                            Hedging Instruments                                                                   Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB         2011 - SEPTEMBER            2010 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All Other contracts    Credit
 7             Total reclassified      N/A
               derivativ gain/loss
       Section: D             Section Name: Gain/Loss on Derivative Liabilities Not Designated as                                   Line Attributes: Dollars
                                            Hedging Instruments                                                                   Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB         2011 - SEPTEMBER            2010 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All other contracts    Credit                         179                          21                         21                          0
 7             Total recognized        N/A                         -179                          -21                        -21                          0
               derivative gain/loss
Threshold
 Line Description                                                  Question                                                          Answer
 Other Notes Info - All other contracts (2011 - SEPTEMBER)         Please provide explanations for any amounts that have             The change is attributable to PBGC's investment activity and market
                                                                   changed by 10% or more and or greater than 500,000                fluctuations.
                                                                   between the current fiscal yearand prior fiscal year
                                                                   (Unaudited)




                                                                                                           - 98 -
                                                                                                                                                                                                     11/15/2011 15:08:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 29B         Derivative Liabilities                                                                                             Fiscal Year: 2011                   Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:        Note 3

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed      1). The use of derivatives by PBGC investment managers is restricted in-so-far as
                   to                                                                                                 portfolios cannot utilize derivatives to create leverage in the portfolios for which they are
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC        responsible. That is, the portfolios shall not utilize derivatives to leverage the portfolio
                   815-                                                                                               beyond the maximum risk level associated with a fully invested portfolio of physical
                   10-50-1A).                                                                                         securities.
                                                                                                                      Derivative instruments are used (1) to mitigate risk (e.g., adjust duration or currency
                                                                                                                      exposures), (2) to enhance investment returns, and/or (3) as liquid and cost-efficient
                                                                                                                      substitutes for positions in physical securities.
2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).                 2). The volume of derivative activity is a function of PBGC's Investment Managers
                                                                                                                      investment strategies. Notional amounts for Derivative Liabilities are as follows:
                                                                                                                      Futures $2,148 million and Option contracts $1,202 million (See Note 3).
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both            3). Futures in a Derivative Asset position is disclosed in Derivative contracts
                   assets and                                                                                         (receivable) on PBGC's Balance Sheet. Both futures and option contracts in a
                   liabilities, respectively) on the Balance Sheet (FASB ASC Topic 815-10-50-4A).                     Derivative Liability position are disclosed in Derivative contracts (payable) on PBGC's
                                                                                                                      Balance Sheet. Interest rate swaps, option contracts, and forwards - foreign exchange
                                                                                                                      are disclosed on PBGC's Income Statement under Investments-Fixed.
4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC          4). The gains and losses for futures, interest rate swaps, credit default swaps, options
                   Topic                                                                                              purchased (long), options written (short), and forwards - foreign exchange are all
                   815-10-50-4A).                                                                                     reported in Investment income - Fixed.
5                  Provide the effective portion of gains and losses, by contract type, on derivative instruments     5). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   classified as either cashflow or net investment hedges that are being reclassified into            are "non-designated"), so we have no hedge accounting requirements and would
                   earnings                                                                                           recognize gain or loss in earnings in the period of change.
                   during the current period (FASB ASC 815-10-50-4C).
6                  Provide the effective portion of gains and losses, by contract type, on derivative instruments     6). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   classified as either cashflow or net investment hedges that are recognized in other                are "non-designated"), so we have no hedge accounting requirements and would
                   comprehensive                                                                                      recognize gain or loss in earnings in the period of change.
                   income during the current period (FASB ASC 815-10-50-4C).
7                  Provide the portion of gains and losses, by contract type, on derivative instruments classified    7). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   as                                                                                                 are "non-designated"), so we have no hedge accounting requirements and would
                   either cashflow or net investment hedges that represent the amount of the hedges'                  recognize gain or loss in earnings in the period of change.
                   ineffectiveness
                   or the amount, if any, excluded from the assessment of the hedge effectiveness (FASB ASC
                   815-
                   10-50-4C).
8                  Provide a description of the nature of trading activities for non-hedge designated derivative      8). PBGC derivative instruments are not designated as accounting hedges consistent
                   instruments and related risks, including how the entity manages those risks. Explain the use       with FASB Accounting Standards Codification Section 815, Derivatives and Hedging,
                   of                                                                                                 which requires an active designation as a prerequisite for any hedge accounting.
                   any alternative disclosures for trading activities, if applicable (FASB ASC 815-10-50-4F).         PBGC utilizes a no hedging designation which results in the gain or loss on a derivative
                                                                                                                      instrument to be recognized currently in earnings Derivatives are accounted for at fair
                                                                                                                      market value in accordance with the FASB Accounting Standards Codification Section
                                                                                                                      815, Derivatives and Hedging. Derivatives are marked to market with changes in value
                                                                                                                      reported as a component of financial income on the Statements of Operations and
                                                                                                                      Changes in Net Position. PBGC presents all derivatives at fair value on the Statements
                                                                                                                      of Financial Condition.


                                                                                                             - 99 -
                                                                                                                                                                                                 11/15/2011 15:08:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29B       Derivative Liabilities                                                                                            Fiscal Year: 2011                  Period: SEPTEMBER
  Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                              Agency Notes:       Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line             Question                                                                                           Answer
9                Provide a description on the existence and nature of credit-risk related contingent features       9). PBGC does not have any credit-risk related features. The counterparties to
                 and the                                                                                            PBGC's non-exchange-traded derivative contracts are major financial institutions
                 circumstances in which the features could be triggered in derivative instruments that are in a     subject to ISDA (International Swaps and Derivatives Association, Inc.) master
                 net                                                                                                agreements. PBGC monitors its counterparty risk and exchanges collateral under most
                 liability position at the end of the reporting period. Include disclosures related to posted       contracts to further support performance by its counterparties.
                 collateral, as well as additional collateral required and fair value of assets needed to settle
                 the
                 instrument immediately if the credit-risk contingent features were triggered (FASB ASC
                 815-10-
                 50-4H)
10               Provide disclosures of the entity's accounting policy to offset or not offset derivative asset     10). The counterparties to PBGC's non-exchange traded derivative contracts are major
                 and                                                                                                financial institutions subject to International Swaps and Derivatives Association, Inc.
                 liability positions on the Balance Sheet under a master netting agreement. Describe the            (ISDA) master agreements. PBGC elects to net derivative receivables and derivative
                 accounting                                                                                         payables and the related cash collateral received and paid under these ISDA master
                 policy to offset cash collateral positions arising from derivative instrument(s) under a master    agreements.
                 netting agreement against net derivative positions (FASB ASC 815-10-50-7).
11               Disclose amounts recognized for the right to reclaim cash collateral or the obligation to return   11). PBGC receives cash and non-cash collateral for loaned securities under the
                 cash collateral under master netting arrangements (FASB ASC 815-10-50-8).                          securities lending program. The cash collateral amounts are recorded as assets and
                                                                                                                    are offset with a corresponding liability. Transferors of financial assets in exchange for
                                                                                                                    cash collateral cannot be distinguished from borrowing cash. Therefore, all cash
                                                                                                                    collateral is recorded as an asset by the party receiving it (PBGC as the secured party),
                                                                                                                    with a corresponding liability for the obligation to return it to the payer (obligor -
                                                                                                                    custodian bank).

                                                                                                                    The non-cash collateral is not recorded as an asset or a liability since PBGC does not
                                                                                                                    have the right by contract or custom to sell or repledge the collateral.

                                                                                                                    The counterparties to PBGC's non-exchange traded derivative contracts are major
                                                                                                                    financial institutions subject to International Swaps and Derivatives Association, Inc.
                                                                                                                    (ISDA) master agreements. PBGC elects to net derivative receivables and derivative
                                                                                                                    payables and the related cash collateral received and paid under these ISDA master
                                                                                                                    agreements.

12               Provide any other relevant information pertaining to this note. At a minimum, describe briefly     12). PBGC's derivative financial instruments are recorded at fair value and are included
                 the                                                                                                on the Statements of Financial Condition as investments and derivative contracts.
                 significant accounting policies pertaining to this note.                                           Derivative contracts include future contracts in a receivable position, future contracts in
                                                                                                                    a payable position, interest rate swaps, options purchased (long), options written
                                                                                                                    (short), and foreign exchange forward contracts.




                                                                                                         - 100 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2011 and 2010
 Special-Purpose Financial Statements


Audit Report AUD-2012-4 / FA-11-82-4




            Section VIII

 GF006F – Notes Status Report
                                     U.S. Department of the Treasury/FMS                    11-15-2011 15:22:22
                                   Governmentwide Financial Report System

                                             Notes Status Report


Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION                      Year:       2011            SEPTEMBER

Number    Note Title                                                                        Status

01        Federal Reserve Earnings, Subsequent Events, and Other Pertinent                  SUBMITTED
          Information
02        Cash and Other Monetary Assets                                                    SUBMITTED
03        Accounts and Taxes Receivable                                                     SUBMITTED
04A       Direct Loans Receivable and Mortgage Backed Securities                            SUBMITTED
04B       Loan Guarantees                                                                   SUBMITTED
05        Inventories and Related Property                                                  SUBMITTED
06        Property, Plant, and Equipment                                                    SUBMITTED
07        Debt and Equity Securities                                                        SUBMITTED
08        Other Assets                                                                      SUBMITTED
09        Accounts Payable                                                                  SUBMITTED
10B       Treasury securities held by the Government trust, revolving, and special          SUBMITTED
          funds
11        Federal Employee and Veteran Benefits Payable                                     SUBMITTED
12        Environmental and Disposal Liabilities                                            SUBMITTED
13        Benefits Due and Payable                                                          SUBMITTED
14        Insurance and Guarantee Program Liabilities                                       SUBMITTED
15        Other Liabilities                                                                 SUBMITTED
17        Prior-Period Adjustments                                                          SUBMITTED
18        Contingencies (SFFAS Nos. 5 and 12)                                               SUBMITTED
19        Commitments                                                                       SUBMITTED
22        Earmarked Funds                                                                   SUBMITTED
25        Stewardship Land                                                                  SUBMITTED
26        Heritage Assets                                                                   SUBMITTED
27        Fiduciary Activities                                                              SUBMITTED
28A       Financial and Housing Market Stabilization - Investment in Government             SUBMITTED
          Sponsored Enterprises (GSE)
28B       Financial and housing Market Stabilization - Liabilities to Government            SUBMITTED
          Sponsored Enterprises (GSE)
29A       Derivative Assets                                                                 SUBMITTED
29B       Derivative Liabilities                                                            SUBMITTED




                                                    - 1 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2011 and 2010
 Special-Purpose Financial Statements


Audit Report AUD-2012-4 / FA-11-82-4




             Section IX

GF007F – Other Financial Report
   (FR) Data Status Report
                                                                                                                                                                   11/15/2011 15:11:44

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 02             Taxes                                                                                        Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                             Agency Notes:    N/A
      Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxes (SSFAS No.7, par. 67-69)                      No Data: YES             Line Attributes: Dollars
                                                                                                                       Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description        NB      2011 - SEPTEMBER         2010 - SEPTEMBER              Previously Rptd      Line Item Changes
 1            Estimated realized      Debit
              value of compliance
              assessments as of
              the end of the period
 2            Estimated realizable    Debit
              value of pre-
              assessment work-
              in-progress
 3            Changes in 1 and 2      Debit
              above
 4            Other claims for        Debit
              refunds not yet
              accrued but likely to
              be paid when
              administrative
              actions are
              completed
 5            Management's best       Debit
              estimate of
              unasserted claims for
              refunds
 6            Changes in 4 and 5      Debit
              above
 7            Amount of               Debit
              assessments written
              off that continue to
              be statutorily
              collectible




                                                                                               - 1 -
                                                                                                                                                                                     11/15/2011 15:11:44

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                             GF007 - Other Data Report

 Other Data: 02                Taxes                                                                                                       Fiscal Year: 2011             Period: SEPTEMBER
         Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:    N/A
        Status: Complete                                                                                   I = Inactive Line


     Tab: Other Data Info.
      Section: B                  Section Name: Provide the following amount if a range is estimable              No Data: YES             Line Attributes: Dollars
                                                and not included in Sec. A (SFFAS No. 7 par 67)                                          Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                       CY Low                        CY High                        PY Low               PY High
 1               Realizable value of     Debit
                 pre-assessment
                 work-in-progress
 2               Changes in line 1     Debit
                 above
 3               Management's best     Debit
                 estimate of
                 unasserted claims for
                 refunds
 4               Changes in line 3     Debit
                 above

     Tab: Other Text Data

        Section: A                  Section Name: Taxes (SSFAS No.7, par. 67-69)                                       No Data: YES

 Line          Question                                                                                                         Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.
 2            Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax
              gap.
 3            Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers
              and importers.
 4            Provide the estimates of the annual tax gap (amounts should specifically define whether it
              includes or excludes estimates of tax due on illegally earned revenue).
 5            Disclose the amounts by which trust funds may be over- or under-funded in comparison with the
              requirements of law, if reasonable estimable.




                                                                                                                 - 2 -
                                                                                                                                                                       11/15/2011 15:11:44

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A              Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                           No. 8, par 87)                                                                  Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2011                   FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other non-Federal     Debit
              physical property

     Section: B              Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                           Development (SFFAS No. 8, par. 94, 99 & 100)                                    Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2011                   FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other investment in   Debit
              development




                                                                                                  - 3 -
                                                                                                                                                                       11/15/2011 15:11:44

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Investment in Human Capital (SFFAS No. 8, par 100)      No Data: YES              Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description       NB                 FY 2011                    FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other Investments in   Debit
              human capital


     Section: D              Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                           Research (SFFAS No. 8, par.99 & 100)                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description       NB                 FY 2011                    FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other investments in   Debit
              basic research




                                                                                                  - 4 -
                                                                                                                                                                                  11/15/2011 15:11:44

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 09                Stewardship Investments                                                                                  Fiscal Year: 2011             Period: SEPTEMBER
         Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A
        Status: Complete                                                                                I = Inactive Line


     Tab: Other Data Info.
      Section: E                 Section Name: Research and Development: Investment in Applied                No Data: YES              Line Attributes: Dollars
                                               Research (SFFAS No. 8, par 100)                                                        Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                    FY 2011                       FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                       Debit
 2                                       Debit
 3                                       Debit
 4                                       Debit
 5                                       Debit
 6               Other investment in     Debit
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS             No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                      Answer
 1            Provide a description of federally owened physical property transferred to state and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal physical
              property used in the "Other Data Info" tab. (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                        No Data: YES
                                                  Development (SFFAS No. 8, par. 94, 99 & 100)

 Line         Question                                                                                                      Answer
 1            Provide a description of the major programs of Federal investments in development used in the
              "Other Data Info" tab. (SFFAS No. 8, par. 100)
 2            Provide a description of the progress of major developmental projects including the results with
              respect to
              projects completed or otherwise terminated during the year and the status of projects that will
              continue (SFFAS No. 8,
              par. 99).




                                                                                                             - 5 -
                                                                                                                                                                      11/15/2011 15:11:44

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

Other Data: 09              Stewardship Investments                                                                              Fiscal Year: 2011         Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



    Tab: Other Text Data

       Section: C               Section Name: Investment in Human Capital (SFFAS No. 8, par 100)             No Data: YES

Line         Question                                                                                                   Answer
1           Provide a description of the major education and training programs considered Federal
            investments in human
            capital used in the "Other Data Info" tab (SFFAS No. 8, par. 94).
    Tab: Other Text Data

       Section: D               Section Name: Research and Development: Investment in Basic                  No Data: YES
                                              Research (SFFAS No. 8, par.99 & 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in basic research used in the
            "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E               Section Name: Research and Development: Investment in Applied                No Data: YES
                                              Research (SFFAS No. 8, par 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in applied research used in
            the "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                         - 6 -
                                                                                                                                                               11/15/2011 15:11:44

                                                                       U.S. Department of the Treasury
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System
                                                                          GF007 - Other Data Report

 Other Data: 10             Deferred Maintenance                                                                   Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                       Agency Notes:       N/A
      Status: Complete                                                            I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Range of Amounts                            No Data: YES               Line Attributes: Dollars
                                                                                                                 Rounding Method: User-Defined          Decimal: User-Defined
Line Status   Line Description         NB            CY- Low   D       CY- High    D CY - Critical Maintenance             PY- Low     D            PY- High    D PY - Critical Maintenance
                                                                                                             D                                                                            D
 1            Buildings, structures,   N/A
              and facilities
 2            Furniture, fixtures,     N/A
              and equipment
 3            Other general            N/A
              property, plant, and
              equipment
 4            Heritage assets          N/A
 5            Stewardship land         N/A




                                                                                       - 7 -
                                                                                                                                                                                              11/15/2011 15:11:44

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

 Other Data: 15               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)                  Fiscal Year: 2011                   Period: SEPTEMBER
        Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:          AR - MD&A Section VIII, Notes 2 & 9
        Status: Complete                                                                            I = Inactive Line


  Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                                              Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                        Decimal: Zero
Line Status     Line Description        NB        2011 - SEPTEMBER            2010 - SEPTEMBER                 Previously Rptd            Line Item Changes
 1              Present value of       Debit                     250,214                      189,976                     189,976                               0
                unpaid expected
                losses (net of
                associated
                premiums)
 2              Periodic changes       Debit                      60,238                       21,786                      21,786                               0




     Tab: Other Text Data

        Section: A                 Section Name: Risk Assumed

 Line         Question                                                                                                   Answer
 1            Provide the indicators of the range of uncertainty around Federal insurance and guarantee                 1) Single-employer plans sponsored by companies whose credit quality is below investment
              programs related estimates and sensitivity of the estimates to changes in major assumptions               grade pose a greater risk of being terminated. In addition, there are some multiemployer
              (SFFAS No.5, par.114)                                                                                     plans that may require future financial assistance. For FY 2011, Single-employer program's
                                                                                                                        reasonably possible (RP) exposure to loss is $227,117 million and the Multiemployer
                                                                                                                        program's RP exposure to loss is $23,097 million.

                                                                                                                        The significant volatility in plan underfunding and sponsor credit quality over time makes
                                                                                                                        long-term estimates of PBGC's expected claims uncertain. This volatility, and the
                                                                                                                        concentration of claims in a relatively small number of terminated plans, have characterized
                                                                                                                        PBGC's experience to date and will likely continue. Factors such as economic conditions
                                                                                                                        affecting interest rates, financial markets, and the rate of business failures will also influence
                                                                                                                        PBGC's claims going forward.

                                                                                                                        In accordance with FASB Accounting Standards Codification Section 450, PBGC's exposure
                                                                                                                        to losses from single-employer plans of companies that are classified as reasonably
                                                                                                                        possible is disclosed in the footnotes. In order for a single-employer plan sponsor to be
                                                                                                                        specifically classified as reasonably possible, it must first have $5 million or more of
                                                                                                                        underfunding, as well as meet additional criteria. Criteria used for classifying a company as
                                                                                                                        reasonably possible include, but are not limited to, one or more of the following conditions:
                                                                                                                        the plan sponsor is in Chapter 11 reorganization; funding waiver pending or outstanding with
                                                                                                                        the Internal Revenue Service; sponsor missed minimum funding contribution; sponsor's bond
                                                                                                                        rating is below-investment-grade for Standard & Poor's (BB+) or Moody's (Ba1); or sponsor
                                                                                                                        has no bond rating but the Dun & Bradstreet Financial Stress Score is below the threshold
                                                                                                                        considered to be investment grade.



                                                                                                            - 8 -
                                                                                                                                                                                          11/15/2011 15:11:44

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF007 - Other Data Report

Other Data: 15              Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)                 Fiscal Year: 2011                  Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:        AR - MD&A Section VIII, Notes 2 & 9
       Status: Complete                                                                           I = Inactive Line



 Tab: Other Text Data

       Section: A               Section Name: Risk Assumed

Line         Question                                                                                                 Answer
2           Provide the actuarial or financial methods used to measure the present value of unpaid expected           2) The estimate of unfunded vested benefits exposure to loss is not based on PBGC-
            losses (SFFAS No. 5. par. 114)                                                                            guaranteed benefit levels, since data is not available to determine an estimate at this level of
                                                                                                                      precision. PBGC calculated this estimate, as in previous years, by using the most recent
                                                                                                                      data available from filings and submissions to the Corporation for plan years ended on or
                                                                                                                      after December 31, 2009. The Corporation adjusted the value reported for liabilities to
                                                                                                                      December 31, 2010, using a select rate of 3.93% for the first 20 years and 4.33% thereafter
                                                                                                                      and applying the expense load as defined in 29 CFR Part 4044, Appendix C. The rates were
                                                                                                                      derived in conjunction with the 1994 Group Annuity Mortality Static Table (with margins)
                                                                                                                      projected to 2020 using Scale AA to approximate annuity prices as of December 31, 2010.
                                                                                                                      The underfunding associated with these plans could be substantially different at September
                                                                                                                      30, 2011, because of the economic conditions that existed between December 31, 2010 and
                                                                                                                      September 30, 2011. The Corporation did not adjust the estimate for events that occurred
                                                                                                                      between December 31, 2010, and September 30, 2011.




                                                                                                       - 9 -
                                                                                                                                                                        11/15/2011 15:11:44

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 16              Analysis of FR Operating Revenue to Budget Receipts                                             Fiscal Year: 2011             Period: SEPTEMBER
        Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                Agency Notes:    N/A
       Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
      Section: A               Section Name: Operating Revenues to the Budget Receipts              No Data: YES             Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined          Decimal: User-Defined
Line Status    Line Description         NB      CY-Individual income tax   CY-Corporation income   CY-Unemployment taxes        CY-Excise taxes     CY-Estate and gift taxes   CY-Customs duties
                                                 and tax withholdings                    taxes
 1             Undistributed           Credit
               Offsetting receipts
               (offset against
               outlays)
 2             Proprietary receipts    Credit
               from the public
               (offset against
               outlays)
 3             Rents and royalties     Credit
               on the outer
               continental shelf
               lands (offset against
               outlays)
 4             Offsetting              Credit
               governmental
               receipts (offset
               against outlays)
 5             Intrabudgetary          Credit
               transactions (offset
               against outlays)
 6             Earned (exchange)       Credit
               revenue reported in
               the Statement of Net
               Cost
 7                                     Credit
 8                                     Credit
 9                                     Credit
 10            Total (exchange and      N/A
               nonexchange)

Line Status    Line Description         NB           CY-Other taxes and CY-Miscellaneous earned
                                                            receipts                 revenue
 1             Undistributed           Credit
               Offsetting receipts
               (offset against
               outlays)



                                                                                                   - 10 -
                                                                                                                                                            11/15/2011 15:11:44

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 16              Analysis of FR Operating Revenue to Budget Receipts                                  Fiscal Year: 2011             Period: SEPTEMBER
        Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                     Agency Notes:    N/A
       Status: Complete                                                                   I = Inactive Line


  Tab: Other Data Info.
      Section: A               Section Name: Operating Revenues to the Budget Receipts           No Data: YES     Line Attributes: Dollars
                                                                                                                Rounding Method: User-Defined         Decimal: User-Defined
Line Status    Line Description        NB          CY-Other taxes and CY-Miscellaneous earned
                                                          receipts                 revenue
 2             Proprietary receipts    Credit
               from the public
               (offset against
               outlays)
 3             Rents and royalties     Credit
               on the outer
               continental shelf
               lands (offset against
               outlays)
 4             Offsetting              Credit
               governmental
               receipts (offset
               against outlays)
 5             Intrabudgetary          Credit
               transactions (offset
               against outlays)
 6             Earned (exchange)       Credit
               revenue reported in
               the Statement of Net
               Cost
 7                                     Credit
 8                                     Credit
 9                                     Credit
 10            Total (exchange and      N/A
               nonexchange)




                                                                                                - 11 -
                                                                                                                                                                                    11/15/2011 15:11:44

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 16                Analysis of FR Operating Revenue to Budget Receipts                                                        Fiscal Year: 2011             Period: SEPTEMBER
        Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:    N/A
        Status: Complete                                                                                 I = Inactive Line


  Tab: Other Data Info.
      Section: B                 Section Name: Fiscal 2010 Budget Receipts Not Reported in the                   No Data: YES             Line Attributes: Dollars
                                               Operating Revenue                                                                        Rounding Method: User-Defined         Decimal: User-Defined


Line Status     Line Description          NB          CY-Individual income        CY-Corporation income            CY-Employment and         CY-Unemployment CY-Other retirement     C      CY-Excise taxes   C
                                                                 taxes   C                    taxes   C          general retirement C           insurance  C
 1       I      Earned (exchange)         N/A
                revenue reported in
                the Statement of Net
                Cost
 2       I                                N/A
 3       I                                N/A
 4       I                                N/A

Line Status     Line Description          NB       CY-Estate and gift taxes CY-Customs duties              C         CY-Miscellaneous
                                                                          C                                              receipts   C
 1       I      Earned (exchange)         N/A
                revenue reported in
                the Statement of Net
                Cost
 2       I                                N/A
 3       I                                N/A
 4       I                                N/A

     Tab: Other Text Data

        Section: A                 Section Name: Operating Revenues to the Budget Receipts                        No Data: YES

 Line         Question                                                                                                       Answer
 1            Provide a detailed description of the undistributed offsetting receipts reconciling item(s).
 2            Provide a detailed description of the proprietary receipts from the public reconciling item(s).
 3            Provide a detailed description of the offsetting governmental receipts reconciling item(s).
 4            Provide a detailed description of the intrabudgetary transaction reconciling item(s).
 5            Provide a detailed description of the earned revenue reconciling item(s).
 6            Provide a detailed description of the agency entered description reconciling item(s).




                                                                                                                - 12 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2011 and 2010
 Special-Purpose Financial Statements


Audit Report AUD-2012-4 / FA-11-82-4




             Section X

  GF007G – Other Data Report
                                                                                                                                                                   11/15/2011 15:11:44

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 02             Taxes                                                                                        Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                             Agency Notes:    N/A
      Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxes (SSFAS No.7, par. 67-69)                      No Data: YES             Line Attributes: Dollars
                                                                                                                       Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description        NB      2011 - SEPTEMBER         2010 - SEPTEMBER              Previously Rptd      Line Item Changes
 1            Estimated realized      Debit
              value of compliance
              assessments as of
              the end of the period
 2            Estimated realizable    Debit
              value of pre-
              assessment work-
              in-progress
 3            Changes in 1 and 2      Debit
              above
 4            Other claims for        Debit
              refunds not yet
              accrued but likely to
              be paid when
              administrative
              actions are
              completed
 5            Management's best       Debit
              estimate of
              unasserted claims for
              refunds
 6            Changes in 4 and 5      Debit
              above
 7            Amount of               Debit
              assessments written
              off that continue to
              be statutorily
              collectible




                                                                                               - 1 -
                                                                                                                                                                                     11/15/2011 15:11:44

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                             GF007 - Other Data Report

 Other Data: 02                Taxes                                                                                                       Fiscal Year: 2011             Period: SEPTEMBER
         Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:    N/A
        Status: Complete                                                                                   I = Inactive Line


     Tab: Other Data Info.
      Section: B                  Section Name: Provide the following amount if a range is estimable              No Data: YES             Line Attributes: Dollars
                                                and not included in Sec. A (SFFAS No. 7 par 67)                                          Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                       CY Low                        CY High                        PY Low               PY High
 1               Realizable value of     Debit
                 pre-assessment
                 work-in-progress
 2               Changes in line 1     Debit
                 above
 3               Management's best     Debit
                 estimate of
                 unasserted claims for
                 refunds
 4               Changes in line 3     Debit
                 above

     Tab: Other Text Data

        Section: A                  Section Name: Taxes (SSFAS No.7, par. 67-69)                                       No Data: YES

 Line          Question                                                                                                         Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.
 2            Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax
              gap.
 3            Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers
              and importers.
 4            Provide the estimates of the annual tax gap (amounts should specifically define whether it
              includes or excludes estimates of tax due on illegally earned revenue).
 5            Disclose the amounts by which trust funds may be over- or under-funded in comparison with the
              requirements of law, if reasonable estimable.




                                                                                                                 - 2 -
                                                                                                                                                                       11/15/2011 15:11:44

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A              Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                           No. 8, par 87)                                                                  Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2011                   FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other non-Federal     Debit
              physical property

     Section: B              Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                           Development (SFFAS No. 8, par. 94, 99 & 100)                                    Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2011                   FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other investment in   Debit
              development




                                                                                                  - 3 -
                                                                                                                                                                       11/15/2011 15:11:44

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Investment in Human Capital (SFFAS No. 8, par 100)      No Data: YES              Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description       NB                 FY 2011                    FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other Investments in   Debit
              human capital


     Section: D              Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                           Research (SFFAS No. 8, par.99 & 100)                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description       NB                 FY 2011                    FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other investments in   Debit
              basic research




                                                                                                  - 4 -
                                                                                                                                                                                  11/15/2011 15:11:44

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 09                Stewardship Investments                                                                                  Fiscal Year: 2011             Period: SEPTEMBER
         Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A
        Status: Complete                                                                                I = Inactive Line


     Tab: Other Data Info.
      Section: E                 Section Name: Research and Development: Investment in Applied                No Data: YES              Line Attributes: Dollars
                                               Research (SFFAS No. 8, par 100)                                                        Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                    FY 2011                       FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                       Debit
 2                                       Debit
 3                                       Debit
 4                                       Debit
 5                                       Debit
 6               Other investment in     Debit
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS             No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                      Answer
 1            Provide a description of federally owened physical property transferred to state and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal physical
              property used in the "Other Data Info" tab. (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                        No Data: YES
                                                  Development (SFFAS No. 8, par. 94, 99 & 100)

 Line         Question                                                                                                      Answer
 1            Provide a description of the major programs of Federal investments in development used in the
              "Other Data Info" tab. (SFFAS No. 8, par. 100)
 2            Provide a description of the progress of major developmental projects including the results with
              respect to
              projects completed or otherwise terminated during the year and the status of projects that will
              continue (SFFAS No. 8,
              par. 99).




                                                                                                             - 5 -
                                                                                                                                                                      11/15/2011 15:11:44

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

Other Data: 09              Stewardship Investments                                                                              Fiscal Year: 2011         Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



    Tab: Other Text Data

       Section: C               Section Name: Investment in Human Capital (SFFAS No. 8, par 100)             No Data: YES

Line         Question                                                                                                   Answer
1           Provide a description of the major education and training programs considered Federal
            investments in human
            capital used in the "Other Data Info" tab (SFFAS No. 8, par. 94).
    Tab: Other Text Data

       Section: D               Section Name: Research and Development: Investment in Basic                  No Data: YES
                                              Research (SFFAS No. 8, par.99 & 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in basic research used in the
            "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E               Section Name: Research and Development: Investment in Applied                No Data: YES
                                              Research (SFFAS No. 8, par 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in applied research used in
            the "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                         - 6 -
                                                                                                                                                               11/15/2011 15:11:44

                                                                       U.S. Department of the Treasury
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System
                                                                          GF007 - Other Data Report

 Other Data: 10             Deferred Maintenance                                                                   Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                       Agency Notes:       N/A
      Status: Complete                                                            I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Range of Amounts                            No Data: YES               Line Attributes: Dollars
                                                                                                                 Rounding Method: User-Defined          Decimal: User-Defined
Line Status   Line Description         NB            CY- Low   D       CY- High    D CY - Critical Maintenance             PY- Low     D            PY- High    D PY - Critical Maintenance
                                                                                                             D                                                                            D
 1            Buildings, structures,   N/A
              and facilities
 2            Furniture, fixtures,     N/A
              and equipment
 3            Other general            N/A
              property, plant, and
              equipment
 4            Heritage assets          N/A
 5            Stewardship land         N/A




                                                                                       - 7 -
                                                                                                                                                                                              11/15/2011 15:11:44

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

 Other Data: 15               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)                  Fiscal Year: 2011                   Period: SEPTEMBER
        Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:          AR - MD&A Section VIII, Notes 2 & 9
        Status: Complete                                                                            I = Inactive Line


  Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                                              Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                        Decimal: Zero
Line Status     Line Description        NB        2011 - SEPTEMBER            2010 - SEPTEMBER                 Previously Rptd            Line Item Changes
 1              Present value of       Debit                     250,214                      189,976                     189,976                               0
                unpaid expected
                losses (net of
                associated
                premiums)
 2              Periodic changes       Debit                      60,238                       21,786                      21,786                               0




     Tab: Other Text Data

        Section: A                 Section Name: Risk Assumed

 Line         Question                                                                                                   Answer
 1            Provide the indicators of the range of uncertainty around Federal insurance and guarantee                 1) Single-employer plans sponsored by companies whose credit quality is below investment
              programs related estimates and sensitivity of the estimates to changes in major assumptions               grade pose a greater risk of being terminated. In addition, there are some multiemployer
              (SFFAS No.5, par.114)                                                                                     plans that may require future financial assistance. For FY 2011, Single-employer program's
                                                                                                                        reasonably possible (RP) exposure to loss is $227,117 million and the Multiemployer
                                                                                                                        program's RP exposure to loss is $23,097 million.

                                                                                                                        The significant volatility in plan underfunding and sponsor credit quality over time makes
                                                                                                                        long-term estimates of PBGC's expected claims uncertain. This volatility, and the
                                                                                                                        concentration of claims in a relatively small number of terminated plans, have characterized
                                                                                                                        PBGC's experience to date and will likely continue. Factors such as economic conditions
                                                                                                                        affecting interest rates, financial markets, and the rate of business failures will also influence
                                                                                                                        PBGC's claims going forward.

                                                                                                                        In accordance with FASB Accounting Standards Codification Section 450, PBGC's exposure
                                                                                                                        to losses from single-employer plans of companies that are classified as reasonably
                                                                                                                        possible is disclosed in the footnotes. In order for a single-employer plan sponsor to be
                                                                                                                        specifically classified as reasonably possible, it must first have $5 million or more of
                                                                                                                        underfunding, as well as meet additional criteria. Criteria used for classifying a company as
                                                                                                                        reasonably possible include, but are not limited to, one or more of the following conditions:
                                                                                                                        the plan sponsor is in Chapter 11 reorganization; funding waiver pending or outstanding with
                                                                                                                        the Internal Revenue Service; sponsor missed minimum funding contribution; sponsor's bond
                                                                                                                        rating is below-investment-grade for Standard & Poor's (BB+) or Moody's (Ba1); or sponsor
                                                                                                                        has no bond rating but the Dun & Bradstreet Financial Stress Score is below the threshold
                                                                                                                        considered to be investment grade.



                                                                                                            - 8 -
                                                                                                                                                                                          11/15/2011 15:11:44

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF007 - Other Data Report

Other Data: 15              Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)                 Fiscal Year: 2011                  Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:        AR - MD&A Section VIII, Notes 2 & 9
       Status: Complete                                                                           I = Inactive Line



 Tab: Other Text Data

       Section: A               Section Name: Risk Assumed

Line         Question                                                                                                 Answer
2           Provide the actuarial or financial methods used to measure the present value of unpaid expected           2) The estimate of unfunded vested benefits exposure to loss is not based on PBGC-
            losses (SFFAS No. 5. par. 114)                                                                            guaranteed benefit levels, since data is not available to determine an estimate at this level of
                                                                                                                      precision. PBGC calculated this estimate, as in previous years, by using the most recent
                                                                                                                      data available from filings and submissions to the Corporation for plan years ended on or
                                                                                                                      after December 31, 2009. The Corporation adjusted the value reported for liabilities to
                                                                                                                      December 31, 2010, using a select rate of 3.93% for the first 20 years and 4.33% thereafter
                                                                                                                      and applying the expense load as defined in 29 CFR Part 4044, Appendix C. The rates were
                                                                                                                      derived in conjunction with the 1994 Group Annuity Mortality Static Table (with margins)
                                                                                                                      projected to 2020 using Scale AA to approximate annuity prices as of December 31, 2010.
                                                                                                                      The underfunding associated with these plans could be substantially different at September
                                                                                                                      30, 2011, because of the economic conditions that existed between December 31, 2010 and
                                                                                                                      September 30, 2011. The Corporation did not adjust the estimate for events that occurred
                                                                                                                      between December 31, 2010, and September 30, 2011.




                                                                                                       - 9 -
                                                                                                                                                                        11/15/2011 15:11:44

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 16              Analysis of FR Operating Revenue to Budget Receipts                                             Fiscal Year: 2011             Period: SEPTEMBER
        Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                Agency Notes:    N/A
       Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
      Section: A               Section Name: Operating Revenues to the Budget Receipts              No Data: YES             Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined          Decimal: User-Defined
Line Status    Line Description         NB      CY-Individual income tax   CY-Corporation income   CY-Unemployment taxes        CY-Excise taxes     CY-Estate and gift taxes   CY-Customs duties
                                                 and tax withholdings                    taxes
 1             Undistributed           Credit
               Offsetting receipts
               (offset against
               outlays)
 2             Proprietary receipts    Credit
               from the public
               (offset against
               outlays)
 3             Rents and royalties     Credit
               on the outer
               continental shelf
               lands (offset against
               outlays)
 4             Offsetting              Credit
               governmental
               receipts (offset
               against outlays)
 5             Intrabudgetary          Credit
               transactions (offset
               against outlays)
 6             Earned (exchange)       Credit
               revenue reported in
               the Statement of Net
               Cost
 7                                     Credit
 8                                     Credit
 9                                     Credit
 10            Total (exchange and      N/A
               nonexchange)

Line Status    Line Description         NB           CY-Other taxes and CY-Miscellaneous earned
                                                            receipts                 revenue
 1             Undistributed           Credit
               Offsetting receipts
               (offset against
               outlays)



                                                                                                   - 10 -
                                                                                                                                                            11/15/2011 15:11:44

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 16              Analysis of FR Operating Revenue to Budget Receipts                                  Fiscal Year: 2011             Period: SEPTEMBER
        Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                     Agency Notes:    N/A
       Status: Complete                                                                   I = Inactive Line


  Tab: Other Data Info.
      Section: A               Section Name: Operating Revenues to the Budget Receipts           No Data: YES     Line Attributes: Dollars
                                                                                                                Rounding Method: User-Defined         Decimal: User-Defined
Line Status    Line Description        NB          CY-Other taxes and CY-Miscellaneous earned
                                                          receipts                 revenue
 2             Proprietary receipts    Credit
               from the public
               (offset against
               outlays)
 3             Rents and royalties     Credit
               on the outer
               continental shelf
               lands (offset against
               outlays)
 4             Offsetting              Credit
               governmental
               receipts (offset
               against outlays)
 5             Intrabudgetary          Credit
               transactions (offset
               against outlays)
 6             Earned (exchange)       Credit
               revenue reported in
               the Statement of Net
               Cost
 7                                     Credit
 8                                     Credit
 9                                     Credit
 10            Total (exchange and      N/A
               nonexchange)




                                                                                                - 11 -
                                                                                                                                                                                    11/15/2011 15:11:44

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 16                Analysis of FR Operating Revenue to Budget Receipts                                                        Fiscal Year: 2011             Period: SEPTEMBER
        Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:    N/A
        Status: Complete                                                                                 I = Inactive Line


  Tab: Other Data Info.
      Section: B                 Section Name: Fiscal 2010 Budget Receipts Not Reported in the                   No Data: YES             Line Attributes: Dollars
                                               Operating Revenue                                                                        Rounding Method: User-Defined         Decimal: User-Defined


Line Status     Line Description          NB          CY-Individual income        CY-Corporation income            CY-Employment and         CY-Unemployment CY-Other retirement     C      CY-Excise taxes   C
                                                                 taxes   C                    taxes   C          general retirement C           insurance  C
 1       I      Earned (exchange)         N/A
                revenue reported in
                the Statement of Net
                Cost
 2       I                                N/A
 3       I                                N/A
 4       I                                N/A

Line Status     Line Description          NB       CY-Estate and gift taxes CY-Customs duties              C         CY-Miscellaneous
                                                                          C                                              receipts   C
 1       I      Earned (exchange)         N/A
                revenue reported in
                the Statement of Net
                Cost
 2       I                                N/A
 3       I                                N/A
 4       I                                N/A

     Tab: Other Text Data

        Section: A                 Section Name: Operating Revenues to the Budget Receipts                        No Data: YES

 Line         Question                                                                                                       Answer
 1            Provide a detailed description of the undistributed offsetting receipts reconciling item(s).
 2            Provide a detailed description of the proprietary receipts from the public reconciling item(s).
 3            Provide a detailed description of the offsetting governmental receipts reconciling item(s).
 4            Provide a detailed description of the intrabudgetary transaction reconciling item(s).
 5            Provide a detailed description of the earned revenue reconciling item(s).
 6            Provide a detailed description of the agency entered description reconciling item(s).




                                                                                                                - 12 -
     Audit of the Pension Benefit Guaranty
    Corporation’s Fiscal Year 2011 and 2010
     Special-Purpose Financial Statements


     Audit Report AUD-2012-4 / FA-11-82-4




                 Section XI

GF008G – Completion and Approvals Report
                                      U.S. Department of the Treasury/FMS             11-15-2011 16:45:54
                                     Governmentwide Financial Report System

                                    GF008 - Completion and Approvals Report


Entity: 1602 -    PENSION BENEFIT GUARANTY CORPORATION                          Year: 2011 SEPTEMBER

GF002 - Agency Audited Financial Statement Module
FPA Status:       COMPLETE                      By: SLESLI01                  Date:   14-NOV-11 12:21
CFO Status:       LOCK          Approved        By: WLUZIA01                  Date:   14-NOV-11 12:24
IG Action:        LOCK                          By: JMARCH02                  Date:   15-NOV-11 16:14

GF003 - Reclassification Module
FPA Status:       COMPLETE                      By: SLESLI01                  Date:   14-NOV-11 12:22
CFO Status:       LOCK          Approved        By: WLUZIA01                  Date:   14-NOV-11 12:24
IG Action:        LOCK                          By: JMARCH02                  Date:   15-NOV-11 16:25

GF004 - Intragovernmental Trading Partner Module
FPA Status:       COMPLETE                      By: SLESLI01                  Date:   14-NOV-11 12:22
CFO Status:       LOCK          Approved        By: WLUZIA01                  Date:   14-NOV-11 12:25
IG Action:        LOCK                          By: JMARCH02                  Date:   15-NOV-11 16:25

GF006 - FR Notes Module
FPA Status:       COMPLETE                      By: SLESLI01                  Date:   14-NOV-11 12:22
CFO Status:       LOCK          Approved        By: WLUZIA01                  Date:   14-NOV-11 12:25
IG Action:        LOCK                          By: JMARCH02                  Date:   15-NOV-11 16:25
GF007 - Other Data Module

FPA Status:       COMPLETE                      By: SLESLI01                  Date:   14-NOV-11 12:22
CFO Status:       LOCK          Approved        By: WLUZIA01                  Date:   14-NOV-11 12:25
IG Action:        LOCK                          By: JMARCH02                  Date:   15-NOV-11 16:25

CLOSING PACKAGE - IG
IG Opinion:       Unqualified                   By: JMARCH02                  Date:   15-NOV-11 16:33
IG Explanation:
    Unqualified

IG file attachment: 72411_PBGC_Combined IAR OIG FINAL.pdf




                                                      -1-
  Audit of the Pension Benefit Guaranty
 Corporation’s Fiscal Year 2011 and 2010
  Special-Purpose Financial Statements


  Audit Report AUD-2012-4 / FA-11-82-4




              Section XII

GF120 – Reclassification Audit Trail
Report at Statement Summary Level
                                                                          U.S.Department of the Treasury                                                                 11/15/2011 15:41:26
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                   GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:           BALANCE SHEET                                                                     Fiscal Year: 2011                                    Period: SEPTEMBER

          Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                           Reporting Method: MILLIONS                      Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                      Agency Amount              F/N    Closing Package Line Item       Reclassified Amount          Variance       Fiscal   Date/Time       User Id
                                                                                                                                                         Year

 B    Cash and cash equivalents                            (5,026)    F    Federal Investments                                     41               0    2011 10/26/2011 14:47:04 SLESLI01

                                                                      F    Fund Balance with Treasury                               1

                                                                      N    Cash and Other Monetary                            4,984
                                                                           Assets
 B    Cash and cash equivalents                            (4,448)    F    Federal Investments                                     48               0    2010 10/26/2011 14:47:04 SLESLI01

                                                                      F    Fund Balance with Treasury                               1

                                                                      N    Cash and Other Monetary                            4,399
                                                                           Assets
 N    Securities lending collateral                        (4,587)    N    Debt and Equity Securities                         4,587                 0    2011 10/26/2011 14:51:51 SLESLI01
      (Notes 3 and 5)
 N    Securities lending collateral                        (5,427)    N    Debt and Equity Securities                         5,427                 0    2010 10/26/2011 14:51:51 SLESLI01
      (Notes 3 and 5)
 B    Fixed maturity securities                           (44,951)    F    Federal Investments                               22,469                 0    2011 11/10/2011 12:07:29 SLESLI01

                                                                      N    Debt and Equity Securities                        22,464

                                                                      N    Derivative Assets                                       18

 B    Fixed maturity securities                           (39,631)    F    Federal Investments                               21,130                 0    2010 11/10/2011 12:07:29 SLESLI01

                                                                      N    Debt and Equity Securities                        18,526

                                                                      N    Derivative Assets                                      (25)

 N    Equity securities                                   (17,997)    N    Debt and Equity Securities                        17,996                 0    2011 11/08/2011 14:31:45 SLESLI01

                                                                      N    Derivative Assets                                        1

 N    Equity securities                                   (22,393)    N    Debt and Equity Securities                        22,393                 0    2010 11/08/2011 14:31:45 SLESLI01

 N    Private equity                                       (1,459)    N    Debt and Equity Securities                         1,459                 0    2011 10/26/2011 15:20:11 SLESLI01

 N    Private equity                                       (2,050)    N    Debt and Equity Securities                         2,050                 0    2010 10/26/2011 15:20:11 SLESLI01

 N    Real estate and real estate                            (536)    N    Debt and Equity Securities                             536               0    2011 10/26/2011 15:21:11 SLESLI01
      investment trusts
 N    Real estate and real estate                            (459)    N    Debt and Equity Securities                             459               0    2010 10/26/2011 15:21:11 SLESLI01
      investment trusts


                                                                                                   - 1 -
                                                                          U.S.Department of the Treasury                                                                   11/15/2011 15:41:26
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                    GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:            BALANCE SHEET                                                                       Fiscal Year: 2011                                   Period: SEPTEMBER

          Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                              Reporting Method: MILLIONS                     Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                       Agency Amount             F/N    Closing Package Line Item          Reclassified Amount         Variance       Fiscal   Date/Time       User Id
                                                                                                                                                           Year

 N    Other                                                   (22)    N    Debt and Equity Securities                                 22              0    2011 10/26/2011 15:22:44 SLESLI01

 N    Other                                                   (17)    N    Debt and Equity Securities                                 17              0    2010 10/26/2011 15:22:44 SLESLI01

 N    Sponsors of terminated plans                            (31)    N    Accounts and Taxes Receivable                              31              0    2011 10/26/2011 15:25:17 SLESLI01

 N    Sponsors of terminated plans                            (11)    N    Accounts and Taxes Receivable                              11              0    2010 10/26/2011 15:25:17 SLESLI01

 N    Premiums (Note 11)                                    (562)     N    Accounts and Taxes Receivable                             562              0    2011 10/27/2011 10:38:26 SLESLI01

 N    Premiums (Note 11)                                    (756)     N    Accounts and Taxes Receivable                             756              0    2010 10/27/2011 10:38:26 SLESLI01

 N    Sale of securities                                   (1,807)    N    Accounts and Taxes Receivable                         1,807                0    2011 10/26/2011 15:27:21 SLESLI01

 N    Sale of securities                                   (1,589)    N    Accounts and Taxes Receivable                         1,589                0    2010 10/26/2011 15:27:21 SLESLI01

 N    Derivative contracts (Note 4)                         (178)     N    Accounts and Taxes Receivable                              88              0    2011 11/08/2011 14:34:47 SLESLI01

                                                                      N    Derivative Assets                                          90

 N    Derivative contracts (Note 4)                           (78)    N    Accounts and Taxes Receivable                              76              0    2010 11/08/2011 14:34:47 SLESLI01

                                                                      N    Derivative Assets                                           2

 B    Investment income                                     (481)     F    Interest Receivable                                       182              0    2011 10/26/2011 15:39:40 SLESLI01

                                                                      N    Accounts and Taxes Receivable                               4

                                                                      N    Debt and Equity Securities                                295

 B    Investment income                                     (430)     F    Interest Receivable                                       176              0    2010 10/26/2011 15:39:40 SLESLI01

                                                                      N    Accounts and Taxes Receivable                               3

                                                                      N    Debt and Equity Securities                                251

 N    Other                                                    (3)    N    Accounts and Taxes Receivable                               3              0    2011 10/26/2011 15:41:19 SLESLI01

 N    Other                                                    (5)    N    Accounts and Taxes Receivable                               5              0    2010 10/26/2011 15:41:19 SLESLI01

 N    Capitalized assets, net                                 (33)    N    Property, Plant and Equipment                              33              0    2011 10/26/2011 15:41:41 SLESLI01



                                                                                                   - 2 -
                                                                        U.S.Department of the Treasury                                                                     11/15/2011 15:41:26
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                  GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:         BALANCE SHEET                                                                        Fiscal Year: 2011                                     Period: SEPTEMBER

         Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                             Reporting Method: MILLIONS                       Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                     Agency Amount             F/N    Closing Package Line Item          Reclassified Amount           Variance       Fiscal   Date/Time       User Id
                                                                                                                                                           Year

 N    Capitalized assets, net                               (32)    N    Property, Plant and Equipment                              32                0    2010 10/26/2011 15:41:41 SLESLI01

 N    Trusteed plans                                     91,719     N    Insurance and Guarantee                              (91,719)                0    2011 10/26/2011 15:49:31 SLESLI01
                                                                         Program Liabilities
 N    Trusteed plans                                     88,022     N    Insurance and Guarantee                              (88,022)                0    2010 10/26/2011 15:49:31 SLESLI01
                                                                         Program Liabilities
 N    Plans pending termination and                        346      N    Insurance and Guarantee                                   (346)              0    2011 10/26/2011 15:49:57 SLESLI01
      trusteeship                                                        Program Liabilities
 N    Plans pending termination and                        501      N    Insurance and Guarantee                                   (501)              0    2010 10/26/2011 15:49:57 SLESLI01
      trusteeship                                                        Program Liabilities
 N    Settlements and judgments                             56      N    Insurance and Guarantee                                    (56)              0    2011 10/26/2011 15:50:15 SLESLI01
                                                                         Program Liabilities
 N    Settlements and judgments                             55      N    Insurance and Guarantee                                    (55)              0    2010 10/26/2011 15:50:15 SLESLI01
                                                                         Program Liabilities
 N    Claims for probable terminations                     833      N    Insurance and Guarantee                                   (833)              0    2011 10/26/2011 15:50:49 SLESLI01
                                                                         Program Liabilities
 N    Claims for probable terminations                    1,445     N    Insurance and Guarantee                               (1,445)                0    2010 10/26/2011 15:50:49 SLESLI01
                                                                         Program Liabilities
 N    Insolvent plans                                     1,232     N    Other Liabilities                                     (1,232)                0    2011 10/26/2011 15:54:09 SLESLI01

 N    Insolvent plans                                     1,179     N    Other Liabilities                                     (1,179)                0    2010 10/26/2011 15:54:09 SLESLI01

 N    Probable insolvent plans                            3,243     N    Other Liabilities                                     (3,243)                0    2011 10/26/2011 15:56:59 SLESLI01

 N    Probable insolvent plans                            1,851     N    Other Liabilities                                     (1,851)                0    2010 10/26/2011 15:56:59 SLESLI01

 N    Derivative contracts (Note 4)                        173      N    Derivative Liabilities                                      (6)              0    2011 10/26/2011 16:08:52 SLESLI01

                                                                    N    Other Liabilities                                         (167)

 N    Derivative contracts (Note 4)                         67      N    Derivative Liabilities                                     (12)              0    2010 10/26/2011 16:08:52 SLESLI01

                                                                    N    Other Liabilities                                          (55)

 N    Due for purchases of securities                     4,079     N    Other Liabilities                                     (4,079)                0    2011 10/26/2011 18:27:59 SLESLI01

 N    Due for purchases of securities                     3,076     N    Other Liabilities                                     (3,076)                0    2010 10/26/2011 18:27:59 SLESLI01

 N    Payable upon return of                              4,587     N    Other Liabilities                                     (4,587)                0    2011 10/26/2011 16:12:50 SLESLI01
      securities loaned


                                                                                                  - 3 -
                                                                       U.S.Department of the Treasury                                                                     11/15/2011 15:41:26
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:        BALANCE SHEET                                                                        Fiscal Year: 2011                                     Period: SEPTEMBER

         Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                            Reporting Method: MILLIONS                       Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                   Agency Amount              F/N    Closing Package Line Item          Reclassified Amount           Variance       Fiscal   Date/Time       User Id
                                                                                                                                                          Year

 N    Payable upon return of                             5,427     N    Other Liabilities                                     (5,427)                0    2010 10/26/2011 16:12:50 SLESLI01
      securities loaned
 N    Unearned premiums                                   397      N    Other Liabilities                                         (397)              0    2011 10/26/2011 16:13:18 SLESLI01

 N    Unearned premiums                                   395      N    Other Liabilities                                         (395)              0    2010 10/26/2011 16:13:18 SLESLI01

 B    Accounts payable and accrued                          70     F    Benefit Program Contributions                               (1)              0    2011 10/26/2011 16:21:20 SLESLI01
      expenses (Note 8)                                                 Payable
                                                                   N    Accounts Payable                                           (58)

                                                                   N    Other Liabilities                                          (11)

 B    Accounts payable and accrued                        103      F    Benefit Program Contributions                               (1)              0    2010 10/26/2011 16:21:20 SLESLI01
      expenses (Note 8)                                                 Payable
                                                                   N    Accounts Payable                                           (88)

                                                                   N    Other Liabilities                                          (14)

 B    Net position                                     (29,062)    B    Net Position-Non-Earmarked                           29,062                  0    2011 11/10/2011 12:08:22 SLESLI01
                                                                        Funds
 B    Net position                                     (24,795)    B    Net Position-Non-Earmarked                           24,795                  0    2010 11/10/2011 12:08:22 SLESLI01
                                                                        Funds




                                                                                               - 4 -
                                                                        U.S.Department of the Treasury                                                                  11/15/2011 15:41:26
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                 GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:         INCOME STATEMENT                                                                   Fiscal Year: 2011                                    Period: SEPTEMBER

          Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                          Reporting Method: MILLIONS                      Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                    Agency Amount              F/N    Closing Package Line Item        Reclassified Amount          Variance       Fiscal   Date/Time       User Id
                                                                                                                                                        Year

 B    Total Costs                                       (12,865)    F    Benefit Program Costs                                   23                0    2011 11/08/2011 07:43:18 SLESLI01

                                                                    F    Buy/Sell Costs                                            5

                                                                    F    Federal Securities Interest                             35
                                                                         Expense
                                                                    F    Imputed Costs                                             5

                                                                    N    Non-Federal Gross Cost                             12,797

 B    Total Costs                                       (11,908)    F    Benefit Program Costs                                   21                0    2010 11/08/2011 07:43:18 SLESLI01

                                                                    F    Buy/Sell Costs                                            5

                                                                    F    Federal Securities Interest                             54
                                                                         Expense
                                                                    F    Imputed Costs                                             6

                                                                    N    Non-Federal Gross Cost                             11,822

 B    Total Revenue                                       8,597     F    Federal Securities Interest                         (1,174)               0    2011 11/08/2011 07:44:59 SLESLI01
                                                                         Revenue (exchange)
                                                                    F    Imputed Financing Source                                 (5)

                                                                    N    Non-Federal Earned Revenue                          (7,414)

                                                                    N    Other Taxes and Receipts                                 (4)

 B    Total Revenue                                       9,778     F    Federal Securities Interest                         (1,699)               0    2010 11/08/2011 07:44:59 SLESLI01
                                                                         Revenue (exchange)
                                                                    F    Imputed Financing Source                                 (6)

                                                                    N    Non-Federal Earned Revenue                          (8,062)

                                                                    N    Other Taxes and Receipts                                (11)

 B    Net position, beginning of year                   (24,794)    B    Beginning Net Position                             24,794                 0    2011 11/09/2011 14:33:07 SLESLI01

 B    Net position, beginning of year                   (22,664)    B    Beginning Net Position                             22,664                 0    2010 11/09/2011 14:33:07 SLESLI01




                                                                                                  - 5 -
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
